<html>
<title> - PRESIDENT'S PROPOSED EPA BUDGET FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-1032]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 110-1032
 
                  PRESIDENT'S PROPOSED EPA BUDGET FOR 
                            FISCAL YEAR 2008 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 7, 2007

                               __________

  Printed for the use of the Committee on Environment and Public Works



      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________

                       U.S. GOVERNMENT PRINTING OFFICE 

53-828 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
























               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         CRAIG L. THOMAS, Wyoming
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director






















                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 7, 2007
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     4
Lautenberg, Hon. Frank, U.S. Senator from the State of New Jersey     6
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     8
Voinovich, Hon. George, U.S. Senator from the State of Ohio......     9
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................    11
Craig, Hon. Larry, U.S. Senator from the State of Idaho..........    12

                               WITNESSES

Johnson, Stephen , Administrator, U.S. Environmental Protection 
  Agency Accompanied by: Benjamin H. Grumbles, Assistant 
  Administrator, Office of Water, U.S. Environmental Protection 
  Agency.........................................................    13
    Prepared statement...........................................    14
    Responses to additional questions from Senator Boxer.........    19
    Responses to additional questions from Senator Inhofe........    57
    Responses to additional questions from Senator Vitter........    62
    Responses to additional questions from Senator Voinovich.....    66
    Responses to additional questions from Senator Cardin........    68
    Responses to additional questions from Senator Carper........    70
    Responses to additional questions from Senator Sanders.......    72


                  PRESIDENT'S PROPOSED EPA BUDGET FOR 
                            FISCAL YEAR 2008

                              ----------                              


                        Wednesday, March 7, 2007

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3:00 p.m. in room 
406, Dirksen Senate Office Building, the Hon. Barbara Boxer 
(chairman of the committee) presiding.
    Present: Senators Boxer, Lautenberg, Warner, Baucus, 
Voinovich, Alexander, Bond, Cardin, Carper, Craig, Inhofe, 
Isakson, Klobuchar, Lieberman, Sanders, Thomas, Vitter, and 
Whitehouse.

         OPENING STATEMENT OF THE HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. We are going to call the hearing to order 
today. We are here today to review the President's proposed 
budget for the Environmental Protection Agency for fiscal year 
2008.
    We are awaiting others, but they will come as they can. It 
has been a very hectic day, and everybody is going to read the 
record on this, I am sure. We will take 5 minute rounds, and 
then the Administrator, we will give you 5 minutes, and then we 
will go into questions.
    Unfortunately, my view is that the President's proposal 
fails to provide EPA with the money it needs to fully protect 
the public health and the environment. Budgets are about 
priorities, whether we are talking about our own households or 
the Federal Government. By chopping hundreds of millions of 
dollars out of EPA's funding, this budget sends an unmistakable 
message to people who are concerned about our health and a 
clean environment, that you are not a high priority.
    This budget shortchanges core EPA programs of the resources 
they need to clean up toxic waste sites, prevent contamination 
from polluting our rivers and lakes, and reduce dangerous air 
pollution. Even programs that are specifically designed to 
protect our children have been cut.
    The American people are going to know about this, because I 
am going to tell them. Because if you live near one of the 
Nation's most heavily contaminated toxic waste sites, you need 
to know the Administration's budget cuts $7 million for those 
cleanups. The Nation has 1,240 Superfund sites. One in four 
people in the country lives within 4 miles of a Superfund site, 
including 10 million of our children. Why on earth would we cut 
back on that program?
    Human exposure, EPA's words, is not under control at 108 
sites. EPA has insufficient information to determine if 
exposure is under control at 162 sites. Over the last 6 years, 
the annual pace of Superfund cleanups has declined by 50 
percent, from more than 80 cleanups per year, to 39. This year, 
EPA revised their projected cleanups from 40 to 24. This is a 
71 percent decline. Just remember, when Bill Clinton was 
President, we had 80 cleanups a year. Now, we are looking at 
24.
    Based on internal documents, EPA has projected a cleanup 
backlog of more than $1 billion in fiscal year 2007. Something 
is wrong. The Administration proposes to reduce independent 
oversight of cleanups by slashing $6 million from EPA's 
Inspector General's funding to audit and analyze how to improve 
the Superfund program.
    If you want to take your family to enjoy a clean river or 
lake, you need to know that this budget asks Congress to cut 
almost $400 million to the Clean Water State Revolving Loan 
Fund Program, a 37 percent reduction. These funds go to water 
treatment projects that stop raw sewage and other pollution 
from washing into our Nation's waterways. More funding is 
needed, since almost 50 percent of our surface waters fail to 
meet, or are at risk of not meeting environmental standards.
    Undermining efforts to clean up unhealthy levels of air 
pollution, the President's budget would cut research funds 
needed to help set health-based air quality standards and to 
reduce the emission of toxic chemicals that cause cancer or 
reproductive harm. It would slash State and local air quality 
management program funding by $35 million. State and local 
officials run those programs to help clean up our Nation's air. 
When 150 million people live in areas with unhealthy levels of 
air pollution. Later in the time I have I am going to show you 
some examples of the quality or lack thereof of the air in 
parts of polluted California. It says to me we need to support 
clean air programs, not cut them.
    To have the Environmental Protection Agency agreeing to 
these kind of cuts is devastating to the people. The 
Environmental Council of the States, representing all 50 
environmental protection agencies, says, ``It is disappointing 
to see a budget proposal that cuts air programs and water 
programs, and has the biggest cut to water infrastructure in 
the history of the Agency.''
    The President also proposes to combine EPA's Office for 
Protecting Children's Health with its Environmental Education 
Office. By consolidating the functions of these two offices and 
eliminating $8 million in funding for environmental education, 
the Administration appears to undermine the purpose of the 
Children's Health Office. The reason we set up a separate 
Children's Health Office was to give attention to children's 
health. When you combine it, you are doing away with it. Let's 
call it what it is.
    EPA says it will spread out its children's health issues as 
one of many considerations addressed by multiple agency 
programs. This undermines the mission of the Children's Health 
Office. I can't wait to have this issue on the floor of the 
United States Senate, because we wanted in a bipartisan way to 
single out children's health because of the particular threat 
to children posed by environmental pollutants.
    Once again, with this budget the Administration takes us 
further down the wrong path, cutting dollars necessary to 
protect our air, water and communities from toxic pollution. We 
have to head in a different direction. The EPA needs to live up 
to its name and its mission: the Environmental Protection 
Agency, not the Environmental Pollution Agency. EPA's budget 
should reflect our shared values, our spiritual values, our 
religious values, our commitment to safeguarding the health of 
our families and all of God's children.
    The budget before us fails to meet this test. It is 
shocking to me, some of the initiatives that are in this 
budget, and again I say to my friend, Senator Inhofe, who 
missed my opening statement I am sure not by design.
    Senator Inhofe. No, ma'am.
    [Laughter.]
    Senator Boxer. We will be having a number of these issues 
about the children's health budget, the cuts to the States's 
water funds, all of these things will be issues when we get to 
the floor.
    I am delighted to see Senator Vitter has joined us, so 
Senator Inhofe, we welcome your opening statement. We are 
keeping it to 5 minutes.
    [The prepared statement of Senator Boxer follows:]

          Statement of Hon. Barbara Boxer, U.S. Senator from 
                        the State of California
    Today we will hear from a group of leading corporations and 
environmental groups who have agreed on a roadmap for next steps to 
address the global warming challenge.
    They have banded together to issue ``A Call for Action'' on global 
warming. They have concluded that ``we know enough to act'' on global 
warming and that ``Congress needs to enact legislation as quickly as 
possible.''
    I want to thank these companies for their report and let them know 
that I believe it makes an important contribution to helping solve the 
global warming problem.
    This group includes some of the world's largest corporations, such 
as General Electric, Dupont, BP, Caterpillar, Alcoa, and includes key 
energy companies such as Duke Power, Florida Power and Light and PG&E, 
from my home State of California.
    These companies produce products of all types, use fuels of all 
types, including coal, and are committed to being profitable for many 
years to come. As the Chairman of Duke Power noted on release of the 
report, Duke Power is the third largest user of coal in the United 
States. Yet all these companies agree that we need to act now to enact 
a mandatory program to address global warming.
    What is more, they agree on the targets for reduction, both in the 
short term and the long term. They agree that we need to stabilize 
world wide atmospheric concentrations of CO<INF>2</INF> at 450-550 
parts per million. Their targets for emissions include reductions of 
10-30 percent from today's levels within the next 15 years and a 60 
percent to 80 percent reduction from today's levels by 2050.
    These targets are consistent with what the scientists are telling 
us and they are consistent with the targets set forth in the Sanders 
bill, of which I am co-sponsor, as well as other bills introduced in 
this Congress.
    The companies and groups before us today also make clear that by 
acting now, we can help, not hurt our economy. They say that:
    ``Each year we delay action to control emissions increases the risk 
of unavoidable consequences that could necessitate even steeper 
reductions in the future, at potentially greater economic cost and 
social disruption.''
    The U.S. CAP report also makes the point that we need to enact an 
economy wide program.
    I am very proud of my home State of California, which enacted AB 
32, an economy-wide global warming bill. The California law sets a 
mandatory cap on carbon pollution, including a 25 percent reduction 
from projected levels by 2020 and the California Governor's Executive 
Order includes a target to reduce emissions 80 percent from 1990 levels 
by 2050.
    California is leading the way in combating global warming. And one 
of the companies here, Pacific Gas and Electric, has helped enormously 
by working hard to help increase California's energy efficiency, which 
is one of the highest in the Nation.
    I continue to believe we should approach this problem with hope and 
not fear. I am an optimist, and I believe we can solve this problem, 
and that in doing so, we will be better for it in every way.
    The members of the Climate Action Partnership who are here today 
agree with this approach. They say that ``In our view, the climate 
change challenge, like other challenges our country has confronted in 
the past, will create more economic opportunities than risks for the 
U.S. economy'' and that ``addressing climate change will require 
innovation and products that drive increased energy efficiency, 
creating new markets. . .  increased U.S. competitiveness, as well as 
reduced reliance on energy from foreign sources.''
    As business leaders that successfully compete in national and 
world-wide markets, they should know.
    We must face the challenge of global warming now. It is one of the 
great challenges of this generation. With the help groups and 
businesses like those in the Climate Action Partnership, this is a 
challenge we can and will meet.
    I look forward to hearing the witnesses' testimony.

          OPENING STATEMENT OF THE HON. JAMES INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    Welcome, Mr. Administrator. We are anxious to hear your 
testimony. I think I might find myself in partial agreement 
with the last thing that the Chairman said, and some of the 
things. What I would not want to happen, since we are talking 
about $500 million less than the previous year in this year's 
budget, the 2008 budget, is for you to come up with things that 
you know in your own mind that Congress isn't going to let you 
get by with. This is one of the things that we are, whether it 
is the State revolving fund or some of the clean water 
programs.
    So I would hope that in trying to meet this budget that you 
would be looking at it realistically and looking at things, not 
just making cuts where you know that it is going to be reversed 
during the congressional process.
    One place to exercise some budgetary restraint might be in 
the voluntary programs EPA has created that have not been 
authorized by Congress. Some of these may have laudable goals, 
but at a time when the agency is proposing cutting clean water 
funding by nearly $400 million, it may not be the time for 
administratively created programs.
    I raise the same concern about the Agency's international 
grants last year. While these programs may not add up to too 
much, it is a good starting point. And while I disagree with 
your cut to the SRS revolving fund, I am pleased to see that 
the Administration has proposed an alternative to fill the gap. 
The budget includes lifting the cap on private activity bonds 
for water and wastewater infrastructure projects. I look 
forward to working with the Administration to see if using the 
tax code through private activity bonds would help fill the 
infrastructure gap that has given us the shortfall of 
appropriated dollars.
    I would like to address also a couple of other issues. One 
of the obvious issues, Tar Creek. You guys have done a great 
job. That is the most devastating of all the Superfund sites. 
Finally, after 25 years of failure, we are doing the right 
thing. I commend you, DOI, the tribes, the Governor of the 
State of Oklahoma and all of us working together. It is a team 
effort that can truly be used as a model. It includes all of 
the Indian tribes that are involved up there. So I just hope 
that we have your commitment to continue that as you have in 
the past and see it through.
    The agency is in the process of finalizing several policies 
that are important to Oklahoma. Last year, you proposed the 
changes in the agency's drinking water affordability standard. 
As I have mentioned in the past, we have a real crisis in 
Oklahoma with regard to the disinfection byproducts rule. Had 
the affordability standard accurately reflected the needs, the 
small rural towns might not be in a such a dire situation.
    Furthermore, the agency will soon promulgate a new rule to 
again revise the spill prevention control countermeasure. We 
have every expectation that the proposal will address the 
issues that have been raised by Oklahoma farmers, as well as 
farmers in other States, the Oklahoma Farm Bureau, our 
refineries. We pretty took care of the problem that was on the 
airports with this spill policy, but we have not been able to 
do it. It needs to continue to its conclusion.
    In our water systems, going back to the previous point that 
I made, we have a total of 1,717 public water systems. Of 
these, 1,463 meet the State definition of a small system, which 
means the system only serves less than 3,300 people. Only 25 
systems in the State serve more than 10,000 people, so we are 
very much interested in that in our State of Oklahoma.
    My staff has continued to investigate EPA regions and how 
they vary in their implementations and rules. You will recall 
we had a hearing on that, Madam Chairman. We found that in some 
districts, I think region five was a problem, and is working 
out to address some of the treatment, the way they operate that 
is different from some of the other regions.
    And finally, Mr. Administrator, I am deeply interested in 
the EPA's implementation of the renewable fuel standard, in 
part because I moved that legislation through this committee 
while chairman, and also because I am committed to improving 
our energy security. On that note, I look forward to working 
with you to make sure that the agency takes steps to maximize 
fuel supply reliability, and particularly provide flexibility 
to small refineries, and at the same time continue our 
jurisdiction in this because it is always under fire.
    Thank you.
    Senator Boxer. Thank you very much, Senator.
    We are going to do the early bird rule, but we will go back 
and forth. So we are going to go to Senator Lautenberg, and 
then Senator Vitter.
    Senator, 5 minutes please. Welcome.
    [The prepared statement of Senator Inhofe follows:]

         Statement of Hon. James M. Inhofe, U.S. Senator from 
                         the State of Oklahoma
    Madame Chairman, I appreciate you having this hearing today. The 
issue of climate change has taken on a larger significance lately. And 
the subject of the day is mandatory carbon cap and trade. More and 
more, companies that wish to profit on the backs of consumers are 
coming out of the woodwork to endorse climate proposals in the hope of 
forcing customers to buy their unnecessary products or to penalize 
their competitors.
    Some companies are coming together in an attempt to profit from 
Government intervention where they have failed in the marketplace. 
Economists call this rent-seeking. But I think the Wall Street Journal 
was right. They are climate profiteers. These companies will gain 
market-share against their competitors while the economy flattens and 
jobs are sent to China--which in an ironic twist of fate will soon 
become the biggest emitter of carbon dioxide on the planet. Madame 
Chairman, not all companies have joined the climate profiteers. Most 
will be its victims, particularly small businesses that will no longer 
be able to compete. But the biggest losers won't be businesses, but 
American consumers.
    This proposal and others like it may be written in the form of 
Government regulatory mandates, but for all practical purposes, it is 
really a regressive tax on the American economy, where select powerful 
companies profit at the expense of seniors, the working class and the 
poor. These groups already pay disproportionately more of their monthly 
budget for energy, and this situation will only worsen under proposals 
like we see today. Let me be clear--this is the biggest tax hike in 
U.S. history.
    I am told that the rush to do something about global warming has 
gained momentum. But the not so hidden secret is that more and more 
serious scientists and political leaders are voicing their discontent 
with both the hype and the symbolic approaches that masquerade as 
solutions that are designed more to line the pockets of its promoters 
than to accomplish anything.
    Among scientists, of course, there is Claude Allegre--the French 
Socialist, geophysicist, and member of the French and American 
academies of science--who has said that warming may be due simply to 
natural variation and that this debate appears to be about money. There 
is also Nir Shariv, one of Israel's top young astrophysicists, who says 
there is no proof of man's contribution rather than natural variation.
    And then there are the political leaders. Prime Minister Stephen 
Harper reportedly once called the Kyoto accord a ``socialist scheme'' 
designed to suck money out of rich countries. And just last week, Czech 
President Vaclav Klaus made clear his disdain for politics parading for 
science when he said ``Global warming is a false myth and every serious 
person and scientist says so. It is not fair to refer to the U.N. 
panel. IPCC is not a scientific institution: it's a political body, a 
sort of non-government organization of green flavor.''
    You don't have to agree with my position on the science to question 
the wisdom of the cap and trade approach. These proposals will do 
little and cost much. Moreover, as White House spokesman Tony Snow 
stated last week, ``there is a carbon cap system in place in Europe, we 
are doing a better job of reducing emissions here,'' Snow said.
    The simple fact is that we cannot continue to put pressure on 
demand for natural gas in this country while we curtail the efforts of 
producers to supply it. We cannot demand significant emission 
reductions while Senators oppose the construction of new nuclear 
facilities. In short, we cannot demand reductions from our fossil fuel 
sector unless these demands can be met.
    The result can only be further increases and volatility of natural 
gas prices, continued and even increased job flight to countries that 
don't participate. But the biggest cost will be to consumers, who will 
be forced to foot the bill for this climate chicanery. That is why I 
have decided to fight for consumers and plan to introduce the 
Ratepayer's Protection Act, which will protect consumers in regulated 
States from having their rates raised to pay any climate schemes.
    Thank you.

        OPENING STATEMENT OF THE HON. FRANK LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you, Madam Chairman.
    Senator Boxer. Make sure you turn on your mic.
    Senator Lautenberg. This is the first time I have been 
accused of not being heard enough.
    [Laughter.]
    Senator Lautenberg. Senator Inhofe thinks I have been heard 
too much.
    [Laughter.]
    Senator Lautenberg. I want to begin with a statement, and 
welcome, Administrator Johnson, that you made during a recent 
EPA hearing. You said, and I quote you here, ``America's air, 
water and land are cleaner today,'' and I remember it vividly 
because I didn't quite get the support for that, ``than they 
were a generation ago under the Bush administration. This 
progress continues.''
    Unfortunately, actions speak louder than words. We have to 
look at the facts. First, President Bush wants to cut $7 
million from the Superfund program. We can't afford that. Ask 
the people who live near Superfund sites and they will tell you 
that we can't afford to work with less. We have more Superfund 
sites in our State than any other State in the Country. Right 
now, Superfund is cleaning up fewer and fewer sites and letting 
toxic chemicals gather in places where our children play.
    Now, in February, Chairman Boxer and I were at a site in 
South Plainfield, NJ working to get the Superfund program back 
on track. If we want to help that community, we have to have a 
budget that advances our goal, not turns its back on it.
    Second, President Bush wants to take away yearly $400 
million from the Clean Water State Revolving Fund, which keeps 
our streams, rivers, lakes and coastal waters safe from 
pollutants. New Jersey alone stands to lose $16 million under 
the Administration's plan. The health of our waters and our 
local economies depends on this and simply cannot afford this 
kind of a loss.
    Thirdly, President Bush wants to cut more than $35 million 
from State and local agencies that enforce the Clean Air Act. 
Yet the Clean Air Act is essential in removing from our air the 
harmful pollutants that can trigger respiratory illnesses such 
as asthma. Small particles alone can cause up to 30,000 
premature deaths a year.
    So what do we say to those parents of the children with 
asthma about that cut? I know what my daughter says to my 
oldest grandchild, who is 13, when he goes out to play sports. 
The first thing my daughter does is check to see where the 
nearest emergency room is. If the weather is bad and the air is 
not good and clear, it is a price that we pay in the family. 
There are millions of people across the country who will have 
the same result as a consequence of these cuts.
    Finally, if the science of climate change proves that the 
planet is warming, why does the President want to cut funding 
for the Federal Global Climate Change program? The EPA needs a 
budget that is more than talk. It needs a budget that will 
clean up our Superfund sites, keep our water clean, our air 
safe to breathe, and reduce global warming, but that is not 
what is said by this budget.
    I will do my part on this committee to make sure that EPA, 
Madam Chairman, has enough resources to act on these goals. I 
hope that we will all do that together.
    Thank you.
    Senator Boxer. Thank you so much.
    Senator Vitter.

          OPENING STATEMENT OF THE HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you, Madam Chairman, and thank you, 
Ranking Member Inhofe.
    Mr. Administrator, thank you for being here.
    Obviously, the EPA's work is very important to Louisiana, 
always has been, but quite frankly post-Katrina and post-Rita, 
that has never been more true than it is now. I know you 
appreciate that.
    I wanted to focus briefly in my opening comments on two 
very specific issues. One is the Lake Pontchartrain Basin 
Restoration Program. I recently sent you and EPA a letter about 
this. As you know, this was a program created in 2000, a bill I 
introduced when I was a House member. It was reauthorized in 
2006. It sets up a restoration program within the EPA for the 
largest watershed in our lake, built around Lake Pontchartrain, 
which is the second-largest lake in the U.S. after the Great 
Lakes.
    I appreciate that the EPA has been very supportive of this 
program in the past, and I would ask that you continue that 
support. Specifically because of the unusual nature of the 
continuing resolution for fiscal year 2007, you all have to 
perhaps make many more decisions and have fewer directives from 
us than normal. So I would specifically ask that you look at 
the Lake Pontchartrain Basin Restoration Program and continue 
the type of funding levels from EPA that we have together 
forged in the last several years. I look forward to your 
analysis of that and response in terms of specifically what you 
can do within the continuing resolution for fiscal year 2007.
    The second very specific issue I wanted to focus on is 
landfills in the greater New Orleans area post-Katrina. For 
several months now, I have expressed real concern about a 
couple of landfills in particular that have been opened under 
emergency regulations by the State DEQ and operated in eastern 
New Orleans to help deal with Katrina debris. I have been very 
concerned that they do not meet significant enough 
environmental standards. They were opened under emergency 
authority, and all this was done when there are other landfills 
in the area that meet higher standards, and that could accept 
all of this flow of waste and debris for the same cost or less.
    I have expressed this concern for several months, but 
something happened recently which really brought this concern 
to a new level. A couple of weeks ago, it was disclosed in the 
context of a separate Federal criminal investigation that lo 
and behold two people who were close associates to our former 
Mayor of New Orleans had hidden financial interests in the 
opening and in the operation of one of these landfills, the 
other has been closed, the only one still remaining open is the 
Old Gentilly landfill. Lo and behold, these two people had 
hidden financial interests and they helped get it open and get 
it permitted and get the contract with the city.
    I think it is of some note one of these two people is going 
to jail. He is in the process of going to jail in a separate 
Federal criminal matter, and the reason he is going to jail is 
because he was making money off another city contract because 
of his connections, not because of any work he performed. So 
basically, the exact same posture he appears to be in regard to 
the landfill deal, he is going to jail with regard to another 
deal.
    His other associate is not going to jail yet, but he has 
been named by the U.S. Attorney and the FBI in that other 
investigation as an unindicted co-conspirator, basically 
getting paid for his connections, not for any work performed. 
The two of them, it has finally been discovered, are in the 
middle of this other landfill deal.
    Now, I know it is not your job to prosecute criminal cases. 
I am not asking you to. What I am suggesting is that this 
newest revelation underscores my concern, and I think it adds a 
whole lot of credibility and legitimacy to the questions I have 
been asking about whether we are doing the right thing 
environmentally at this landfill. I think the answer is clearly 
not.
    It is also I think significant and important that in this 
landfill deal, the City of New Orleans actually owns the land. 
For owning the land, they retain 100 percent of the 
environmental liability in case there are problems in the 
future. For all of that, for owning the land, for having all of 
the liability, they get a whopping 3 percent of the revenue 
under this wonderful deal that the former Mayor's cronies have 
cut with the city.
    Again, I am not asking you to step into the shoes of the 
U.S. Attorney. I am asking you, with this newest revelation, to 
look at the environmental details of this landfill because 
there are serious concerns about it. I think it is very clear, 
given these new revelations, that this deal is about corruption 
and greed, not good public policy or good environmental policy.
    Thank you very much.
    Senator Boxer. Thank you, Senator Vitter.
    I want to point out that the committee did go down to New 
Orleans. We have seven Senators. We are all very concerned 
about this matter that was raised here, as well as other issues 
that don't fall under your domain. But this particular matter 
of a landfill, we hope you will take a very special look at it. 
I just want you to know the full committee is interested in 
this, so I hope you will keep the full committee briefed on 
this.
    Now, Senator Voinovich. Welcome.

        OPENING STATEMENT OF THE HON. GEORGE VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Thank you. I am pleased to be here. I 
thank you for calling this hearing today.
    I would like to thank you, Administrator Johnson, for being 
here today to discuss the President's proposed budget for the 
EPA. I look forward to spending some time with you to discuss 
your presentation. Thank you for serving our country, and I 
thank your family for their sacrifice. I appreciate all the 
time that you and your team spent with us last year on Clear 
Skies, even though we didn't clear the skies.
    [Laughter.]
    Senator Voinovich. As a former Governor and Mayor, I 
respect and know first-hand the enormous challenges that you 
have to address when working out a budget proposal. Putting 
together a budget is a process that requires responsible 
prioritizing and fiscal discipline in order to avoid breaking 
the bank, and responding to the orders that you get from OMB.
    I want you to know that the next few remarks that I make in 
this statement are not aimed at you personally or your team, 
because I have no idea of what you went through when you went 
to OMB and presented your case. You were probably told, this is 
your number; live with it and go back and eat it.
    I want to make that clear. I am really enraged with this 
budget. Okay? I really am. Again, I wasn't there with you to 
hear what you had to say to my friend that is the OMB director.
    In 2006, this past fiscal year, we suffered a budget 
deficit of $248 billion, and that is not taking into account 
the funds borrowed from the Social Security trust fund, which 
increases the deficit to $434 billion. According to OMB's 
numbers, even though we held non-security discretionary 
spending to less than 1 percent growth in fiscal year 2007, the 
budgets for non-security spending is less than 1 percent. In 
other words, we will still suffer from deficits totaling about 
a half-trillion dollars in 2007 and 2008.
    The meager 1 percent in non-security spending is a symptom 
of our political failure to address the real source of 
budgetary problems. In your case, according to my numbers, you 
are getting a 6.9 percent reduction in your budget, 6.9 
percent. Think of it. In refusing to address our entitlements, 
and instead placing the burden of fiscal austerity on 
discretionary spending means that, you know what, we are eating 
our seed corn. We will do little to solve our long-term budget 
problems, but we would fail in our responsibility to invest for 
the future in education, transportation, and the subject of 
today's hearing, our environment.
    The truth of the matter is, and nobody wants to say it, we 
do need a tax increase or we need tax reform. We can't keep 
going. You can't be carrying on a war the way we are in 
Afghanistan and Iraq, and see the spending for the 22 agencies 
in Homeland Security that have gone up over 300 percent, and 
think that you can run the Government of the United States with 
this kind of a budget. It is unacceptable. I am concerned, and 
I am going to get into just a few of these things because some 
of my colleagues are getting into some other ones. The Diesel 
Emissions Reduction Act, we worked so hard on it and got it 
done in 45 days. It leverages $4 for every $1 we put into it. I 
talked to Josh Bolten about this. I have talked to Portman 
about it. I said, for God's sake, when you are putting a budget 
together, if you can spend $1 and get $4 for it, you ought to 
support it. And what did they do? They proposed a $35 million 
cut from $50 million last year.
    The Great Lakes Legacy Act is another thing. We have been 
working on that to try and make that something very special, 
and $35 million for 2008. For 2007, the Administration 
requested $49.6 million. I know you have worked hard in helping 
to improve the Great Lakes and continue to work for Great Lakes 
regional collaboration to make the restoration and protection 
of the lakes a priority, but I told them last night, they had a 
big meeting here in Washington, that you are not going to get 
your money. He doesn't have it. We have to figure out how we 
get some more money in so that we can do some of the things 
that this country should be doing.
    As a member of this committee, I have worked hard to bring 
attention to the Nation's wastewater infrastructure needs. 
Every single year, I have participated in trying to get your 
budget up. This year is no exception. The EPA's budget is 
woefully inadequate to take care of the Nation's pressing water 
and wastewater infrastructure needs. What we have is a ticking 
time bomb, ready to blow up, but we continue to ignore our 
Nation's needs.
    As we on this committee know, billions of dollars have 
already been spent and billions more are needed to upgrade the 
Nation's aging waste treatment. I have people coming in here, 
$426 million to Akron and you have to get it done in 10 years; 
Cleveland in northeastern Ohio, $4 billion. The little Mayor of 
Fostoria came in and said, I have to spend $30 million and I 
have 12,000 people that live in my city. Either you have to 
back off with these orders that you are putting out there, or 
we have to come up with the money to help these people pay for 
this. You can't have it both ways.
    The environmental groups that are represented here ought to 
know that. Sure, you can jam it to it, but the fact is these 
people can't handle it. What we forget about, and some of our 
Senators know this, when we really did something about waste 
treatment around this country is when we had the 2575 program 
in the 1970s. That is when we really did it. Today, that 
infrastructure is just falling apart.
    So what I would like to say to you is this, is that I know 
you have a tough job, but you have to start to think about some 
of the things that you are asking people to do, particularly on 
the local level. This is a big unfunded mandate, and the guys 
over at OMB say, oh that's fine; we will just let them raise 
their rates, you know, 400 percent, 500 percent.
    These people can't afford that. So you ought to come back 
and say, you know what? We are going to give you more time. In 
Akron, Ohio, they wanted 30 years; no, you can't do it; you 
have to do it in 10 years or 15 years.
    Your folks are being unreasonable. If you can't do it, then 
come back to us and we will maybe give you some more 
flexibility to do the job that we have asked you to do.
    Thank you.
    Senator Boxer. Thank you, Senator.
    We are going back and forth by early bird.
    Senator Whitehouse.

OPENING STATEMENT OF THE HON. SHELDON WHITEHOUSE, U.S. SENATOR 
                 FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Chairman.
    Hello, Administrator. How are you?
    I was pleased to see that the EPA has recently promulgated 
some regulations about benzine in gasoline, although I am 
concerned that they don't take full effect until 2030, which 
seems like a long way off. My understanding is the proposed 
regulations do not consider the other aromatics that are added 
to gasoline, toluene and xylene. I am wondering what your plans 
are to take any action with respect to those; whether you 
believe that they are dangerous; and where they rank in your 
priorities. Is there any hope of the benzine time frame being 
accelerated?
    Senator Boxer. We are just making statements now. He can 
answer that later. We are doing opening statements.
    Senator Whitehouse. My opening statement is that I want to 
ask that question.
    [Laughter.]
    Senator Boxer. Duly noted, Senator.
    Senator Whitehouse. Thank you.
    Senator Boxer. Senator Craig.

          OPENING STATEMENT OF THE HON. LARRY CRAIG, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Craig. Well, in that case, if I am the last, I will 
be brief because I think it is important we get to you, Mr. 
Johnson, and also get to our questions.
    I think you have heard the frustration that has been 
expressed by a variety of my colleagues as it relates to your 
budget, and asking constituent compliance in areas where we may 
be taking away from them some of the resources that they are 
going to need to gain that kind of compliance.
    I still have a large Superfund site in my State that we 
continue to work toward filling. One of the issues, and you and 
I have had that conversation, is a little issue called arsenic 
in drinking water, and small communities, and compliance, and 
5,000 people, 3,000, 2,000 on a system and requirements that 
standards be met. I could dispute the standards. I won't 
because they are now the law of the land. But be that as it 
may, it is a compliance issue of considerable concern as to how 
we get to where we get in reasonable time.
    You have shown some flexibility. Everybody wants to get 
where we all want to get. At the same time, we have to have 
flexibility, cooperation. We are looking for affordability in 
so many issues.
    Another area that I have worked on, it is my understanding 
the agency may be working on proposed rules to help clarify air 
emissions reporting requirements for livestock operations. As 
you know, I have worked for some time to educate and to clarify 
the issue. I am always amazed that there are some that would 
like to call out the firemen and the AMTs and the police and 
the Federal emergency squads and FEMA because of a dairy farm 
in their community, even though they moved in yesterday and the 
dairy farm moved in a decade ago.
    Reality, though, says, and I believe it, that the Clean Air 
Act and the Clean Water Act and a myriad of other Federal and 
State environmental laws should continue to apply to 
agriculture. There is a threshold, though, that some are trying 
to cross, as you know, as it relates to pushing these cathodes 
into the Superfund and the Community Right To Know Acts. So 
your cooperation in working on that, and obviously we are 
gaining ground here in the Congress to support the reality of 
what we meant and intended under the original laws. Working 
with you is going to be awfully important on that.
    I could talk a little bit about Superfund. Now that I am 
the Ranking Member on the Superfund and Environmental Health 
Subcommittee, we will spend a little more time on that issue. 
But lastly, and as important, I understand your spending plan 
required by the fiscal year 2007 continuing resolution will be 
coming out on the 15th.
    I want to make sure that you make available the $11 million 
for the National Rural Water Association, so that our circuit 
riders on the ground can continue to work with our rural 
communities and help ensure compliance in those areas. Those 
are tasks that are nearly impossible for our small communities 
to meet, and the circuit rider issue serves them well. So I 
hope that is going to be the case in the proposal we will see 
on the 15th.
    Thank you much, Madam Chairman.
    Senator Boxer. Thank you so much, Senator Craig.
    Administrator Johnson, you have 5 minutes, and please, we 
will put your entire statement in the record, which we have, 
and we hope you will summarize and get to the salient points. 
Thank you.

STATEMENT OF STEPHEN JOHNSON, ADMINISTRATOR, U.S. ENVIRONMENTAL 
    PROTECTION AGENCY ACCOMPANIED BY: BENJAMIN H. GRUMBLES, 
 ASSISTANT ADMINISTRATOR, OFFICE OF WATER, U.S. ENVIRONMENTAL 
                       PROTECTION AGENCY

    Mr. Johnson. Thank you, Madam Chairman, and members of the 
committee. I am pleased to be here to discuss the President's 
fiscal year 2008 budget request for the Environmental 
Protection Agency. The President's $7.2 billion request builds 
upon EPA's record of accomplishments and funds its role as our 
Nation enters the next phase of environmental progress.
    Over our 36 years, EPA has laid a strong foundation to 
shift America to a green culture. Our citizens are embracing 
the fact that environmental responsibility is everyone's 
responsibility. So today, instead of having only 17,000 EPA 
employees working to protect the environment, we now have 300 
million Americans as environmental partners.
    These are exciting times. Our air, water and land are 
cleaner today than they were a generation ago. With this 
budget, our progress will continue. The evolution of 
environmental progress has come in part because we have proven 
that a healthy environment and a healthy economy can, in fact, 
go hand in hand.
    As the economy continues to grow, so do our energy needs. 
In order to help meet the President's ambitious clean energy 
and air goals, EPA's budget requests over $82 million to 
support our Energy Policy Act responsibilities. This includes 
$8.4 million to implement the renewable fuel standards and $35 
million for grants to cut diesel emissions from trucks and 
school buses.
    EPA also plays a vital role in advancing the 
Administration's aggressive, yet practical strategy for 
reducing greenhouse gas emissions. The President has requested 
$117.9 million for EPA's climate change programs, including $44 
million for the successful Energy Star Program, $5 million for 
the Asia Pacific Partnership Initiative, and $4.4 million for 
the Methane to Markets Program.
    The evolution of environmental progress requires EPA to 
work effectively with our State and local partners. The 
President's budget builds on this cooperation by providing $2.7 
billion to help our partners improve their water quality. We 
are also promoting the use of innovative tax-exempt private 
activity bonds for capital investments in drinking water and 
wastewater projects.
    Additionally, collaboration is the key to protecting 
America's great water bodies. In order to strengthen the 
efforts of EPA and our partners, the President is requesting 
$28.8 million for the Chesapeake Bay, $56.8 million for the 
Great Lakes, $4.5 million for the Gulf of Mexico, and $1 
million for Puget Sound.
    At EPA, we are working productively with our partners to 
deliver a healthier and more prosperous future. The President's 
budget provides $1.2 billion for the Superfund Program to 
continue transforming hazardous waste sites back into community 
assets.
    After highlighting some of our cooperative initiatives, we 
must also recognize the necessity of vigorously enforcing our 
Nation's environmental laws. The proposed 2008 enforcement 
budget, $549.5 million, is the highest enforcement budget ever.
    As EPA helps shape America's green culture, we understand 
the need to advance environmental science. The President's 
commitment to sound science is reflected in his $134 million 
request, an increase of $9.4 million to fund human health risk, 
clean air, and nanotechnology research.
    Finally, I must mention EPA's evolving role from being 
guardians of the environment to also guardians of our homeland. 
The President has requested $152 million for our homeland 
security responsibilities and water security and 
decontamination.
    While the Nation's environmental progress continues to 
evolve, so does EPA's role. This budget will fulfill EPA's 
responsibilities of being good stewards of the environment and 
good stewards of our Nation's tax dollars. By making smart use 
of our resources, we are not only building on our Nation's 
environmental accomplishments, we are creating a lasting legacy 
for future generations of Americans.
    Thank you and I look forward to addressing your questions. 
Thank you, Madam Chairman.
    [The prepared statement of Stephen Johnson follows:]

  STATEMENT OF STEPHEN L. JOHNSON, ADMINISTRATOR, U.S. ENVIRONMENTAL 
   PROTECTION AGENCY ACCOMPANIED BY BENJAMIN H. GRUMBLES, ASSISTANT 
  ADMINISTRATOR, OFFICE OF WATER, U.S. ENVIRONMENTAL PROTECTION AGENCY
    Madam Chairman and members of the committee, I am pleased to be 
here today to discuss the fiscal year (FY) 2008 budget request for the 
Environmental Protection Agency (EPA). The President has requested $7.2 
billion to support the work of EPA and our partners nationwide. This 
funding illustrates the Administration's unwavering commitment to 
setting high environmental protection standards, while focusing on 
results and performance, and achieving the goals outlined in the 
President's Management Agenda.
    The President's request builds on EPA's long record of 
accomplishments and funds its role as America enters into the next 
phase of environmental progress. These are exciting times for our 
Nation's environment. Since its founding, EPA has laid a strong 
foundation of environmental progress. Our air, water and land are 
cleaner today than they were just a generation ago, and with this 
year's budget, this progress will continue.
    While our Nation's environmental results are significant, it is 
important to understand how they're being achieved. Over our 36 years, 
EPA has laid a strong foundation to shift America into a ``green'' 
culture. Today, instead of having just 17,000 EPA employees working to 
protect the environment, we now have over 300 million Americans as 
environmental partners. Americans from all sectors of society--
businesses, communities and individuals--have begun to embrace the fact 
that the environment is everyone's responsibility, not just the 
responsibility of EPA.
    Madam Chairman, the FY 2008 budget will fund our new role in this 
next exciting phase of environmental progress.
    Our Nation is committed to balancing the budget, and EPA is a proud 
partner in this effort. EPA is not only a good steward of our 
environment, but it is a good steward of our nation's tax dollars. We 
are accountable for spending the taxpayer's money efficiently and 
effectively, while focusing on wisely investing in environmental 
results.
                  clean air and global climate change
    The FY 2008 President's Budget requests $912 million for the Clean 
Air and Global Climate Change goal at EPA. EPA implements this goal 
through its national and regional programs that are designed to provide 
healthier air for all Americans and protect the stratospheric ozone 
layer while also minimizing the risks from radiation releases, reducing 
greenhouse gas intensity, and enhancing science and research. In order 
to carry out its responsibilities, EPA utilizes programs that include 
many common elements, including: setting risk-based priorities; 
facilitating regulatory reform and market-based approaches; partnering 
with State, tribal, and local Governments, non-governmental 
organizations, and industry; promoting energy efficiency; and utilizing 
sound science.
    The Clean Air Rules are a major component of EPA work under Goal 1 
and include a suite of actions that will dramatically improve America's 
air quality. Three of the rules specifically address the transport of 
pollution across State borders (the Clean Air Interstate Rule, the 
Clean Air Mercury Rule, and the Clean Air Nonroad Diesel Rule). These 
rules provide national tools to achieve significant improvement in air 
quality and the associated benefits of improved health, longevity and 
quality of life for all Americans. In FY 2008, EPA will be working with 
the States and industry to implement these rules.
    In order to address the Nation's growing energy challenges, EPA's 
request supports activities associated with the Energy Policy Act of 
2005. These activities include the implementation of the Renewable Fuel 
Standards that will promote the use of renewable fuels, diversify our 
energy sources, and reduce our reliance on oil. EPA's request provides 
$35 million to support the new Diesel Emission Reduction Grants program 
that is designed to reduce diesel emissions in trucks and school buses 
through retrofitting and replacing existing engines. This program will 
target projects in areas that don't meet air quality standards to help 
ensure improvements occur in areas of the country where the benefits 
are needed most.
    In FY 2008, EPA's climate protection programs will continue its 
Government and industry partnerships to achieve reductions in 
greenhouse gas emissions and contribute to the President's goal of 
reducing greenhouse gas intensity by 18 percent in 2012. The 
President's request for EPA's voluntary partnership climate change 
programs and research on technology and science in FY 2008 is $118 
million. The request includes $4 million for the Methane to Markets 
Partnership which promotes methane recovery and use in landfills, coal 
mines and natural gas facilities. In addition, EPA's request provides 
$5 million to support the Asia Pacific Partnership-this partnership 
supports international efforts to reduce greenhouse gas emissions by 
creating new investment opportunities, building local capacity, and 
removing barriers to the introduction of more efficient technologies. 
EPA's climate partnership and technology research efforts are 
components of the Administration's Climate Change Technology Program. 
In addition, EPA's Global Change research program coordinates its 
efforts and actively contributes to the Administration's Climate Change 
Science Program.
                          clean and safe water
    The FY 2008 President's Budget requests $2.7 billion to implement 
the Clean and Safe Water goal through programs designed to improve the 
quality of surface water and drinking water. EPA will continue to work 
with its State, tribal, and local partners to achieve measurable 
improvements to the quality and safety of the nation's drinking water 
supplies as well as the conditions of rivers, lakes and coastal waters.
    The President's request continues the Administration's commitments 
to the Clean Water and Drinking Water State Revolving Funds. The 
President funds the Clean Water State Revolving Fund (CWSRF) at $688 
million, supporting the cumulative capitalization commitment of $6.8 
billion for 2004-2011 and enabling the CWSRF to eventually revolve at 
an annual level of $3.4 billion. The budget proposes $842 million for 
the Drinking Water State Revolving Fund (DWSRF), essentially the same 
as the 2007 level. This request keeps the Administration's commitment 
of achieving a long-term $1.2 billion revolving level.
    EPA has worked with Treasury and other parts of the Administration 
to propose expanded use of tax-exempt Private Activity Bonds for 
capital investments in drinking water and wastewater projects. The 
President's Budget proposes to exempt PABs from the private activity 
bond unified State volume cap. PABs are tax-exempt bonds issued by a 
State or local Government, the proceeds of which are used by another 
entity for a public purpose or by the Government entity itself for 
certain public-private partnerships. By removing drinking water and 
wastewater bonds from the volume cap, this proposal will provide States 
and communities greater access to PABs to help finance their water 
infrastructure needs and increase capital investment in the nation's 
water infrastructure.
    This Water Enterprise Bond proposal would provide an exception to 
the unified annual State volume cap on tax-exempt qualified private 
activity bonds for exempt facilities for the ``furnishing of water'' or 
``sewage facilities.'' To ensure the long-term financial health and 
solvency of these drinking water and wastewater systems, communities 
using these bonds must have demonstrated a process that will move 
towards full-cost pricing for services within 5 years of issuing the 
Private Activity Bonds. This will help water systems become self-
financing and minimize the need for future subsidies.
                   land preservation and restoration
    The Agency's FY 2008 budget request to Congress implements the Land 
Preservation and Restoration goal through EPA's land program activities 
that promote the following themes: Revitalization, Recycling, Waste 
Minimization, and Energy Recovery; Emergency Preparedness and Response; 
and Homeland Security.
    The President's budget provides $1.2 billion for the Superfund 
program to continue progress cleaning up the nation's most contaminated 
hazardous waste sites. As of the end of FY 2006, cleanup construction 
has been completed at 1,006 National Priorities List (NPL) sites. The 
Superfund program often completes short-term removal actions to 
mitigate immediate health threats at sites prior to completion of 
investigations and the start of long-term cleanup construction. EPA has 
continued its efforts to efficiently utilize every dollar and resource 
available to clean up contaminated sites and to protect human health. 
In FY 2006, EPA obligated $390 million of appropriated, State cost-
share, and responsible party funding to conduct ongoing cleanup 
construction and post-construction work at Superfund sites that 
includes nearly $45 million to begin construction at 18 new Superfund 
projects. Based upon the construction schedules, EPA expects to 
complete construction of all remedies at 24 sites in FY 2007 and 30 
sites in FY 2008. EPA expects to complete construction at 165 sites 
during the FY 2007 to FY 2011 time period, the goal established in the 
Agency's FY 2006 to FY 2011 Strategic Plan.
    In FY 2008, the Agency is requesting $34 million for the 
Underground Storage Tank Program to provide assistance to States to 
help them meet their new responsibilities, that include: 1) mandatory 
inspections every 3 years for all underground storage tanks; 2) 
operator training; 3) prohibition of delivery to non-complying 
facilities; 4) secondary containment of financial responsibility for 
tank manufacturers and installers; 5) various compliance reports; and 
6) grant guidelines. The Agency is also submitting new legislative 
language to allow States to use alternative mechanisms, such as the 
Environment Results Program, to meet the mandatory 3-year inspection 
requirement. This proposal provides States with a less costly 
alternative to meet the objectives of the Energy Policy Act.
                   healthy communities and ecosystems
    In FY 2008, EPA's Budget carries out the Healthy Communities and 
Ecosystems goal via a combination of regulatory, voluntary, and 
incentive-based programs. A key component of the Healthy Communities 
and Ecosystems goal is to reduce risks to human health and the 
environment through community and geographically-based programs.
    In FY 2008, $162.2 million was requested for the Brownfields 
program to support research efforts with additional assessments, 
revolving loan fund, cleanup grants and workforce development programs. 
When leveraged with State and local resources, this Brownfield funding 
will help assess more than 1,000 properties, clean up more than 60 
sites, and address petroleum contamination in more than 40 communities.
    EPA focuses on collaborative place-based programs to protect the 
great waterbodies--the Chesapeake Bay, the Great Lakes, the Gulf of 
Mexico and the Puget Sound.
    The Chesapeake Bay is the largest estuary in the United States and 
a water resource of tremendous ecological and economic importance. The 
greatest success in the last five years has been the water quality 
initiative that has resulted in new water quality standards for the 
Bay, the adoption of nutrient and sediment allocations for all parts of 
the watershed that meet new standards, and tributary-specific pollution 
reduction and habitat restoration plans. To continue to carry out these 
functions, the FY 2008 President's Budget requests $29 million in FY 
2008, an increase of over $2 million from the previous President's 
Budget request. Within the request is $8 million for competitive grants 
for innovative, cost-effective non-point source watershed projects, 
which reduce nutrient and/or sediment discharges to the Bay.
    The Great Lakes are the largest system of surface freshwater on 
earth, containing 20 percent of the world's surface freshwater and 
accounting for 84 percent of the surface freshwater in the United 
States. The goal of the Agency's Great Lakes Program is to restore and 
maintain the chemical, physical and biological integrity of the Great 
Lakes Basin Ecosystem. The President's FY 2008 budget commits $57 
million towards continuing efforts by EPA's Great Lakes program, 
working with State, local, and tribal partners and using the Great 
Lakes Regional Collaboration Strategy as a guide to protect and restore 
the Great Lakes. The Agency will focus on working with partners to 
clean up and de-list eight Areas of Concern (AOCs) by 2010, emphasizing 
clean up of contaminated sediments under the Great Lakes Legacy Act. 
EPA will continue to work towards reducing PCB concentrations in lake 
trout and walleye and keeping Great Lakes beaches open and safe for 
swimming during the beach season.
    The FY 2008 President's Budget Request provides $4.5 million for 
the Gulf of Mexico program to support Gulf States and stakeholders in 
developing a regional, ecosystem-based framework for restoring and 
protecting the Gulf of Mexico.
    EPA efforts in the Puget Sound are focused on the Basin's highest 
priority environmental challenges: air and water quality. The FY 2008 
Budget provides $1 million for restoration activities to improve water 
quality and minimize the adverse impacts of rapid development.
    Another major focus of the Healthy Communities and Ecosystems goal 
is identifying, assessing, and reducing the risks from pesticides. In 
FY 2008, EPA will continue identifying and assessing potential risks 
from pesticides. In addition, EPA will set priorities for addressing 
pesticide risks and promoting innovative and alternative measures of 
pest control. EPA will continue to meet its pesticide-related homeland 
security responsibilities by identifying and reviewing proposed 
pesticides for use against pathogens of greatest concern for crops, 
animals, and humans. EPA will continue to work closely with other 
Federal agencies and industry to implement its Registration Review 
program that will review existing pesticide registrations on a 15-year 
cycle to ensure that registered pesticides in the marketplace continue 
to be safe for use in accordance with the latest scientific 
information.
                compliance and environmental stewardship
    The EPA's FY 2008 Budget request of $743.8 million for the 
Compliance and Environmental Stewardship goal provides funding for 
programs that monitor and promote enforcement and compliance with 
environmental laws and policies. The Agency will also support 
stewardship through direct programs, collaboration and grants for 
pollution prevention, pesticide and toxic substance enforcement, 
environmental information, and continuing an environmental presence in 
Indian country.
    In FY 2008, the budget for this goal also provides $56.9 million 
for GAP grants, which will build tribal environmental capacity to 
assess environmental conditions, utilize available Federal information, 
and build an environmental program tailored to tribes' needs. The 
grants will develop environmental education and outreach programs, 
develop and implement integrated solid waste management plans, and 
alert EPA to serious conditions that pose immediate public health and 
ecological threats. Through GAP program guidance, EPA emphasizes 
outcome-based results.
                              enforcement
    In FY 2008, the proposed total of $549.5 million represents the 
highest requested enforcement budget. This request for an increase of 
$9.1 million reflects the Administration's strong commitment to the 
vigorous enforcement of our nation's environmental laws and ensures 
that we will have the resources necessary to maintain a robust and 
effective enforcement program.
    EPA's enforcement program continues to achieve outstanding 
enforcement results with settlements over the past 3 years resulting in 
commitments of nearly $20 billion in future pollution controls. As an 
outcome of EPA's Superfund enforcement actions in FY 06, parties held 
responsible for pollution will invest $391 million to clean up 15 
million cubic yards of contaminated soil and approximately 1.3 billion 
cubic yards of contaminated groundwater at waste sites. These results 
show a strong and vigorous enforcement program that will be attainable 
under the FY 2008 Request.
                                research
    EPA conducts research that provides a scientific foundation for the 
Agency's actions to protect the air that all Americans breathe. In FY 
2008, EPA's air research program will support implementation of the 
Clean Air Act, especially the National Ambient Air Quality Standards 
(NAAQS). The NAAQS programs will focus on tropospheric ozone, 
particulate matter, carbon monoxide, sulfur dioxide, nitrogen oxides, 
and lead. EPA also conducts research to improve understanding of the 
risks from other hazardous air pollutants, known as air toxics. EPA is 
also one of many Federal agencies that actively contribute to the 
Administration's Climate Change Science Program.
    Other important areas of research in FY 2008 will include: 1) 
development of molecular microarrays for detection of bacterial 
pathogens and non-pathogenic microbes in drinking water source waters; 
2) epidemiological studies on the illness rates resulting from 
untreated groundwater and distribution systems; 3) studies on the 
practices, such as blending, for handling significant wet weather 
events to identify ``best practices'' for preventing peak wet weather 
flows from overwhelming wastewater treatment facilities while 
protecting water quality; and 4) providing more efficient monitoring 
and diagnostic tools through continued research to develop methods of 
using landscape assessments for monitoring and assessing watershed 
conditions. These programs will help assess risks and priorities for 
ensuring clean water.
    EPA is requesting $10.2 million in FY 2008 for nanotechnology 
research, which will focus primarily on the potential implications of 
manufactured nanomaterials on human health and the environment. The 
Agency's efforts are coordinated with other Federal agencies through 
the National Nanotechnology Initiative (NNI), which the Administration 
has identified as a FY 2008 research and development budget priority. 
In FY 2008, EPA's Science to Achieve Results (STAR) program will 
continue to fund exploratory grants on the potential implications of 
manufactured nanomaterials on the environment and human health, in 
collaboration with other Federal agencies.
    The Agency also will continue in-house nanotechnology research 
initiated in FY 2007. The integrated programs will focus on: 1) 
assessing the potential ecological and human health exposures and 
effects from nanomaterials likely to be released into the environment; 
2) studying the lifecycles of nanomaterials to better understand how 
environmental releases may occur; 3) developing methods to detect 
releases of nanomaterials; and 4) using nanotechnology to detect, 
control, and remediate traditional pollutants.
    Recognizing that environmental policy and regulatory decisions will 
only be as good as the science upon which they are based, EPA makes 
every effort to ensure that its science is of the highest quality and 
relevance, thereby providing the basis for sound environmental 
decisions and results. EPA uses the Federal Research and Development 
(R&D) Investment Criteria of quality, relevance, and performance in its 
decision-making processes through: 1) the use of research strategies 
and plans; 2) program review and evaluation by the Board of Scientific 
Counselors (BOSC) and the Science Advisory Board (SAB); and 3) 
independent peer review.
                           homeland security
    Following the cleanup and decontamination efforts after the 
terrorist incidents in 2001, the Agency has focused on ensuring we have 
the tools and protocols needed to detect and recover quickly from 
deliberate incidents. The emphasis for FY 2008 is on several areas 
including decontaminating threat agents, protecting our water and food 
supplies, and ensuring that trained personnel and key lab capacities 
are in place to be drawn upon in the event of an emergency. Part of 
these FY 2008 efforts will continue to include activities to implement 
a common identification standard for EPA employees and contractors such 
as the Smartcard initiative.
    EPA has a major role in supporting the protection of the nation's 
critical water infrastructure from terrorist threats. In FY 2008, EPA 
will continue to support the Water Security Initiative (formerly known 
as Water Sentinel) pilot program and water sector-specific agency 
responsibilities, including the Water Alliance for Threat Reduction 
(WATR), to protect the nation's critical water infrastructure. The FY 
2008 budget provides $22 million for the Water Security Initiative to 
continue operation at the existing pilot systems and to begin 
deployment of the last pilot systems. Ultimately, an expansion of the 
number of utilities will serve to promote the adoption of Water 
Security within the water sector. Functioning warning systems, among 
several utilities of potentially divergent configurations, will afford 
a more compelling outcome than just one utility. After start-up of the 
remaining pilot systems in 2008, the program will ramp down as EPA 
shifts its focus to evaluation of the pilots. EPA will continue support 
of each pilot for three years, after which the host cities will assume 
maintenance of these systems and over time bring them to full-scale 
operation. By the end of FY 2007, EPA will issue interim guidance on 
design and consequence management that will enable water utilities to 
deploy and test contamination warning systems in their own communities.
    In FY 2008, the Agency, in collaboration with our water sector 
security stakeholders, will continue our efforts to develop, implement 
and initiate tracking of national measures related to homeland security 
critical infrastructure protection activities.
    In summary, this budget will enable us to carry out the goals and 
objectives as set forth in our Strategic Plan, meet challenges through 
innovative and collaborative efforts with our State, tribal, and 
private entity partners, and focus on accountability and results in 
order to maximize environmental benefits. The requested resources will 
help us better understand and solve environmental challenges using the 
best available science and data, and support the President's focus on 
the importance of homeland security while carrying out EPA's mission.
                                 ______
                                 
         Responses by Stephen Johnson to Additional Questions 
                           from Senator Boxer
               global change science & technology program
    Question 1. Funding for the EPA's Global Change Science & 
Technology Program was cut by $548,400 in from the FY06 enacted level 
to the President's Budget FY08 (See Appendix). Why was this program 
cut?
    Response. The President's FY 2008 request includes $17 million for 
climate change research at EPA. In FY 2008, EPA's global change 
research program will continue to play a major role in the interagency 
U.S. Climate Change Science Program (CCSP) and focus on developing the 
scientific understanding of how climate change will influence air and 
water quality, ecosystems, and human health. The program will also 
emphasize providing information and decision support tools that enable 
policymakers to respond effectively to global change. The budget 
reduction planned for FY 2008 will result in approximately one fewer 
research grant to study how global change will influence aeroallergens 
such as pollen and mold.

    Question 2. How do the above cuts exemplify the Bush 
administration's and the EPA's commitment to funding Climate Change 
science?
    Response. The President's FY 2008 budget includes a commitment of 
$17 million for climate change research at EPA and, more generally, 
over $1.8 billion for the U.S. Climate Change Science Program (CCSP). 
Together these agencies, with significant contributions from EPA, are 
implementing a coordinated strategy to improve our understanding of 
climate change and variability and strengthen the science that will be 
needed to address climate change.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        intergovernmental panel on climate change (ipcc) report
    Question 3. This IPCC report was strongly embraced by the Bush 
administration in the same press release, stating:
    The report confirms what President Bush has said about the nature 
of climate change and it reaffirms the need for continued U.S. 
leadership in addressing global climate issues. The report findings 
highlight the need for robust climate research and the development of 
new technologies to clean our air and deal with global climate change, 
while maintaining economic competitiveness.
    How do the above cuts fit with the Bush administration's support of 
the IPCC report and the need for climate research?
    Response. The President's FY 2008 budget includes a commitment of 
$17 million for climate change research at EPA and, more than $1.8 
billion for the Federal participants of the interagency Climate Change 
Science Program which includes 13 agencies and departments. Together 
these agencies, with significant contributions from EPA, are 
implementing a coordinated strategy to improve our understanding of 
climate change and variability and strengthen the science that will be 
needed to address climate change.
                          $29 billion studies
    Question 4. On February 8, 2007, in an online forum at the White 
House, you are quoted as saying, ``[S]ince 2001, the Bush 
administration has invested more than $29 billion to study climate 
change science, promote energy-efficient and carbon dioxide-reducing 
technologies, and fund tax incentive programs.''
    In September 2006, several of my colleagues and I sent a letter to 
James Connaughton, Director, White House Council of Environmental 
Quality asking questions regarding the $29 billion figure. This letter 
is attached. Because we have not received a response from Mr. 
Connaughton, we would like you to answer these questions. Please answer 
each of the specific questions in the attached letter.
    Response. It is our understanding that CEQ is in the process of 
responding to the letter. Inasmuch, EPA will defer.
                         pesticides--lead rule
    Question 5. EPA's Budget Justification says that the Agency is 
reducing funding to protect people from pesticides in order to fund 
work on a rule to reduce risks from lead. It seems clear that EPA needs 
more money to do its job of protecting public health.
    Describe the amount of money that EPA needs to both complete the 
lead rule and promptly review all of the pesticides that need to be 
reviewed to ensure their safety by the end of 2008.
    Response. EPA has requested $1,000,000 for the completion of the 
Lead Renovation and Remodeling (R&R) Rule in 2008. The FY 2008 
President's Budget provides sufficient funding to protect human health 
and the environment by reviewing pesticides to ensure their safety by 
the end of FY 2008, as mandated by FQPA and PRIA.
                     environmental justice--funding
    Question 6. The EPA is charged with ensuring environmental justice 
in its decisions and in the programs that it oversees. However, a 2004 
EPA Inspector General (IG) report concluded that the Agency had not 
``consistently integrated environmental justice into its day-to-day 
operations, [and that the Agency had] not established values, goals, 
expectations, and performance measurements'' for environmental justice. 
A 2006 IG survey ``showed that EPA senior management has not 
sufficiently directed program and regional offices to conduct 
environmental justice reviews'' in accordance with an executive order 
on environmental justice. The IG stated, ``Consequently, the majority 
of respondents reported their programs or offices have not performed 
environmental justice reviews.'' Clearly, EPA should be doing more--not 
less--to ensure environmental justice in its decisions and programs. 
However, the budget proposes to cut funding for environmental justice 
by more than $1.7 million, a 31 percent cut.
    Please describe:
    The amount of annual funding that EPA has provided to the National 
Environmental Justice Advisory Council (NEJAC) since 2001. Please also 
describe the level of Federal resources, measured by the number of 
fully staffed Full Time Equivalents, devoted to the NEJAC annually 
since 2001.
    Response. We are pleased to update you on the progress the Agency 
has made in addressing the concerns raised by the IG concerning the 
environmental justice program at EPA. Recently, we convened the Agency 
senior managers to complete the plan for developing and conducting 
environmental justice reviews for selected programs and activities. The 
Office of the Inspector General accepted the Agency's plan stating that 
``we accept the proposed actions and appreciate your constructive 
approach to the issues raised in our report.'' Developing and 
conducting environmental justice reviews is one component of many that 
the Office of Environmental Justice is undertaking to promote the 
integration of environmental justice into the day-to-day operations of 
the Agency.
    As indicated in the IG report, the ultimate goal is to integrate EJ 
into the Agency's core programs.
    With respect to the budget for the EPA's Environmental Justice 
program, the environmental justice base program is being reduced by a 
modest 1.0 FTE in the FY 2008 budget request (from the FY 2007 
Request). The reduction reflects efficiencies the program has been able 
to achieve from reducing the number of NEJAC subcommittees, requiring 
less Headquarters coordination and support. The decrease mentioned in 
your question refers to the earmark received in FY 2006, but not 
requested in FY 2008. As a matter of policy, the Agency does not 
sustain Congressional earmarks in its budget request.
    Although Congress did not provide an earmark in FY 2007, EPA 
increased funding by $850,000 for the environmental justice grant 
program.
    Staff support and funding for the NEJAC is provided by the Office 
of Environmental Justice as part of its mission. There is not a 
separate budget line item for the NEJAC activities. The following table 
provides funding for the Agency's Environmental Justice program project 
between FYs 2001 and 2008. FTE reductions in recent years are largely 
associated with a reduction in the number of NEJAC Subcommittees, 
requiring less Headquarters coordination and support.
    With regards to NEJAC meetings, EPA anticipates there will be three 
meetings held in FY 2008.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

              environmental justice--pollution prevention
    Question 7. EPA's process of reviewing Federal regulatory programs 
for pollution prevention opportunities by reducing the use and 
production of toxic chemicals as required the by the Pollution 
Prevention Act and endorsed by the NEJAC: Please provide a list of 
pollution prevention initiatives that seek to reduce the use and 
production of toxic chemicals in environmental justice communities that 
EPA has implemented since 2001. Please provide a description of 
initiative, its current status, and an assessment of its impacts in 
reducing the use and production of toxic chemicals.
    Response. The Office of Pesticides, Prevention, and Toxics has 
taken numerous actions since 2001 to reduce the use and production of 
toxic chemicals in environmental justice communities. Examples include:

     In 2003, the Agency initiated a new program, Community Action for 
a Renewed Environment, or CARE, to assist communities--especially those 
with EJ concerns--to better understand risks of, and to utilize 
pollution prevention and other approaches to reduce exposure to toxic 
chemicals in their communities. This grant and technical assistance 
program helps communities build local partnerships to understand risks 
from all sources, set priorities, and take voluntary actions to reduce 
risks. Cross program, multimedia teams have been organized in the 
Agency to work with the CARE. The CARE program is now working with 51 
communities in over 25 States.
     EPA has also been working with Tribes to address toxic chemicals 
concerns on tribal lands:

    -EPA's Office of Pollution Prevention and Toxics (OPPT) 
participates in the Forum for State and Tribal Toxics Actions (FOSTTA), 
which has conducted approximately three meeting per year concerning its 
Tribal Project. Further, the Office of Prevention, Pesticides and Toxic 
Substances has developed and is implementing an OPPTS Tribal Strategic 
Plan for Fiscal Years 2004-2008.
    -OPPT has also been engaged since FY 2002 with the Tribal Workgroup 
of the National Pollution Prevention and Toxics Advisory Committee 
(NPPTAC), chartered under the Federal Advisory Committee Act (FACA). 
The workgroup identified and framed two broad issues for consideration 
by the Committee: Green Buildings on Tribal Lands and Tribal Access to, 
and Utilization of, Publicly Available Chemical Hazard and Exposure 
Data. The Committee approved and provided to EPA two recommendations 
based on these issues. The Agency, in addition to supporting the Tribal 
workgroup, has begun to implement both of these recommendations.
    -OPPT is also developing a Tribal Green Building and P2 
Technologies Guidance Document under a contract with a tribal owned 
business. The document seeks to provide information which can be used 
to guide decision-making for Tribal Governments in their business and 
economic development plans. This document includes a cost/benefit 
analysis on green building options and technologies, including rain-
water run-off roofs, green landscaping, green building materials, etc. 
A draft of the document is currently being circulated for review among 
tribal communities, specifically seeking recommendations on its 
applicability in Indian County.
    -OPPT is working with the Department of Housing and Urban 
Development (HUD) to incorporate green building guidance into the 
Indian Housing Block Grants (IHBG) Program and other Tribal programs. 
HUD has indicated that they would include green building information on 
their website; negotiations on changing their IHBG guidance to include 
an emphasis on green buildings are continuing.
    -OPPT has initiated discussions with the Indian Health Service 
(IHS) to implement greener health care practices in Indian health 
clinics and hospitals IHS has begun EMS pilot sites at two facilities-a 
hospital and a clinic. IHS has identified additional sites to implement 
the EMS program, and has asked OPPT and the Hospitals for a Healthy 
Environment (H2E) organization for technical assistance.
    To ensure that pollution prevention approaches are considered in 
the development of regulations and major Agency actions, EPA's formal 
process for initiating and reviewing regulatory actions, known as the 
Action Development Process (ADP), includes a specific step to ensure 
that pollution prevention approaches are considered at the very 
beginning of the regulatory development process. The ADP includes the 
creation of a document known as an ``analytic blueprint,'' or ABP, for 
guiding the development of a major regulation or Agency action. The 
analytic blueprint is meant to specifically address the topic of 
pollution prevention (P2), and to examine potential P2 approaches, or 
to explain why P2 isn't an appropriate option for the particular 
regulatory action under development.
                          title vi complaints
    Question 8. The number of Title VI complaints since 2001 that the 
Agency has received based on environmental justice concerns, the number 
of complaints investigated, the number of permits reviewed, and the 
outcome of such reviews. Please include a description of the type of 
investigation and review, and dates for the beginning and completion of 
each review process.
    Response. Since 2001, the Agency has received 84 complaints based 
on environmental justice concerns. Of those 84 complaints, 26 
complaints are undergoing jurisdictional review and 8 complaints are 
under active investigation. Fifty of the complaints received since 2001 
have been closed. Forty-one of the closed complaints were rejected on 
jurisdictional grounds. The most frequent grounds for rejection were 
untimeliness and lack of a financial assistance recipient. One 
complaint was referred to another Federal agency that likely had 
jurisdiction. Another complaint was informally resolved by the parties.
    EPA's implementing regulations, found at 40 C.F.R. Part 7, state 
that it is EPA's policy to seek informal resolution of Title VI 
complaints whenever possible. EPA has employed alternative dispute 
resolution (ADR) techniques in several of our Title VI cases.
    The informal resolution of a complaint has occurred when the 
parties (i.e. EPA, complainant, and recipient) involved have reached a 
resolution by informal voluntary negotiations.
    Seven of the complaints received and reviewed since 2001 were 
dismissed after acceptance (see chart below). The withdrawal of a 
complaint has occurred when a complainant notifies EPA that it would 
like to withdraw their complaint. This withdrawal therefore dismisses 
the complaint and renders the case resolved. None of these seven 
complaints involved permit reviews.
    From 2001 to the present, the Agency has closed a total of 103 
complaints alleging discrimination by recipients of EPA assistance. 
Fifty-three of those complaints were received by the Agency prior to 
2001, and 50 of the complaints were received since 2001.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                        inspector general-staff
    Question 9. Please describe whether the IG, given the demographics 
of the Office, should be hiring and training staff now to ensure that 
it maintains its output and expertise as staff retire.
    Response. The OIG maintains an ambitious level of technical and 
management training, as appropriate for its staff and in compliance 
with the rigors of Comptroller General's Government Auditing Standards, 
which is certified through an independent peer review. This training, 
along with assignments designed to provide staff with developmental 
experience, increasing levels of responsibility, and supervisory 
opportunities, prepare them for greater challenges to build 
organizational competence at all levels. While approximately 11 percent 
of the EPA OIG staff are currently eligible for retirement, the OIG has 
built a strong core of young managers and has been highly successful in 
attracting and developing outstanding candidates when positions are 
available. The OIG constantly explores staffing and skill needs in 
relation to its strategic goals, specific assignments, and available 
resources to consider all options for accomplishing its mission, 
through the most efficient blend of permanent staff and specialized 
contract services. Within this overarching framework, the OIG plans to 
hire 5-10 new trainees each year.
 epa enforcementquestion 10. epa proposes to cut $1.3 million for the 
 superfund program's enforcement budget for forensic support to track 
polluters and make them pay. epa also expects a decline in the money it 
   recovers from polluters for past epa cleanups. epa should not be 
cutting enforcement resources at the same time that the agency's budget 
proposed to provide fewer funds for cleanups and independent oversight 
                  activities by the inspector general.
    Please describe the forensic programs that could have their funding 
cut under the proposed budget, including any potential funding cuts for 
work that may be done by the National Enforcement Investigations 
Center.
    Response. The Agency's FY 2008 request for the National Enforcement 
Investigations Center (NEIC), EPA's forensics laboratory, is sufficient 
to continue providing specialized scientific and technical support for 
the nation's most complex enforcement cases across all media. We are 
confident that the proposed FY 2008 budget achieves the appropriate 
balance between our programs.
    Most of the budget changes to the Forensics Support Superfund 
program represent a realignment of resources between appropriations and 
not a reduction to the program. EPA proposes to transfer resources from 
the Superfund appropriation to the Science and Technology appropriation 
to reflect a shifting workload between Superfund and non-Superfund 
activities. This shift is based on workload data used to establish a 
charging methodology for Superfund and non- Superfund activities.
                  climate change programs--energy star
    Question 11. During the Environment and Public Works Committee 
hearing on EPA's Budget, you mentioned EPA's Energy Star program 
numerous times, mentioning how successful a program it has been. 
According to your statement, in 2005 alone, Americans ``saved $12 
billion in energy costs'' from the Energy Star program.
    The FY 2006 enacted level was $49.5 million for Energy Star while 
the President's FY08 Budget requests $43.9 million, a decrease of over 
$5.6 million. Why would such a successful program be cut?
    Response. The reductions to the Energy Star programs in FY 2007 and 
FY 2008 reflect a decrease in Federal investment due to public and 
private industry adoption of these programs. For example, the 
acceptance of energy efficiency as an industry standard is now seen in 
building construction and in the manufacturing of hundreds of 
appliances. This decrease also included contract funding that reflects 
efficiency gains and shifting priorities.
       climate change programs--energy star goals and objectives
    Question 12. You also stated that you feel the budget provides 
``sufficient funds to be able to meet our fiscal year 2008 goals and 
objectives in Energy Star.'' Are the standards for goals and objectives 
being lowered to compensate for the decreased funding? Please provide 
details on the goals and objectives of the Energy Star for FY08, 
specifically noting any changes that have been made to goals from FY07.
    Response. EPA still anticipates that ENERGY STAR will meet its 
goals of avoiding 33 MMTCE and 40 MMTCE of greenhouse gas emissions in 
2007 and 2008. The goal for the Energy Star program includes ongoing 
work (that is work funded in previous years). This work is not 
dependent on the funding in the current year. The effects of the 
funding reduction in FY 2008 will be seen as EPA sets goals for future 
years.
                    climate protection program--s&t
    Question 13. Though funding for the EPA Climate Protection Program 
Science & Technology program increased by $554,400 in the President's 
Budget from FY07 to FY08, from the FY06 enacted level, the President's 
FY08 Budget represents a cut of over $5.5 million. (See Appendix) Why 
was this program cut?
    Response. Reductions from FY 2006 to FY 2008 to the S&T portion of 
the Climate Change program reflects a phase down in Federal investment 
in hydraulic hybrid technology development as a result of transfer to 
private sector of hybrid and clean diesel technologies. The plan to 
transfer these technologies will be as follows:

    1. Innovations are first evaluated by EPA engineers in the 
laboratory.
    2. EPA then works with private industry to demonstrate that the 
concept evaluated in the laboratory will work in the real world.

    Finally, EPA collaborates with industry partners to transfer unique 
expertise and know-how about specified technology from EPA engineers to 
private industry.
               global change science & technology program
    Question 14. Funding for the EPA's Global Change Science & 
Technology Program was cut by $548,400 in from the FY06 enacted level 
to the President's Budget FY08. 3(See Appendix) Why was this program 
cut?
    Response. The President's FY 2008 request includes $17 million for 
climate change research at EPA. In FY 2008, EPA's global change 
research program will continue to play a major role in the interagency 
U.S. Climate Change Science Program (CCSP) and focus on developing the 
scientific understanding of how climate change will influence air and 
water quality, ecosystems, and human health. The program will also 
emphasize providing information and decision support tools that enable 
policymakers to respond effectively to global change. The budget 
reduction planned for FY 2008 will result in approximately one fewer 
research grant to study how global change will influence aeroallergens 
such as pollen and mold.

    Question 15. How do the above cuts exemplify the Bush 
administration's and the EPA's commitment to funding Climate Change 
science?
    Response. The President's FY 2008 budget includes a commitment of 
$17 million for climate change research at EPA and, more generally, 
over $1.8 billion for the U.S. Climate Change Science Program (CCSP). 
Together these agencies, with significant contributions from EPA, are 
implementing a coordinated strategy to improve our understanding of 
climate change and variability and strengthen the science that will be 
needed to address climate change.
        intergovernmental panel on climate change (ipcc) report
    Question 16. This IPCC report was strongly embraced by the Bush 
administration in the same press release, stating:
    The report confirms what President Bush has said about the nature 
of climate change and it reaffirms the need for continued U.S. 
leadership in addressing global climate issues. The report findings 
highlight the need for robust climate research and the development of 
new technologies to clean our air and deal with global climate change, 
while maintaining economic competitiveness.
    How do the above cuts fit with the Bush administration's support of 
the IPCC report and the need for climate research?
    Response. The President's FY 2008 budget includes a commitment of 
$17 million for climate change research at EPA and, more than $1.8 
billion for the Federal participants of the interagency Climate Change 
Science Program which includes 13 agencies and departments. Together 
these agencies, with significant contributions from EPA, are 
implementing a coordinated strategy to improve our understanding of 
climate change and variability and strengthen the science that will be 
needed to address climate change.
       climate change programs--energy star and small businesses
    Question 17. On March 8, 2007 EPA Acting Assistant Administrator 
William Wehrum testified regarding the Energy Star Program, before the 
Committee on Small Business and entrepreneurship. He noted that ``in 
2006, there were more than 130,000 visits to the Energy Star small 
business web site.'' This program is needed to serve more than 26 
million small businesses as well as other institutions like churches. 
Yet EPA is proposing to cut the Energy Star Budget. What is the budget 
for the Energy Star Small Business program, and how many exclusive 
staff does this expenditure support? What percentage of the overall 
Energy Star budget is devoted to small business and how much will the 
overall amount decrease under the proposed cut?
    Response. The annual EPA budget for ENERGY STAR activities aimed 
directly at small businesses and congregations is approximately $1 
million. This represents approximately 2 percent of EPA's overall 
ENERGY STAR budget. However, in addition to these dedicated resources, 
a number of other efforts within the ENERGY STAR program directly 
benefit small businesses not including benefits to small businesses 
from the Department of Energy, who is a partner with EPA in ENERGY 
STAR. EPA efforts include:

     Maintaining an up-to-date website on energy efficient products 
and other energy saving information.
     Implementing outreach campaigns on proper maintenance of heating 
and cooling equipment and other energy saving practices.
     Technical tool development.
     Promotion of energy efficiency to commercial real estate 
operators, who are the landlords for many small businesses.
    Promotion of ENERGY STAR Commercial Food Service equipment to 
thousands of small businesses through the National Restaurant 
Association and other organizations.

     The ENERGY STAR small business program is supported by two full-
time EPA staff, as well as part-time efforts from a number of 
additional EPA staff.
     We have not yet considered the FY 2008 budget for support of the 
ENERGY STAR small business program, therefore it is not possible to 
determine the specific funding level at this time.
                          $29 billion studies
    Question 18. On February 8, 2007, in an online forum at the White 
House, you are quoted as saying,''[S]ince 2001, the Bush administration 
has invested more than $29 billion to study climate change science, 
promote energy-efficient and carbon dioxide-reducing technologies, and 
fund tax incentive programs.''
    In September 2006, several of my colleagues and I sent a letter to 
James Connaughton, Director, White House Council of Environmental 
Quality asking questions regarding the $29 billion figure. This letter 
is attached. Because we have not received a response from Mr. 
Connaughton, we would like you to answer these questions. Please answer 
each of the specific questions in the attached letter.
    Response. It is our understanding that CEQ is in the process of 
responding to the letter. Inasmuch, EPA will defer.
    superfund toxic waste cleanup program--npl sites beginning 1993
    Question 19. For sites listed under Superfund beginning in 1993 
that do not have a Federal Government agency as the potentially 
responsible party (i.e. non-federal Superfund sites), please describe: 
Whether the site has a final Record of Decision, including the date of 
any such document. The expected date for any such document to be 
signed, if it has not yet been signed. The amount of cleanup work 
already completed at the site and the expected date for completing any 
remaining cleanup work at the site, and for all sites that Federal 
Superfund money is being used to conduct a cleanup, the expected amount 
of money needed to finish construction activities required for cleanup.
    Response. The table in Attachment 1 contains data for 215 non-
federal, final National Priorities List (NPL) sites that were added to 
the NPL beginning in 1993 and that were not construction complete as of 
the end of FY 2006. Please note that:
     If a site had a final remedy selected as of the end of FY 2006, 
the fiscal year of that decision is indicated in the attachment.
     If a site did not have a final remedy selected as of the end of 
FY 2006, the latest planned completion date (FY) of any planned Records 
of Decision (RODs) is identified in the attached table. This date may 
not indicate the expected date of the final remedy decision, as 
additional RODs, ROD Amendments, or Explanations of Significant 
Difference may be necessary in the future that have not yet been 
planned. If no date was provided, then a future decision document 
planned completion date does not exist or was not currently available 
in the Agency's data system.
     Because site-wide cleanup is dependent upon multiple remedial 
and/or removal actions at potentially multiple subunits with differing 
costs and durations, EPA has not defined a measure to determine the 
percentage of total remedial work at a site that has been accomplished. 
For sites that have a Final Remedy Selected decision as of the end of 
FY 2006, the attached table provides the currently estimated 
construction completion date. Note that planning information in the 
Agency's data system is dynamic, and estimates change frequently for a 
variety of reasons.
     The amount of money needed to finish construction activities for 
cleanup at sites where Federal Superfund money is being used to conduct 
a cleanup is defined in this response as all FY 2007 and subsequent 
planned obligations for all Fund-lead construction actions at sites 
that are not construction complete as of the end of FY 2006. These 
estimates include both appropriated resources as well as resources 
recovered from settlements with potentially responsible parties (PRPs) 
and State cost share resources. Estimates do not include costs 
associated with post-construction or oversight of PRP implementation, 
nor costs of construction activities that have not yet been planned, 
nor costs associated with remedies that have not yet been selected. 
Lack of planning data may be due to several reasons, such as remedy 
decisions are still pending, projects are still in the early phases of 
design, or EPA is still identifying, or negotiating with, PRPs to 
perform the cleanup. Sites where a PRP has the lead for any planned or 
ongoing construction (last column of table in Attachment 1) may not 
include a cost estimate. However, some of these sites may also have 
planned or ongoing Fund-lead construction actions and the cost 
estimates for those projects are included.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                  superfund sites--short-term cleanups
    Question 20. Superfund limits EPA's use of short-term cleanup 
actions (i.e. removal actions) to 12 months from the date of the 
initial cleanup action or $2,000,000, with certain exceptions. These 
limitations ensure that EPA uses its long-term cleanup authorities 
(i.e. remedial action), which may have more substantial safeguards than 
short-term cleanups. Please describe the: Number and location of short-
term cleanups that EPA has conducted each year since 1996. Number of 
times that EPA has exceeded the statutory limitations described above 
on removal actions. Beginning and ending date, or the anticipated 
ending date, of all removal actions, and the amount of money that EPA 
spent on the removal action, or that the Agency anticipates spending on 
the removal action.
    Response. The Agency short-term clean-up action (removals) sites 
quickly address those releases that pose a threat to public health or 
welfare or the environment. Yearly, EPA uses its CERCLA removal 
response authority, to respond to hundreds of sites which pose 
immediate and substantial threats, such as chemical fires and spills, 
as well as illegal dumps and abandoned chemical plants.
    A removal action is generally short-term and addresses the most 
immediate site threats. Due to the nature of these responses and the 
unpredictability of the number, location and scope of those actions, 
the removal program is generally unable to predict the locality, 
duration, or total costs associated with a removal action, at the onset 
of the response action.
    In response to this question, by July 31, we will provide a listing 
of all fund lead removal actions taken since FY 1996. The list will 
also contain the requested start and/or completion dates, obligated 
funding and any exceptions to CERCLA statutory limitations.
                       superfund sites--cleanups
    Question 21. EPA's listing of new Superfund sites for cleanup has 
declined by 33 percent. Between 1995 and 2000, EPA listed an average of 
27 sites. Between 2001 and 2006, EPA listed an average of 18 toxic 
waste sites each year. Independent experts and the EPA recognize that 
there are enough unaddressed toxic waste sites to maintain the historic 
pace of listing through the end of this decade. Please provide the 
following information on EPA's listing process since 2001:
    All sites that EPA has requested a governor's concurrence to list 
under Superfund.
    Response. EPA does not track its requests for concurrence letters. 
The Agency only documents the receipt of concurrence letters since a 
site is not listed without such a letter. EPA believes it is important 
to have the State concur in the listing to ensure State support for the 
cleanup of the site. For a Fund-lead remedial action, the State will 
need to sign a Superfund State Contract (SSC) committing to cost-
sharing the construction of the remedy and operating / maintaining the 
completed remedy. Since 2001, EPA has received Governor/State 
concurrence letters requesting the listing of 115 sites from 32 
different States.

    Question 22. All sites that EPA has requested a governor's 
concurrence to list under Superfund but that EPA has not yet listed, 
including the reason for EPA's failure to list the site.
    Response. Of the 115 sites for which EPA has received governor/
state concurrence letters since 2001, only 8 have not been proposed to 
the NPL. See the table below for the reasons that the eight sites have 
not been proposed for listing.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Question 23. All sites that State or local officials have formally 
or informally requested EPA to list for cleanup under Superfund.
    Response. EPA tracks formal concurrence letters from governors 
requesting the listing of sites. Since 2001, EPA has received 115 of 
these letters. EPA does not track informal requests for listing.

    Question 24. All sites that State or local officials have formally 
or informally requested EPA to list for cleanup under Superfund but 
that EPA has not yet listed, including the reason for EPA's failure to 
list the site.
    Response. Of the 115 sites for which EPA has received formal 
concurrence letters since 2001, only 8 have not been proposed to the 
NPL. See the table above for the reasons that the eight sites have not 
been proposed for listing.
   national advisory council for environmental policy and technology 
                            (nacept) report
    Question 25. A 2004 EPA National Advisory Council for Environmental 
Policy and Technology (NACEPT) report found that in 2002 the Agency 
began using a new and additional layer of evaluation prior to listing a 
site under Superfund. EPA officials told NACEPT that a panel of Agency 
officials now considers various factors, including potential Superfund 
costs, prior to listing a site. The NACEPT reported stated that this 
was the first time that EPA has considered cost as a factor for listing 
sites. Please provide information on this process that describes the:

    Number of sites submitted to the panel on an annual basis.
    Response. EPA considered 44 sites for proposal on the National 
Priorities List (NPL) in FY 2003, 16 sites in FY 2004, 21 sites in FY 
2005, 22 sites in FY 2006, and 8 sites through March 2007.

    Question 26. Number of sites listed on an annual basis since the 
panel began reviewing sites for potential listing.
    Response. Sites proposed in any particular year may be added to the 
NPL in subsequent years. EPA added 20 sites to the NPL in FY 2003, 11 
sites in FY 2004, 18 sites in FY 2005, 11 sites in FY 2006, and 5 sites 
to date in FY 2007. EPA generally develops rulemakings for NPL listing 
twice a year, in March and September.

    Question 27. Name, location and contaminants of concern at sites 
that were submitted to the panel but that the panel did not recommend 
for listing, broken down annually.
    Response. The panel does not make decisions or recommendations 
about listing sites to the NPL.

    Question 28. Current status of sites that EPA decided not to list, 
including whether other State or Federal programs are actively cleaning 
up contamination at the site, including the name of the program 
currently conducting such cleanup activities.
                     superfund alternative approach
    Question 29. EPA's Use of the Superfund Alternative Site Process, 
signed by Chairman Boxer, Senator Clinton, Senator Baucus, Senator 
Lautenberg, and Senator Cardin. EPA describes its ``Superfund 
Alternative'' program as being designed to steer toxic waste sites away 
from being listed for cleanup under Superfund, even though they would 
normally qualify for listing. Please provide the following information 
on this program. A list of sites included within the program, including 
the number of sites added to the program annually, as well as each 
site's name, location (city and State), contaminants of concern, and 
the name of the party responsible for cleaning up the contamination at 
the site.
    Response. The Superfund Alternative (SA) approach is consistent 
with EPA Superfund's mission and practices by providing one more 
enforcement option for securing cleanup commitments from private 
parties in appropriate circumstances. This approach may be appropriate 
at sites that meet the following criteria:

     require long-term response (i.e. remedial action [RA]),
     are eligible for, but not listed on, the National Priorities List 
(NPL), and
     a viable potentially responsible party (PRP) is willing to 
perform the RA.

    EPA does not require EPA regions to negotiate SA agreements nor 
does it have any targets for using the SA approach. To date, EPA has 
identified 22 sites that are actively using the SA approach. 
Specifically, these are non-NPL sites where an agreement with a PRP has 
been finalized since publication of the guidance in June 2002. Please 
see Attachment A for detailed information on the 22 sites.
    In addition, a PRP-lead RA has begun at 3 of the 22 sites. These 
sites (and PRPs) are:

     Weyerhaeuser Co. Plymouth Wood Treating Plant (Region 4; PRP: 
Weyerhaeuser Co.);
     Highway 71-72 (Region 6; PRP: Canadian Oxy Offshore Production 
Co.); and
     Kennecott (South Zone) (Region 8; PRPs: Kennecott Utah Copper 
Corp.).

    Question 30. The number of sites eliminated from the program, 
including the year a site was eliminated, the reason for the site being 
eliminated, the name of the cleanup program that the site went into, if 
any, and any follow-up activity by EPA on the site.
    Response. The SA approach is not a stand-alone ``program''; rather, 
it is a settlement approach for use in appropriate circumstances. Sites 
are not ``eliminated from the [SA] program'' nor does EPA track the 
sites where a Region anticipated using the SA approach and then decided 
to pursue a different approach. However, EPA evaluated the data on 
sites with the SA ``flag'' in the Comprehensive Environmental Response 
Compensation and Liability Information System (CERCLIS) as of February 
2005 and found that there were a number of sites for which the SA flag 
should be removed. There were many reasons why these sites should not 
be flagged as SA, including, but not limited to, placement on the NPL 
listing path, plans to be addressed by the State, or were removal-only 
sites.

    Question 31. The amount of money that EPA has spent on this program 
and on each site within the program annually.
    Response. The SA approach is not a ``program'' along the lines of 
the removal or remedial programs. It is a settlement approach available 
for use in appropriate circumstances to help achieve the over-arching 
cleanup program's goals. Sites that currently have an SA agreement most 
likely had site screening and characterization activities that were 
initially paid for with Superfund money, but that are cost recoverable 
from the PRP. Some sites also had removal actions that were funded by 
Superfund; those funds are also cost-recoverable. The table in 
Attachment A has information on site expenditures.

    Question 32. The source of EPA funds spent at these sites, 
including whether the Agency could have used these funds for cleanup 
activities at listed Superfund sites.
    Response. EPA has spent appropriated funds at theses sites. In some 
instances, EPA has supplemented this appropriated funding with PRP 
settlement resources (please see the table in Attachment A). Prior to 
entering an agreement with a PRP to do work at any site, EPA uses 
Superfund money to perform activities such as site screening and 
characterization, and PRP searches. All such expenditures are cost 
recoverable. A majority of the SA agreements to date are for Remedial 
Investigation and Feasibility Studies (RI/FS). Work under SA agreements 
is funded by the PRP.
    The SA approach uses settlement authority to secure PRP-lead 
cleanups at sites that are eligible to be placed on the NPL. As PRPs 
pay for the work, the approach does not divert resources from other 
cleanup activities.

    Question 33. The types of activities conducted by EPA personnel at 
each site.
    Response. EPA personnel perform the same types of tasks at SA sites 
as at other Superfund sites. Activities include site screening and 
characterization, potentially responsible party searches, negotiations, 
and oversight.

    Question 34. The date that cleanup work began at the site.
    Response. Please see the table in Attachment A.

    Question 35.The extent of cleanup work completed at the site.
    Response. Please see the table in Attachment A.

    Question 36. The date that construction needed for all cleanup 
activities is expected to be completed.
    Response. EPA typically uses the planned construction completion 
date to estimate when all construction needed for cleanup activities 
will be completed. Since the programmatic measure of construction 
completions is only applied for Superfund sites listed as final or 
deleted on the NPL, information on planned construction completion 
dates for SA sites is not readily available.

    Question 37. Any critique of the program provided by EPA's 
Inspector General, State or local officials, or EPA personnel, and the 
steps that the Agency took to make any changes to the program 
recommended by such individuals.
    Response. There are four reports that have reviewed the SA 
approach:

    1. June 2007 Office of Inspector General (OIG) Report--EPA Needs to 
Take More Action in Implementing Alternative Approaches to Superfund 
Cleanups (Report No. 2007-P-00026).

     A report on the SA approach by EPA's OIG was released on June 7, 
2007.

    2. 2007 Internal Superfund Evaluation.

     An internal evaluation of the SA approach, undertaken jointly by 
OECA and OSWER, will also be released soon (expect summer 2007). This 
internal evaluation examined if the approach was being implemented 
consistent with the SA approach guidance.

    3. The April 2004 120-Day Study.
    An internal review of the Superfund program culminated in an April 
2004 report. The report included a few recommendations that addressed 
the SA approach. A copy of this report can be found at http://
www.epa.gov/superfund/action/120day/pdfs/study/120daystudy.pdf. Since 
that time, the Revised Superfund Alternative Site (SAS) Guidance was 
finalized and a sample General Notice Letter was developed for Regions 
to send to potentially responsible parties at sites where the SA 
approach is being considered.
    4. April 2004 Superfund Subcommittee of the National Advisory 
Council on Environmental Policy and Technology (NACEPT) Final Report

     The NACEPT report recommended that EPA's SA approach should 
remain a small pilot program until significantly more input is received 
from a broad range of perspectives. A copy of this report can be found 
at http://www.epa.gov/oswer/docs/naceptdocs/NACEPTsuperfund-Final-
Report.pdf.
     Partly in response to the NACEPT recommendation, in June 2004 EPA 
announced an 18-month pilot of the SA approach. As stated above, EPA 
Superfund's subsequent internal evaluation examined if the approach was 
being implemented consistent with the SA approach guidance.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                           sfsite--libby, my
    Question 38. EPA's Inspector General (lG) issued a report on 
December 5, 2006 that contained ``significant issues'' that are 
``critical to a successful cleanup'' of asbestos at the Libby Superfund 
site in Montana. The IG concluded EPA had ``not completed a toxicity 
assessment of amphibiole asbestos necessary to determine the safe level 
of human exposure; therefore, EPA cannot be sure that the Libby cleanup 
sufficiently reduces the risk that humans may become ill or, if ill 
already, get worse.'' The Agency failed to conduct an assessment 
because ``EPA did not approve the budget request and. . .  [the Office 
of Solid Waste and Emergency Response] believed that they could obtain 
the information they needed to determine the toxicity of Libby asbestos 
based on other epidemiology studies. . . '' However, the IG disagreed 
with EPA's characterization of and reliance on epidemiology work as a 
substitute for a toxicological assessment. The IG also found that EPA's 
public information documents, ``Living with Vermiculate'' and 
``Asbestos in Your Home'' are ``inconsistent about safety concerns.''
    The IG recommended that the EPA ``[f]und and execute a 
comprehensive amphibole asbestos toxicity assessment. . .  [that 
includes] the effects of asbestos exposure on children. . .  [and that 
the Agency] review and correct any statements that cannot be supported 
in any documentation mailed or made available to Libby residents 
regarding the safety of living with or handling asbestos until EPA 
confirms those facts through a toxicity assessment.''
    Please describe:

    a. The status of EPA's implementation of the IG's recommendations, 
including the status of any funding request for a toxicity assessment, 
and
    b. Whether EPA failed to approve the budget request for a toxicity 
assessment due to a lack of funds.

    Response. In response to the IG report, EPA agreed to immediately 
review and revise materials provided to Libby residents regarding the 
safety of living with or handling asbestos. EPA had already 
discontinued use of the fact sheets dealing with what to do if you 
encounter vermiculite, including the fact sheet, ``Living with 
Vermiculite''. Our overall message remains consistent--asbestos repair 
and removal should be performed by a trained professional. The advice 
in this document is being updated, and EPA will continue to work to 
ensure our communications with the public are clear and consistent.
    To ensure that EPA has all the information it needs to support a 
baseline risk assessment for Libby, in January 2007, EPA convened a 
group of more than 30 scientists from EPA, the Agency for Toxic 
Substances and Disease Registry (ATSDR) and the National Toxicology 
Program to identify data gaps and recommend additional studies. The 
meeting was hosted by EPA's Office of Research and Development (ORD) 
National Health and Environmental Effects Research Laboratory (NHEERL) 
in Research Triangle Park, North Carolina. The scientists also 
considered information from the Libby Technical Assistance Group.
     Based on the recommendations developed from the January 2007 
meeting, the EPA has identified and is implementing a comprehensive 
program of 12 studies to support the development of the Libby toxicity 
assessment. The description of these studies and the FY 2007 approved 
budget and projected funding needs for FY2008 are attached. Additional 
funding is anticipated for fiscal year 2009 to complete the studies. 
Detailed work plans are currently being developed and will include 
consultation with other agencies (e.g., the ATSDR, National Institute 
for Occupational Safety and Health (NIOSH), and the National Toxicology 
Program (NTP)) and external peer reviews.
    The toxicity studies are anticipated to be completed by September 
30, 2009; however, this date is tentative pending the completion of the 
detailed work plans. Results from the toxicity studies will be used to 
complete the baseline risk assessment, including the comprehensive 
toxicity assessment, by September 30, 2010.
    The Office of Solid Waste and Emergency Response has approved a 
budget of $2,581,750 in fiscal year 2007 for the Libby Action Plan. 
Additional funding is anticipated in fiscal years 2008 and 2009 to 
complete the studies.
    With regard to the funding of the budget request mentioned in the 
IG report, EPA believes that the OIG may have been referring to a 
specific toxicological study of noncancer effects using rats. EPA 
decided to initiate the evaluation of epidemiological data which is 
soon going to be available for external peer review.
             summary of toxicity assessment support studies
    a) Region 8/ORD National Center for Environmental Assessment 
(NCEA), Libby Amphibole Reference Concentration (LARC) Development. 
Region 8 is developing a site-specific Reference Concentration (RfC, 
the non-cancer toxicity value) for Libby Amphibole based primarily on 
epidemiological information from the Marysville, OH cohort who were 
exposed to Libby Amphibole. NCEA will assist by evaluating options for 
quantitative analysis of the Marysville, Ohio cohort including 
additional statistical support. Additionally, a human dosimetry model, 
constructed by ORD's National Health and Environmental Effects Research 
Laboratory (NHEERL), will be used to predict internal dose and will be 
integrated into the site-specific RfC. This site-specific product will 
be subject to external peer review. NCEA will provide assistance with 
the peer review process.
    b) NCEA, Libby Amphibole Cancer Assessment. NCEA will conduct a 
cancer assessment specifically for Libby Amphibole for the Integrated 
Risk Information System (IRIS). As with all IRIS assessments, available 
studies (epidemiologic and animal toxicity) will be considered, as well 
as models both for dosimetry and risk assessment. This effort will go 
through Agency and Interagency review as a standard assessment for the 
EPA's IRIS.
    c) United States Geological Survey (USGS), Preparation of Libby 
Testing Material. USGS will collect, prepare, and thoroughly 
characterize material from the Libby mine (under an Interagency 
Agreement with Region 8). This material will be used in the NHEERL 
laboratory animal toxicity studies and the analytical method studies.
    d) Region 8, Fiber Size Distribution in Libby Vermiculite. Region 8 
will verify the fiber size distribution of Libby Amphibole fibers 
entrained from Libby vermiculite. This work is necessary to support the 
site-specific RfC in development.
    e) NHEERL, Dosimetry Model Development and Simulation Studies. 
NHEERL will develop a dosimetry model using existing data and available 
equations for deposition and clearance based on general fiber 
dimensions. This model will allow for estimation of internal tissue 
dose (lung burden) in a generic sense but will need to be updated with 
Libby Amphibole-specific data. A dosimetry model will allow 
quantitative prediction of internal dose across species to facilitate 
improved understanding of the exposure-response in humans.
    f) NHEERL, In Vitro Dissolution Assays. NHEERL will evaluate key 
physicochemical parameters of clearance mechanisms to refine the 
dosimetry model predictions of retained dose. The study is designed to 
make use of a vast existing NHEERL database on the dissolution and 
potency of asbestos and other similar fibers.
    g) NHEERL, In Vitro Toxicity Endpoints. NHEERL will evaluate 
potential key events and endpoints (e.g., cytotoxicity, oxidative 
burden, genotoxicity) for known asbestos samples of Libby Amphibole and 
other better studied fibers.
    h) NHEERL, Comparative Toxicology in Mice and Rats. NHEERL will 
conduct animal studies to determine the relative potency of Libby 
Amphibole compared to other types of asbestos; evaluate non-respiratory 
endpoints; and evaluate the potential for an increased susceptibility 
for children by examining, in utero (infantile) and early lifetime 
dosing vs. adult animal treatment. These studies will be applied to the 
dosimetry model.
    i) NHEERL, Inhalation Toxicology in Rats. NHEERL, through a 
contract with the Hamner Institutes for Health Science, will conduct a 
90-day inhalation study (followed by various holding times) in the rat 
to examine a variety of toxicological endpoints. This study will also 
examine the relationship between duration of exposure and the nature 
and persistence of effects. The study will provide key data for the 
dosimetry model as well as long-term effects.
    j) Region 8/NCEA, New Epidemiologic Information from Libby Montana 
Cohort. Region 8 and NCEA will review recently available WR Grace 
information concerning historical worker asbestos exposures and 
associated asbestos-related abnormalities (pleural plaques, diffuse 
pleural thickening, asbestosis). This information will be included in 
the ongoing and future National Institute of Occupational Safety and 
Health (NIOSH) cohort updates and may include extended morbidity 
investigation of former WR Grace workers to evaluate the exposure-
response relationship; review and incorporate NIOSH mortality 
information; and evaluate biomarker data. Additionally, lung tissue 
collection will be pursued to improve the understanding of Libby 
Amphibole exposure and lung fiber deposition dosimetry and to support 
exposure-response modeling.
    k) Region 8/NCEA, New Epidemiologic Information from Other Cohorts. 
Region 8 and NCEA will work with NIOSH and the Agency for Toxic 
Substances and Disease Registry (ATSDR) to develop epidemiologic 
information from other cohorts exposed to Libby Amphibole.
    l) OSWER, Interim Risk Methodology for Quantification of Cancer 
Risk from Inhalation Exposure to Asbestos. OSWER is developing a 
methodology for estimating the risk of lung cancer and mesothelioma 
from inhalation exposure to different forms of asbestos. This 
methodology combines data from epidemiological exposure response 
studies with surrogate estimates of exposure (based on Transmission 
Electron Microscopy, or TEM) that characterizes both the fiber type and 
dimensions. Use of this draft interim risk assessment methodology will 
allow for estimates of risks of these effects for a variety of complex 
mixtures of asbestos materials. A consultation with the EPA Science 
Advisory Board on the models is planned for FY 2007.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                      superfund cleanup--troy, mt
    Asbestos contamination affects areas throughout the Libby Superfund 
site. One such area is Troy, Montana. In 2006, EPA stated that it 
planned to cleanup Troy High School and then cleanup the residential 
and commercial areas of Troy. Please provide a description of EPA's 
cleanup activities in the Libby Superfund site, including but not 
limited to Troy, which describes:

    Question 39a. The status of any EPA investigations or cleanup 
efforts involving areas where children may regularly visit or live.
    Response. EPA completed a Time Critical Removal Action at the Troy 
High School during the summer of 2006, after suspected Vermiculite 
Attic Insulation was noted in the school. EPA initiated a comprehensive 
Troy Asbestos Property Evaluation (TAPE) effort within the City of Troy 
(OU 7) during the spring of 2007. This is being conducted in 
coordination with the State of Montana. One purpose of the evaluation 
is to conduct a comprehensive sampling and analysis program to 
determine the nature and extent of contamination of residential and 
public areas within Troy.
     EPA estimates that approximately 1430 residences and commercial 
properties in the city of Libby, MT may require response actions. As of 
the end of May 2007, EPA has completed response actions at 828 of those 
properties.
     The status of investigations and response activity for the rest of 
the Libby Superfund Site is presented in EPA's written testimony for 
the public hearing held by the Committee in Libby on April 5, 2007.

    Question 39b. The number of residences and commercial buildings 
that need to be cleaned up,
    Response. This number cannot be finalized for Troy until the TAPE 
is complete, specifically the sampling and analysis of specific 
properties to determine if contamination is present. At present, EPA 
expects to sample approximately 1200 residential properties. The EPA 
expects that the evaluation process will take about 2 years. Because 
the sampling and analysis of properties have just begun, at this time 
we have no definitive estimate of the number of properties requiring 
response actions for cleanup of Libby asbestos contamination in Troy.
     In Libby, the estimated number of remaining properties that may 
require response action is approximately 602. The final number of 
properties that may require a response action is dependent on ongoing 
investigations and future Records of Decision.

    Question 39c. EPA's timeline for completing necessary cleanups, 
including Agency records that pose several possible timelines based on 
potential funding levels and other factors,
    Response. A timeline for completing the necessary response actions 
for residences in the City of Troy can not be determined at this time. 
Working with the State of Montana, the EPA has to complete its TAPE 
process. This will give EPA the number of residences that need to be 
cleaned up. EPA estimates that it will take approximately 2 years to 
complete the TAPE process.
     EPA expects to complete the remaining removal actions for Libby 
properties at the rate of approximately 160 per year. Ongoing remedial 
investigations will be used to determine future remedial actions and 
their timelines. We are researching our records (both hardcopy and 
electronic) to determine if other possible timelines were considered. 
We expect to have this search completed by August 31, 2007.

    Question 39d. The anticipated costs of completing these cleanups, 
and
    Response. The EPA is still working to identify the total number of 
properties in the city of Troy that may or will need to be cleaned up. 
We do not have an accurate estimate. Between 2004 and 2006 in the town 
of Libby, EPA conducted between 170 and 225 removal actions per year at 
a variety of commercial, residential and public properties through out 
various areas within the Libby Superfund site, budgeting $17M annually.
     The costs for completing all response actions at the site, 
including Troy, can not be determined until all of the Records of 
Decision are completed, which is tentatively planned for 2011.

    Question 39e. All EPA records, including any memoranda, email, 
meeting notes, telephone logs or other EPA records that describe actual 
or potential funding shortfalls since 2005 for cleanup work at the 
Libby Superfund site, including but not limited to investigation, 
characterization, and cleanup activities.
    Response. We are currently researching our records (both hardcopy 
and electronic) to identify all EPA Superfund records that may be 
responsive to this request. We expect to have this search completed by 
August 31, 2007.
                               pesticides
    Question 40. The budget proposes to cut more than $7 million in 
funding that EPA needs to analyze and reduce the risks from pesticides. 
EPA's Congressional Justification document admits that reducing this 
funding may ``delay'' EPA's review of pesticide safety and impact the 
use of ``safer alternatives.'' Describe the amount of money that EPA 
would need to promptly review all of the pesticides that need to be 
reviewed to ensure their safety by the end of 2009.
    Response. The FY 2008 President's Budget provides sufficient 
funding to evaluate, assess and review new pesticides before they reach 
the market and ensures that pesticides already in commerce are safe. 
The $7 million in reduced funding was distributed across the core 
pesticide program activities that are a result of streamlining and 
consolidating administrative management functions that maximize 
efficiency.
                         pesticides--lead rule
    Question 41. EPA's Budget Justification says that the Agency is 
reducing funding to protect people from pesticides in order to fund 
work on a rule to reduce risks from lead. It seems clear that EPA needs 
more money to do its job of protecting public health.
    Describe the amount of money that EPA needs to both complete the 
lead rule and promptly review all of the pesticides that need to be 
reviewed to ensure their safety by the end of 2008.
    Response. EPA has requested $1,000,000 for the completion of the 
Lead Renovation and Remodeling (R&R) Rule in 2008. The FY 2008 
President's Budget provides sufficient funding to protect human health 
and the environment by reviewing pesticides to ensure their safety by 
the end of FY 2008, as mandated by FQPA and PRIA.
                       toxic chemicals regulation
    Question 42. Polychlorinated biphenyls are known to cause cancer 
and other harmful health impacts. EPA's Congressional Justification 
document states, ``Resources are not included in the FY 2008 budget for 
a major PCB rulemaking.'' Which ``major PCB rulemaking'' is EPA 
delaying because of this budget? Provide written details of this 
rulemaking, including the types of risks the upcoming regulation is 
focused on addressing and EPA's timeline for the completing the needed 
rulemaking. Please provide any EPA records, including any memoranda, 
email, meeting notes, telephone logs or other EPA records that describe 
concerned raised by Agency staff or other individuals or institutions 
over the delay or potential delay of this rulemaking.
    Response. In the FY 2008 Annual Plan proposal to Congress, EPA 
wrote that ``Resources are not included in the FY 2008 budget for a 
major PCB rulemaking.'' At various times, EPA has considered the need 
to revise the current PCB regulations. EPA included this statement in 
the Annual Plan proposal to make it clear that we do not intend to 
undertake a major rule in FY 2008 as part of the transfer of the 
disposal and remediation portions of the PCB program from the Office of 
Prevention, Pesticides and Toxic Substances (OPPTS) to the Office of 
Solid Waste and Emergency Response (OSWER). This does not preclude 
rulemaking, if desirable, in FY 2009 and beyond.
    Effective October 1, 2007, the Agency expects to transfer the 
management of the PCB cleanup and disposal program to OSWER from OPPTS. 
OSWER is the office within EPA that manages cleanup and disposal 
activities related to the Resource Conservation and Recovery Act, 
Superfund and land revitalization. The transfer will group together 
similar activities in one office leading to greater overall 
efficiencies in EPA's cleanup and disposal activities. This transfer 
was referenced in the President's FY 2008 Annual Plan proposal to 
Congress.
    To facilitate this transfer, effective October 1, 2007, EPA will 
publish a procedural rule to move the administration of the PCB cleanup 
and disposal program from OPPTS to OSWER. It is anticipated that OSWER 
will implement the TSCA PCB regulations as they currently exist, and 
that there is no need to change the PCB cleanup and disposal 
regulations immediately before or after the transfer. As stated above, 
any future changes to the PCB cleanup and disposal regulations, if 
found to be desirable, would not occur until after fiscal year 2008.
    With regard to historical considerations of possible regulatory 
activities, in May 2004, the Utility Solid Waste Activities Group 
(USWAG) nominated the TSCA PCB remediation waste regulations for reform 
in a letter to OMB. In 2005, EPA consulted with USWAG and also held a 
public meeting to solicit input on this issue from stakeholders. The 
Agency submitted a response to OMB in September 2005. The Agency 
discussed the need to streamline the PCB regulations, in order to 
address, in particular, the differing provisions, which USWAG nominated 
for reform, relating to disposal requirements for PCB remediation waste 
at concentrations of less than 50 parts per million.
    As a result of the transfer within EPA, we will explore how to gain 
efficiencies in the PCB remediation and disposal program through closer 
coordination with the hazardous waste programs, and we will certainly 
consider whether regulatory changes are appropriate. Stakeholders have 
not raised any concerns with the current approach to address their 
issues or the consideration of future regulatory activity.
    It should be noted that OPPTS will retain management of PCB use and 
manufacturing issues.
                          endocrine disruptors
    Question 43. Endocrine disrupting chemicals can affect health--
including babies--at very low levels. The 1996 Food Quality Protection 
Act required EPA to implement an endocrine disruptor testing program by 
1999. However, EPA has so far failed to meet Congress's deadline. In 
2005, EPA's Board of Science Counselors recommended that the Agency 
hire more people to work on endocrine disruptors. EPA's Science 
Advisory Board recommended more funding for such work in 2006. But, 
EPA's 2007 and 2008 budget proposes to cut funding to this program. The 
2008 Congressional Justification document acknowledges the slow pace of 
action in language justifying the budget cut by saying, ``This decrease 
reflects the historic pace of program research and a shift to other 
priority areas in the Agency. The cut may postpone the validation of 
mammal assays, interlaboratory trials and initial screening of the 
first set of potential endocrine-disrupting chemicals.''
    Please describe the amount of money that EPA needs to complete 
validation for endocrine disruptor screening and testing, and to 
completely implement the screening and testing program by the end of 
2008.
    Response. Money does not constrain full implementation of the 
program by the end of 2008. EPA anticipates initiating screening of 
approximately 73 pesticide chemicals using the Tier 1 battery in 2008. 
Depending on data generated in Tier 1, Tier 2 tests will be required, 
which will provide the Agency with a more definitive assessment of a 
chemical's endocrine effects as well as dose-response information 
needed for risk assessment. With the exception of the mammalian 2-
generation tests (which the Agency considers validated), the other Tier 
2 tests targeting fish and wildlife are still undergoing development 
and validation as required by the Food Quality Protection Act.
    The validation process includes several steps, including test 
development, optimization, inter-laboratory comparisons, and finally 
peer review. This process takes time and must proceed sequentially 
because results from one study are used to formulate the design of the 
next study. Based on current laboratory progress, it is anticipated 
that the remaining Tier 2 assays will complete validation in the FY 
2009/2010 timeframe. The President's budget request for FY 2008 
supports this timeframe.
                     environmental justice--funding
    Question 44. The EPA is charged with ensuring environmental justice 
in its decisions and in the programs that it oversees. However, a 2004 
EPA Inspector General (IG) report concluded that the Agency had not 
``consistently integrated environmental justice into its day-to-day 
operations, [and that the Agency had] not established values, goals, 
expectations, and performance measurements'' for environmental justice. 
A 2006 IG survey ``showed that EPA senior management has not 
sufficiently directed program and regional offices to conduct 
environmental justice reviews'' in accordance with an executive order 
on environmental justice. The IG stated, ``Consequently, the majority 
of respondents reported their programs or offices have not performed 
environmental justice reviews.'' Clearly, EPA should be doing more--not 
less--to ensure environmental justice in its decisions and programs. 
However, the budget proposes to cut funding for environmental justice 
by more than $1.7 million, a 31 percent cut.
    Please describe:
    The amount of annual funding that EPA has provided to the National 
Environmental Justice Advisory Council (NEJAC) since 2001. Please also 
describe the level of Federal resources, measured by the number of 
fully staffed Full Time Equivalents, devoted to the NEJAC annually 
since 2001.
    Response. We are pleased to update you on the progress the Agency 
has made in addressing the concerns raised by the IG concerning the 
environmental justice program at EPA. Recently, we convened the Agency 
senior managers to complete the plan for developing and conducting 
environmental justice reviews for selected programs and activities. The 
Office of the Inspector General accepted the Agency's plan stating that 
``we accept the proposed actions and appreciate your constructive 
approach to the issues raised in our report.'' Developing and 
conducting environmental justice reviews is one component of many that 
the Office of Environmental Justice is undertaking to promote the 
integration of environmental justice into the day-to-day operations of 
the Agency.
    As indicated in the IG report, the ultimate goal is to integrate EJ 
into the Agency's core programs.
    With respect to the budget for the EPA's Environmental Justice 
program, the environmental justice base program is being reduced by a 
modest 1.0 FTE in the FY 2008 budget request (from the FY 2007 
Request). The reduction reflects efficiencies the program has been able 
to achieve from reducing the number of NEJAC subcommittees, requiring 
less Headquarters coordination and support. The decrease mentioned in 
your question refers to the earmark received in FY 2006, but not 
requested in FY 2008. As a matter of policy, the Agency does not 
sustain Congressional earmarks in its budget request.
    Although Congress did not provide an earmark in FY 2007, EPA 
increased funding by $850,000 for the environmental justice grant 
program.
    Staff support and funding for the NEJAC is provided by the Office 
of Environmental Justice as part of its mission. There is not a 
separate budget line item for the NEJAC activities. The following table 
provides funding for the Agency's Environmental Justice program project 
between FYs 2001 and 2008. FTE reductions in recent years are largely 
associated with a reduction in the number of NEJAC Subcommittees, 
requiring less Headquarters coordination and support.
    With regards to NEJAC meetings, EPA anticipates there will be three 
meetings held in FY 2008.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

              environmental justice--pollution prevention
    EPA's process of reviewing Federal regulatory programs for 
pollution prevention opportunities by reducing the use and production 
of toxic chemicals as required the by the Pollution Prevention Act and 
endorsed by the NEJAC: Please provide a list of pollution prevention 
initiatives that seek to reduce the use and production of toxic 
chemicals in environmental justice communities that EPA has implemented 
since 2001. Please provide a description of initiative, its current 
status, and an assessment of its impacts in reducing the use and 
production of toxic chemicals.

    Question 45. The Office of Pesticides, Prevention, and Toxics has 
taken numerous actions since 2001 to reduce the use and production of 
toxic chemicals in environmental justice communities. Examples include:

     In 2003, the Agency initiated a new program, Community Action for 
a Renewed Environment, or CARE, to assist communities--especially those 
with EJ concerns--to better understand risks of, and to utilize 
pollution prevention and other approaches to reduce exposure to toxic 
chemicals in their communities. This grant and technical assistance 
program helps communities build local partnerships to understand risks 
from all sources, set priorities, and take voluntary actions to reduce 
risks. Cross program, multimedia teams have been organized in the 
Agency to work with the CARE. The CARE program is now working with 51 
communities in over 25 States.
     EPA has also been working with Tribes to address toxic chemicals 
concerns on tribal lands:

    -EPA's Office of Pollution Prevention and Toxics (OPPT) 
participates in the Forum for State and Tribal Toxics Actions (FOSTTA), 
which has conducted approximately three meeting per year concerning its 
Tribal Project. Further, the Office of Prevention, Pesticides and Toxic 
Substances has developed and is implementing an OPPTS Tribal Strategic 
Plan for Fiscal Years 2004-2008.
    -OPPT has also been engaged since FY 2002 with the Tribal Workgroup 
of the National Pollution Prevention and Toxics Advisory Committee 
(NPPTAC), chartered under the Federal Advisory Committee Act (FACA). 
The workgroup identified and framed two broad issues for consideration 
by the Committee: Green Buildings on Tribal Lands and Tribal Access to, 
and Utilization of, Publicly Available Chemical Hazard and Exposure 
Data. The Committee approved and provided to EPA two recommendations 
based on these issues. The Agency, in addition to supporting the Tribal 
workgroup, has begun to implement both of these recommendations.
    -OPPT is also developing a Tribal Green Building and P<INF>2</INF> 
Technologies Guidance Document under a contract with a tribal owned 
business. The document seeks to provide information which can be used 
to guide decision-making for Tribal Governments in their business and 
economic development plans. This document includes a cost/benefit 
analysis on green building options and technologies, including rain-
water run-off roofs, green landscaping, green building materials, etc. 
A draft of the document is currently being circulated for review among 
tribal communities, specifically seeking recommendations on its 
applicability in Indian County.
    -OPPT is working with the Department of Housing and Urban 
Development (HUD) to incorporate green building guidance into the 
Indian Housing Block Grants (IHBG) Program and other Tribal programs. 
HUD has indicated that they would include green building information on 
their website; negotiations on changing their IHBG guidance to include 
an emphasis on green buildings are continuing.
    -OPPT has initiated discussions with the Indian Health Service 
(IHS) to implement greener health care practices in Indian health 
clinics and hospitals IHS has begun EMS pilot sites at two facilities - 
a hospital and a clinic. IHS has identified additional sites to 
implement the EMS program, and has asked OPPT and the Hospitals for a 
Healthy Environment (H2E) organization for technical assistance.
    To ensure that pollution prevention approaches are considered in 
the development of regulations and major Agency actions, EPA's formal 
process for initiating and reviewing regulatory actions, known as the 
Action Development Process (ADP), includes a specific step to ensure 
that pollution prevention approaches are considered at the very 
beginning of the regulatory development process. The ADP includes the 
creation of a document known as an ``analytic blueprint,'' or ABP, for 
guiding the development of a major regulation or Agency action. The 
analytic blueprint is meant to specifically address the topic of 
pollution prevention (P<INF>2</INF>), and to examine potential 
P<INF>2</INF> approaches, or to explain why P<INF>2</INF> isn't an 
appropriate option for the particular regulatory action under 
development.
                          title vi complaints
    Question 46. The number of Title VI complaints since 2001 that the 
Agency has received based on environmental justice concerns, the number 
of complaints investigated, the number of permits reviewed, and the 
outcome of such reviews. Please include a description of the type of 
investigation and review, and dates for the beginning and completion of 
each review process.
    Response. Since 2001, the Agency has received 84 complaints based 
on environmental justice concerns. Of those 84 complaints, 26 
complaints are undergoing jurisdictional review and eight complaints 
are under active investigation. Fifty of the complaints received since 
2001 have been closed. Forty-one of the closed complaints were rejected 
on jurisdictional grounds. The most frequent grounds for rejection were 
untimeliness and lack of a financial assistance recipient. One 
complaint was referred to another Federal agency that likely had 
jurisdiction. Another complaint was informally resolved by the parties.
    EPA's implementing regulations, found at 40 C.F.R. Part 7, state 
that it is EPA's policy to seek informal resolution of Title VI 
complaints whenever possible. EPA has employed alternative dispute 
resolution (ADR) techniques in several of our Title VI cases.
    The informal resolution of a complaint has occurred when the 
parties (i.e. EPA, complainant, and recipient) involved have reached a 
resolution by informal voluntary negotiations.
    Seven of the complaints received and reviewed since 2001 were 
dismissed after acceptance (see chart below). The withdrawal of a 
complaint has occurred when a complainant notifies EPA that it would 
like to withdraw their complaint. This withdrawal therefore dismisses 
the complaint and renders the case resolved. None of these seven 
complaints involved permit reviews.
    From 2001 to the present, the Agency has closed a total of 103 
complaints alleging discrimination by recipients of EPA assistance. 
Fifty-three of those complaints were received by the Agency prior to 
2001, and 50 of the complaints were received since 2001.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                   children's health--staffing levels
    Question 47. EPA's budget proposes to consolidate EPA's Office of 
Children's Health Protection and the Office of Environmental Education, 
while reducing funding for the new, combined office. The Agency also 
proposes to undercut the original purpose of the Office of Children's 
Health Protection by diffusing its responsibilities to other EPA 
offices.
    Please describe the actual or anticipated staffing levels, measured 
in staffed Full-Time Equivalents, for the Office of Environmental 
Education for 2005 and 2006, the Office of Children's Health Protection 
for 2005 and 2006, and the staffing levels for environmental education 
activities and Children's Health Protection activities, respectively in 
2007 and 2008.
    Response. The Office of Children's Health Protection and Office 
Environmental Education were combined as a result of a reorganization 
in 2006.
    The organizational entity that was the Office of Children's Health 
Protection is currently the Child and Aging Health Protection Division 
(CAHPD) in the new office. The CAHPD FTE level for FY 2007 is 12.9 FTE. 
The proposed FTE level for FY 2008 is 13.9. The FTE for the 
Environmental Education Program was 19.7 (10 of which were 1 FTE per 
Region) for fiscal years 2005, 2006, and 2007. The Agency is not 
requesting any FTE or dollar resources for Environmental Education in 
the President's FY 2008 budget.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

            children's health protection advisory committee
    The EPA established the Children's Health Protection Advisory 
Committee in 1997 to bring together representatives from industry, 
pediatric medicine, economists, community and environmental 
organizations, science and academia, nursing, Federal, State, local, 
and tribal Governments, and others to work on children's health issues. 
The Committee is part of EPA's Office of Children's Health Protection, 
and it provides EPA with expert advice on children's environmental 
health issues, including the evaluation of EPA standards, 
communications and outreach, and science.
    Question 48. In the past, EPA has requested the Committee review 
and provide recommendations for re-evaluating EPA standards to ensure 
they protect children's health. However, in recent years EPA has issued 
regulations and guidance documents that fail to address issues raised 
by the Committee. Please describe:

    1) The process that EPA uses to consult with the Committee:
    Response. The Children's Health Protection Advisory Committee 
(CHPAC) is chartered under the Federal Advisory Committee Act (FACA). 
The Committee is managed by the Office of Children's Health Protection 
and Environmental Education, and is a valued resource for the entire 
Agency on issues relating to children's environmental health. The CHPAC 
often meets with Agency leaders and staff to discuss areas of concern.
    The full Committee meets approximately three times a year, with 
numerous conference calls and email between meetings. The Committee has 
also formed a variety of working groups, both standing workgroups (e.g. 
Emerging Chemicals of Concern workgroup) and short-term workgroups 
addressing specific issues. The topics that the Committee take up may 
come from specific requests from EPA, be driven by upcoming Agency 
actions such as development of rules that affect children, or they may 
be initiated by the Committee.

    2) The Committee's recommendations:
    Response. The CHPAC recommendations are provided to the Agency via 
letters to the Administrator. All of the recommendations as well as the 
Agency responses are available on the Agency's website at:
    http://yosemite.epa.gov/ochp/ochpweb.nsf/content/whatwe--
advisory.htm.

    3) Whether EPA has implemented any of the Committee's 
recommendations:
    Response. Many, but not all of the CHPAC's recommendations have 
been implemented. As an advisory committee, the Agency welcomes the 
advice and insights of the Committee. However the CHPAC is only one of 
many groups whose recommendations the Agency uses and EPA must weigh 
those recommendations with many other considerations when making 
decisions.
    For example, in response to the committee's December 2002 letter to 
Administrator Whitman on Smart Growth Efforts and children's 
environmental health, the Office of Policy, Economics, and Innovation's 
Smart Growth Office incorporated children's environmental health into 
its smart growth grants and has recently announced a request for 
proposals for reducing environmental and health impacts of school 
siting.

    4) The reason for EPA's refusal to consult with or implement the 
Committee recommendations on the following decisions by the Agency:
    a. Merging the Office of Environmental Education and Children's 
Health Protection, including budgetary and staffing decisions,
    b. The Preliminary Remediation Goal for Perchlorate,
    c. The National Ambient Air Quality Standards for Particulate 
Matter,
    d. The National Ambient Air Quality Standard for Ozone,
    e. The National Ambient Air Quality Standard for Lead,
    f. The Agency's actions to address mercury air emissions since 
2001,
    g. The Voluntary Children's Chemical Evaluation Program,
    h. The need to address children's environmental health concerns 
from global warming,
    i. The need to address children's environmental health concerns 
from pesticides, and
    j. The need to protect children from potentially dangerous 
exposures to toxic substances, including but not limited to 
polybrominated diphenyl ethers. Please limit response to this question 
to the years, 2001 through 2007.
    Response. Again, there is never been a refusal by EPA to consult 
with or consider the recommendations of CHPAC. The recommendations of 
the committee must be considered and weighed against other, often 
competing opinions on how these various programs are to be managed. The 
Agency did consult with the Committee on several of the referenced 
topics, including perchlorate, mercury air emissions, the Voluntary 
Children's Chemical Evaluation program. All of the recommendations made 
by CHPAC, as well as the responses by the Agency, are available on 
website cited above.
                        inspector general--staff
    Question 49. Please describe whether the IG, given the demographics 
of the Office, should be hiring and training staff now to ensure that 
it maintains its output and expertise as staff retire.
    Response. The OIG maintains an ambitious level of technical and 
management training, as appropriate for its staff and in compliance 
with the rigors of Comptroller General's Government Auditing Standards, 
which is certified through an independent peer review. This training, 
along with assignments designed to provide staff with developmental 
experience, increasing levels of responsibility, and supervisory 
opportunities, prepare them for greater challenges to build 
organizational competence at all levels. While approximately 11 percent 
of the EPA OIG staff are currently eligible for retirement, the OIG has 
built a strong core of young managers and has been highly successful in 
attracting and developing outstanding candidates when positions are 
available. The OIG constantly explores staffing and skill needs in 
relation to its strategic goals, specific assignments, and available 
resources to consider all options for accomplishing its mission, 
through the most efficient blend of permanent staff and specialized 
contract services. Within this overarching framework, the OIG plans to 
hire 5-10 new trainees each year.
                            epa enforcement
    Question 50. EPA proposes to cut $1.3 million for the Superfund 
program's enforcement budget for forensic support to track polluters 
and make them pay. EPA also expects a decline in the money it recovers 
from polluters for past EPA cleanups. EPA should not be cutting 
enforcement resources at the same time that the Agency's budget 
proposed to provide fewer funds for cleanups and independent oversight 
activities by the Inspector General.
    Please describe the forensic programs that could have their funding 
cut under the proposed budget, including any potential funding cuts for 
work that may be done by the National Enforcement Investigations 
Center.
    Response. The Agency's FY 2008 request for the National Enforcement 
Investigations Center (NEIC), EPA's forensics laboratory, is sufficient 
to continue providing specialized scientific and technical support for 
the nation's most complex enforcement cases across all media. We are 
confident that the proposed FY 2008 budget achieves the appropriate 
balance between our programs.
    Most of the budget changes to the Forensics Support Superfund 
program represent a realignment of resources between appropriations and 
not a reduction to the program. EPA proposes to transfer resources from 
the Superfund appropriation to the Science and Technology appropriation 
to reflect a shifting workload between Superfund and non-Superfund 
activities. This shift is based on workload data used to establish a 
charging methodology for Superfund and non- Superfund activities.
                      epa laboratory funding cuts
    Question 51. EPA's laboratories play a vitally important role in 
ensuring the Agency appropriately safeguards public health and 
facilitating enforcement actions against polluters that violate such 
protections. A March 30, 2006 EPA Science Advisory Board report 
concluded, ``Between 2004 and the [budget] proposal for 2007, the 
inflation adjusted budget for EPA's Office of Research and Development 
has declined by just over 16 percent. . . The erosion of research and 
development remains a serious impediment to the Agency's ability to 
meet its mission of protecting human health and the environment through 
science based initiatives. . .  It is the opinion of the Board that 
EPA's research and development resources are grossly inadequate to 
address the scientific complexities of the Nation's environmental 
protection needs.''
    1. A June, 2006 memo from EPA's Chief Financial Officer directs EPA 
staff to ``consolidate'' laboratories by developing ``a plan for 
reducing the Agency's laboratory physical infrastructure costs by a 
minimum of 10 percent by 2009 and another 10 percent by 2011.'' The 
memo also directs Assistant Administrators to identify long-time, high-
level employees for early retirement.
    2. Please provide a written status update on the Agency's plans or 
actions to consolidate or reduce laboratory space or to reduce staff or 
freeze the hiring of new staff in the Office of Research and 
Development. Please include any draft or finalized reports that 
describe the steps that the Agency may take or has already taken to 
consolidate or to reduce staff in the Office of Research and 
Development.
    Response. As part of the FY 2008 budget process, the Office of 
Research and Development (ORD) was asked to work with the National 
Program Offices (NPOs) and 10 Regional offices to develop a plan to 
implement a study of the Agency's laboratory infrastructure 
requirements, capabilities, and operations. Similar studies have been 
carried out by the Agency in the past, with the most recent 
comprehensive laboratory study completed in July 1994. The goal of this 
review is to improve the effectiveness and efficiency of EPA's 
laboratory network (i.e., 39 laboratories in 30 cities) in order to 
ensure our ability to meet the environmental challenges of the future. 
This review will not result in the creation or closure of laboratories 
during the Administrator's tenure.
    In the near term, the study will focus on identifying efficiency 
and effectiveness opportunities at individual laboratories. Workgroups 
are working to more clearly frame and determine the scope of the 
laboratory infrastructure review and encourage each laboratory to 
brainstorm efficiency and cost saving measures. Savings and efficiency 
data are currently being requested from all the Agency's laboratories. 
A report from the near term study is anticipated in September of 2007.
    For the long term study, the Agency plans to engage an outside 
expert panel that will assess and evaluate the ability of EPA's 
laboratory network to address the Agency's mission over the next 10 
years. Efforts are underway to identify options for working with an 
outside expert panel.
    In addition to the laboratory study, we have begun an effort to 
analyze administrative service delivery and identify ORD-wide 
organizational alignment options and implementation approaches to 
achieve efficiencies in administrative support costs.
    We have not instituted a formal hiring freeze.

    Question 52. Please provide a written description of each EPA 
laboratory's annual funding level and the amount of staff resources, 
measured in staffed Full-Time Equivalent, for 2004 through 2008.
    Response. See following pages.
    Illegible response received however, the submitted document may be 
found in Committee files.
                 concentrated animal feeding operations
    Question 53. EPA plans to exempt pollution releases from 
Concentrated Animal Feeding Operations from Superfund's reporting 
requirements. In 2005, EPA said that these facilities ``can have a 
negative impact on nearby residents, particularly with respect to. . .  
odors and other nuisance problems. . .  [and] that concerns have been 
raised recently regarding the possible health impacts from [these 
facilities'] emissions.'' EPA entered into a settlement agreement with 
2,568 facilities that agreed to help determine how much air pollution 
they emit and to certify that they are complying with Superfund and 
other public health laws.
    Exempting these facilities from pollution reporting requirements 
could reduce needed data on the nation's largest source of ammonia. 
Ammonia emissions contribute to the formation of smog and particulate 
matter pollution. Pollution from these facilities also facilitates the 
deposition of nitrogen into water bodies, which contributes to water 
quality problems.
    1. The EPA's Office of Inspector General (IG) reported in February 
2007 that the Agency will not meet its goal of cleaning up the 
Chesapeake Bay by 2010, potentially due to continuing nitrogen 
deposition from regional sources. The IG recommended that EPA ``use the 
results of animal feeding operations emissions monitoring studies to 
determine what actions and strategies are warranted to address nitrogen 
deposition to the Bay from such operations.'' The IG noted that ``EPA 
concurred'' with this recommendation. Please describe whether exempting 
concentrated animal feeding operations from Superfund reporting could 
reduce or delay the creation of data on ammonia emissions nationwide by 
impacting the number of facilities that are working with EPA or other 
agencies to determine their levels of emissions and to certify that 
they are complying with all other public health laws.
    Response. EPA's promulgation of an exemption from Comprehensive 
Environmental Response, Compensation, and Liability Act (CERCLA) 
section 103 and Emergency Planning and Community Right-to-know Act 
(EPCRA) section 304 notification requirements for releases to the air 
of ammonia and hydrogen sulfide from animal waste (manure) at animal 
agricultural operations will not reduce or delay the creation of data 
on ammonia emissions nationwide under the terms of the air compliance 
agreement. Any possible exemption will not impact the number of 
facilities that are working with EPA or other agencies to determine 
their levels of emissions. Facilities that chose to participate in the 
air compliance agreement with EPA are legally bound to the conditions 
in the agreement.
                         coal combustion waste
    Question 54. Each year, more than 120 million tons of waste is 
produced in the United States from the burning of coal. In 2000, EPA 
committed to creating regulatory safeguards to protect public health 
when this waste is disposed of in surface impoundments, landfills, and 
mines. In 2006, the National Research Council acknowledged that 
disposal of this waste had in many cases ``caused considerable 
environmental damage. ``The Council concluded ``that the presence of 
high contaminant levels in many [coal combustion residue] leachates may 
create human health and ecological concerns...'' Please describe the 
actions that EPA has undertaken to develop national regulations and the 
anticipated date for the Agency's issuance of the proposed protections, 
and
    Response. EPA's primary efforts since the Regulatory Determination 
have been associated with development of additional information on the 
disposal of coal combustion wastes (CCWs) in landfills, surface 
impoundments, and mine lands.
    To inform the public of this information on landfills and surface 
impoundments and its availability for their consideration, EPA is 
planning to issue a Notice of Data Availability (NODA) next month. The 
NODA will make the following information available for public review 
and comment:

     Joint U.S. Department of Energy (DOE) and EPA report entitled, 
Coal Combustion Waste Management at Landfills and Surface Impoundments, 
1994-2004;
     Revisions to the Risk Assessment conducted by EPA on the 
management of CCW in landfills and surface impoundments; and
     An update to EPA's damage case assessment.

     The NODA also will make additional information available for 
public comment. Specifically, a rulemaking petition submitted by 
citizens' groups and two possible approaches to address coal combustion 
wastes: one prepared by the electric utility industry and the other 
prepared by citizens' groups. The Agency is seeking public comment on 
how, if at all, this additional information should affect the Agency's 
decisions as it continues to follow-up on its Regulatory Determination 
for CCW disposed of in landfills and surface impoundments.
     On the question of mine lands, EPA has been working with the 
Office of Surface Mining (OSM). OSM issued an Advanced Notice of 
Proposed Rulemaking on March 14, 2007. The comment period for the 
Advanced Notice closes on June 13, 2007.

    Question 55. Please describe the meetings that EPA personnel have 
had
    on this issue with other Federal agencies, including but not 
limited to the Office of Management and Budget, and stakeholders, 
including but not limited to the Utilities Solid Waste Activities 
Group.
    Response. Following the Regulatory Determination of May 2000, the 
Agency had a series of public meetings; meetings with the utilities 
industry to discuss their voluntary action plan; interaction with DOE 
to scope and then conduct a study on CCW management practices; meetings 
with OSM to coordinate and define the respective agencies' 
responsibilities in the wake of the National Academies of Sciences 
(NAS) report recommendations on minefilling of CCW; and meetings with 
citizen groups to discuss their concerns about CCW disposal. In 
addition, since the draft NODA was submitted to OMB for review, there 
have been conference calls to discuss OMB's review comments and 
proposed revisions. The substantive meetings are discussed in greater 
detail below.
     The Interstate Mining Compact Commission (IMMC) conducted four 
meetings concerning the Mine Placement of Coal Combustion Waste among 
State and tribal mining regulators, Department of Interior and EPA 
representatives in order to collect and analyze technical and 
regulatory information related to minefilling of coal combustion waste. 
These meetings took place on the following dates:

     May 15 - 16, 2001
     November 14 - 15, 2001
     April 15 - 16, 2002
     October 29 - 30, 2002

     Subsequent to the 2000 regulatory determination, EPA held a series 
of public meetings, attended by citizen groups, industry, and State 
representatives. These meetings provided opportunities for citizens, 
States, and industry to express views about coal combustion waste 
disposal practices. The meetings allowed stakeholders to express their 
concerns about damage cases associated with CCW management practices, 
and on the beneficial uses of coal combustion byproducts. Specifically:
     A stakeholders' meeting took place at EPA headquarters in 
Washington, DC on May 19-20, 2003, to address Minefill Practices for 
Coal Combustion Residues. The meeting was attended by representatives 
from citizen and environmental interest groups, industry, States, and 
other Federal agencies.
     Public meetings took place in Texas, Indiana and Pennsylvania (two 
meetings), on the following dates (Note: These public meetings were 
held specifically at the request of citizen's groups who wanted EPA to 
hear the concerns of citizens in various parts of the country):

     March 23, 2004 - Pennsylvania
     April 13, 2004 - Texas
     April 22, 2004 - Indiana
     May 5, 2004 - Pennsylvania

     Two meetings took place between citizen groups and EPA's Assistant 
Administrator for the Office of Solid Waste and Emergency Response. In 
May 2003, there was a meeting of citizen groups with Marianne Horinko 
and on October 26, 2006 there was a meeting with Susan Bodine. The 
latter meeting was preceded by a meeting between the citizen groups and 
OSM representatives, where OSW staff and management also participated, 
to discuss their view on the rulemaking of CCW placement in mines.
     In the development of the joint DOE/EPA report, between October 
2004 and July 2006, there were about half-a-dozen meetings between EPA 
and DOE to scope the study, discuss its implementation, guide the 
contractor in its preparation and revision, and prepare a charge for 
peer review. The peer review process involved the following external 
experts:

     Keith Belton of the Office of Management and Budget (OMB);
     Lisa Evans of the Clean Air Task Force (CATF);
     Tim Lohner, Donna Hill and Elizabeth Aldridge of the Utility 
Water Act Group (UWAG); and
     K. Nelson, B. Docto, J. Myrom and R. Thompson of the Association 
of State and Territorial Solid Waste Management Officials (ASTSWMO).

     With regard to the USWAG's voluntary plan, there were several 
meetings with the representatives of USWAG. Between 2003 and 2005, 
there were about half-a-dozen meetings between USWAG and EPA Office of 
Solid Waste (OSW) staff. EPA also met with a State official and had 
telephone conversations, email exchanges and written correspondence 
with citizen groups regarding this matter. In addition, USWAG 
representatives came in to discuss their voluntary plan, meeting once 
with each of the following Office of Solid Waste and Emergency Response 
(OSWER) Assistant Administrators (AAs): Marianne Horinko, Tom Dunne, 
and Susan Bodine.
     On March 1, 2006, the National Academy of Sciences (NAS) issued a 
report on the placement of CCWs in coal mines. The work by the NAS was 
funded by EPA and involved public meetings which included 
representatives from industry, citizen groups, and states. OSW staffers 
and first line supervisors also met with the NAS and were present 
during many of the meetings NAS held during the development of the 
report. Since the report was issued, EPA has been working with OSM to 
better address minefilling in coal mines. The meetings took place as 
follows:

     July 26, 2006, OSM and EPA met with Interstate Mining Compact 
Commission representatives to hear IMCC comments on NAS minefill report
     Aug. 17, 2006, EPA and OSM staff met at OSM to discuss plans to 
coordinate the OSM ANPR and EPA NODA
     Jan 11, 2007, EPA staff and OSM staff met at OSM to discuss 
progress on the OSM ANPR and EPA NODA; and
     February 28, 2007, National Mining Association Meeting to discuss 
ongoing OSW activities regarding CCW disposal and Mine Placement.

     Teleconferences with OMB and other agencies focused on two 
products: the joint DOE/EPA report on CCW management practices, in the 
context of which there were two teleconference meetings in early 2006 
to discuss the first draft report and its revision. The second series 
of teleconference meetings has been associated with OMB's interagency 
review of the CCW NODA and its auxiliary documents. The three 
teleconferences to discuss the NODA took place as follows:

     April 13, 2007
     April 26, 2007
     May 9, 2007.
                               __________
          Reponses by Stephen Johnson to Additional Questions 
                          from Senator Inhofe
                            air--pm standard
    Question 1. Administrator, last year, we heard testimony from a 
member of the Clean Air Science Advisory Committee, who essentially 
supported your decision for selecting a particular lower daily fine PM 
standard as part of the periodic national ambient air quality standards 
review. Please tell us why, in your discretion and judgment as 
Administrator, you selected that standard?
    Response. EPA places great importance on the advice of the Clean 
Air Science Advisory Committee (CASAC). With regard to the 24-hour 
PM<INF>2.5</INF> National Ambient Air Quality Standards (NAAQS), EPA 
revised the level of the standard to 35 g/m3, which was within the 
range recommended by CASAC (30-35 g/m3). The preamble for the final 
rule discussed in detail the rationale for the Administrator's final 
decision (71 FR 61144). Specifically, section II.F.1 discussed the 
selection of the level of the 24-hour PM<INF>2.5</INF> standard (71 FR 
61168 to 61172).
    In summary, EPA's final decision relied on an evidence-based 
approach that considered the much expanded body of evidence from short-
term exposure PM<INF>2.5</INF> studies as the principal basis for 
selecting the level of the 24-hour standard, with such standard aimed 
at protecting against health effects associated with short-term 
exposures to PM<INF>2.5</INF>. Based on the information presented in 
the PM Staff Paper and Criteria Document and in supporting analyses, 
EPA observed an overall pattern of statistically significant 
associations reported in studies of short-term exposure to 
PM<INF>2.5</INF> across a wide range of 24-hour average 98th percentile 
values. More specifically, EPA observed a strong predominance of 
studies with 98th percentile values down to about 39 g/m3 reporting 
statistically significant associations with mortality, hospital 
admissions, and respiratory symptoms. Within the range of 24-hour 
average 98th percentile PM<INF>2.5</INF> concentrations of about 35 to 
30 g/m3, EPA no longer observed this strong predominance of 
statistically significant results. Rather, within this range, one study 
reported statistically significant results, while other studies 
reported mixed results in which some associations, reported in the 
study, were statistically significant and others were not. Other 
studies reported associations that were not statistically significant.
    Further, EPA concluded that the very limited number of studies in 
which the 98th percentile values were below this range do not provide a 
basis for reaching conclusions about associations at such levels. Thus, 
in our view, this body of evidence provided confidence that 
statistically significant associations are occurring down close to this 
range, and it provided a clear basis for
    concluding that this range represents a range of reasonable values 
for a 24-hour standard level.
    It was further noted that focusing on the range of 35 to 30 g/m3 
was consistent with the interpretation of the evidence held by most 
CASAC Panel members as reflected in their recommendation to select a 
24-hour PM<INF>2.5</INF> standard level within this range. EPA 
recognized, however, the separate point that most CASAC Panel members 
favored the range of 35 to 30 g/m3 for the 24-hour PM<INF>2.5</INF> 
standard in concert with an annual standard set in the range of 14 to 
13 g/m3, as discussed in section II.F.2 of the preamble to the final 
rule (see 71 FR 61172 to 61177).
    EPA viewed the quantitative risk assessment as providing supporting 
evidence for the conclusion that there was a need to revise the current 
suite of PM<INF>2.5</INF> standards, but judged that it did not provide 
an appropriate basis to determine which specific quantitative revisions 
were appropriate.
    EPA carefully considered comments from CASAC and others, received 
during the public comment period, for the proposed decision and decided 
to set the level of the primary 24-hour PM<INF>2.5</INF> standard, as 
proposed, at 35 g/m3. In our judgment, based on the currently available 
evidence, a standard set at this level will protect public health with 
an adequate margin of safety from serious health effects, including 
premature mortality and hospital admissions for cardiorespiratory 
causes that are likely causally associated with short-term exposure to 
PM<INF>2.5</INF>. A standard set at a higher level would not likely 
result in improvements in air quality in areas across the country in 
which short-term exposure to PM<INF>2.5</INF> can reasonably be 
expected to be associated with serious health effects. A standard set 
at a lower level would only result in significant further public health 
protection if, in fact, there is a continuum of health risks down to 
the lower end of the ranges of air quality observed in the key 
epidemiologic studies and if the reported associations are, in fact, 
causally related to PM<INF>2.5</INF> at those lower levels. Based on 
the pattern of results observed in the available evidence, EPA is not 
prepared to make those assumptions.
    On balance, EPA does not believe that a lower standard is necessary 
to provide the requisite degree of public health protection. This 
judgment appropriately considered the requirement for a standard that 
is neither more nor less stringent than necessary for this purpose and 
recognized that the Clean Air Act does not require that primary 
standards be set at a zero-risk level, but rather at a level that 
reduces risk sufficiently so as to protect public health with an 
adequate margin of safety.
                           children's health
    Question 2. Administrator Johnson, can you please clarify for the 
Committee what changes EPA has made to the Office on Children's Health? 
Is there still such an office?
    Response. The Office of Children's Health Protection, which was 
established in 1997, was merged into a new Office of Children's Health 
Protection and Environmental Education as a result of a 2006 
reorganization. The organizational entity that was the Office of 
Children's Health Protection is currently the Child and Aging Health 
Protection Division in the new office.
                      human health risk assessment
    Question 3. This budget includes an increase for Human Health Risk 
Assessment. Last year, the GAO issued a report, upon my request, 
regarding risk assessment practices at EPA in which it was recommended 
that EPA ``enhance early planning of each risk assessment'' and 
``identify and communicate data needs to the public and private 
research community.'' I would like your commitment that some of the 
increase be dedicated to ensuring a more open, transparent, and 
participatory risk assessment process at EPA and that EPA seek out, 
early in the process, information and data from academia, researchers, 
other Federal agencies, environmental groups, industry and any other 
interested parties, as recommended by the GAO. Will you make that 
commitment?
    Response. Yes. EPA commits to dedicating some of the proposed 
budget increase to ensuring a more open, transparent, and participatory 
risk assessment process and to seeking out, early in the process, 
information from academic researchers, other Federal agencies, 
environmental groups, industry and other interested parties. EPA has 
initiated a series of enhancements and activities with those objectives 
in mind. For example, EPA contracted for expert consultations with the 
National Academy of Sciences on issues affecting risk assessment, such 
as interpretation of data from studies in animals. These panels have 
included input from scientists working in the public and private 
research communities. This kind of outreach to academic, public and 
private sector researchers ensures open, transparent, and broad 
participation in the evaluation of scientific evidence.
                             epa libraries
    At an Environment and Public Works Committee hearing held on 
February 6, 2007, I highlighted some items that EPA needs to weed from 
its library collection. I also referred to a substantial decline in the 
numbers of people actually walking into any of the EPA network of 
libraries in Washington, DC and throughout the country such as three 
people walking into the EPA Regional library in Dallas per month over 
the past three years, 20 people walking into the EPA Regional library 
in Kansas City over a seven month period last year, reportedly most 
people walking into the EPA Regional library in Chicago were simply 
looking for direction to other offices, and that at the library here in 
Washington, EPA's own employees use has dropped 71 percent over the 
past two years simply because more of the information the public or EPA 
employees use is now online. However, it is necessary to clarify some 
remaining issues from the February 6 hearing.

    Question 4. EPA maintains large amount of scientific and 
environmental information. What information does not continue to be 
available to EPA employees or the public online, through interlibrary 
loan, or otherwise upon the request of EPA employees or the public?
    Response. The Agency does not believe any information has been lost 
through our process to transform EPA's libraries. Materials held by 
libraries in the EPA Library Network continue to be available to EPA 
employees and the public. Digitized EPA documents can be accessed via 
National Environmental Publications Internet Site (NEPIS) http://
epa.gov/ncepihom/, and hardcopy materials will continue to be 
accessible through interlibrary loans via any of the 57,000 libraries 
in the US and abroad which participate in the Online Computer Library 
Center (OCLC). EPA continues to offer core library services to all 
employees.
                      epa libraries-library plans
    At the February 6 hearing, you were asked to respond to a few 
emails, that you had not had the opportunity to review, the majority 
had received from EPA employees critical of EPA's library plan. To 
clarify two more specific issues raised:

    Question 5. Is the Regional library located in Atlanta closed, and 
what library services remain available at the Region 4 library?
    Response. The Region 4 library in Atlanta, GA. is open. Library 
services (interlibrary loans and reference/research) are being provided 
to Region 4 staff by the onsite library contractor staff and 
supplemented by the OARM Cincinnati Library, which is one of the 
Centers of Excellence in the EPA Library Network. In addition, Region 4 
staff have full access to the online services (OLS, NEPIS, and Desktop 
Library) provided by the EPA Library Network

    Question 6. You were also asked about the closing of the EPA lab 
library at Fort Meade. However, is it not true at this particular 
``library'' is simply a 10ft. by 20ft. reference room, and all 
reference information remains available through the Region 3 library?
    Response. The Ft. Meade Library collection remains intact and 
onsite in this small reference room, and is available to Ft. Meade 
staff on a walk-in/self-service basis. However, all EPA staff in Ft. 
Meade and Region 3 are being provided with core library services, such 
as research and document delivery, by the Region 3 Library staff in 
Philadelphia.
                    laboratory infrasturcture review
    Question 7. We understand that the Agency is conducting a 
Laboratory Infrastructure Review. This review is of great interest to 
me because EPA has a lab in Ada, Oklahoma called the Kerr Lab. I 
believe they do excellent work and have become a vital part of Ada. Can 
you tell the Committee more about the review?
    Response. As part of the FY 2008 budget process, the Office of 
Research and Development (ORD) was asked to work with the National 
Program Offices (NPOs) and 10 Regional offices to develop a plan to 
implement a study of the Agency's laboratory infrastructure 
requirements, capabilities, and operations. Similar studies have been 
carried out by the Agency in the past, with the most recent 
comprehensive laboratory study completed in July 1994. The goal of this 
review is to improve the effectiveness and efficiency of EPA's 
laboratory network (i.e., 39 laboratories in 30 cities) in order to 
ensure our ability to meet the environmental challenges of the future. 
This review will not result in the creation or closure of laboratories 
during the Administrator's tenure.
    In the near term, the study will focus on identifying efficiency 
and effectiveness opportunities at individual laboratories. Workgroups 
are working to more clearly frame and determine the scope of the 
laboratory infrastructure review and encourage each laboratory to 
brainstorm efficiency and cost saving measures. Savings and efficiency 
data are currently being requested from all the Agency's laboratories. 
A report from the near term study is anticipated in September of 2007.
    For the long term study, the Agency plans to engage an outside 
expert panel that will assess and evaluate the ability of EPA's 
laboratory network to address the Agency's mission over the next 10 
years. Efforts are underway to identify options for working with an 
outside expert panel.
                          clean water funding
    Question 8. I appreciate EPA's effort to reduce some of the burden 
from the Clean Water106 account through its recent proposed rule to 
create a State incentive fund. However, I have significant concerns 
about the proposal. The answer to the financial pressures on the 
program is not just raising fees but providing other incentives and 
most importantly reducing the regulatory burden on the States and the 
permittees. There is much more than can be done without requiring 
States to tax municipal Governments in order to pay for mandates 
imposed by the Federal Government. I would like to work with you and 
your staff on finding other solutions to the financial pressures on the 
106 account. I have a few questions about the proposal:
    Why did you settle on requiring States to tax municipal Governments 
as the only option to relieve these financial pressures?
    Response. The permit fee incentive program is not a tax on 
municipal Governments, it is a voluntary program; no State is mandated 
to change its business practices to retain Section 106 base funding. A 
modest incentive pool will be created from Section 106 grant fund 
increases. The President's FY 2008 Budget provides an increase in 106 
funds to ensure that the incentive pool does not reduce States 106 base 
funding. In developing our FY 2007 Operating Plan, we also ensured 106 
funds increased sufficiently to protect base funding. It is not EPA's 
intention to reduce 106 funding as a result of increased State NPDES 
revenues.
    Encouraging States to use strong business practices, including the 
leveraging of all available revenue streams, is consistent with the 
Agency's approach to sustainable infrastructure management. EPA 
continually emphasizes the four pillars of water infrastructure--Better 
Management of Water and Wastewater Utilities, Rates that Reflect the 
Full Cost Pricing of Services, Efficient Water Use, and Watershed 
Approaches to Protection. The establishment of a permit fee program 
incentive is just one of a number of actions the Agency is taking to 
promote sustainability.
    States will need to meet designated thresholds based on the 
percentage of permit program costs recovered through permit fee 
collections in order to receive funding through this incentive program. 
EPA has taken several steps to ensure that base funding is protected. 
These include: creating the incentive pool only from new funding; 
limiting the incentive pool to approximately $5.2 million; 
redistributing unearned incentive funds through the existing 
distribution formula; and maintaining the current formula ceilings on 
incentive program increases (no State may receive a one-year increase 
of more than 50 percent of its previous year's allocation).

    Question 9. What other options were considered before you published 
your proposed rule?
    Response. During the development of this rule, EPA took steps to 
engage the States, including soliciting input on other options beyond 
financial incentives to reduce program burdens. States identified the 
reduction of reporting and regulatory flexibility as alternatives. 
While much more work will need to be done by the States and EPA to 
develop viable options for regulatory flexibility, EPA currently is 
engaged in discussions with the States regarding opportunities to 
reduce reporting requirements.

    Question 10. Do you plan to finalize the rule and why?
    Response. The Agency held a public meeting in February 2007. In 
addition, EPA extended the comment period an additional 60 days 
(through May 5, 2007) to allow additional opportunity for comments. 
After considering the comments, EPA expects to issue a final rule. 
Through the use of fees, States may generate revenue streams, other 
than taxpayer general revenues, to support water quality program 
implementation. Maintaining sustainable programs enables both EPA and 
the States to achieve our environmental goals.
                              perchlorate
    Question 11.  You explained during the hearing that EPA has enough 
data on the presence of perchlorate in drinking water and so as to 
avoid any future delays, you opted not to include perchlorate on the 
UCMR2 which will not be completed until 2011. If you have enough 
drinking water data, what other data does EPA need? Is there evidence 
that people are being exposed to perchlorate from sources other than 
water? Why is that information important to your decision whether or 
not to establish and MCL under the Safe Drinking Water Act for 
perchlorate?
    Response. EPA believes more data are needed to fully characterize 
perchlorate exposure to determine whether regulating perchlorate in 
drinking water presents a meaningful opportunity for health risk 
reduction in accordance with Section 1412(b)(1)(A) of the Safe Drinking 
Water Act (SDWA). EPA believes that currently available data show that 
food may be an important source of human exposure to perchlorate. EPA 
believes that current data are not adequate to estimate perchlorate 
exposure from food versus drinking water. EPA continues to work with 
both the Food and Drug Administration and the Centers for Disease 
Control and Prevention to obtain data regarding human exposure to 
perchlorate from food.
                        asia-pacific partnership
    Question 12. EPA has budgeted $5 million for the Asia Pacific 
Partnership. As I understand it, through technology transfers and 
information sharing, this partnership will work with other major 
developed and developing nations in the Asia-pacific and through 
technology transfers and information sharing -foster energy growth 
within the context of reduced air pollution and even greenhouse gases. 
Is this correct?
    Response. Yes. EPA is working with the other U.S. Government 
agencies to support six of the eight technical Task Forces under the 
Asia Pacific Partnership (APP). In each case, EPA is building on 
expertise developed through it's public private partnerships, such as 
ENERGY STAR and our domestic methane and industry programs, and is 
focused on sharing our experience and technologies internationally. We 
expect that these efforts will lead to reductions in greenhouse gas 
emissions, improvements in air quality, as well as economic and energy 
benefits.
                          regional enforcement
    Question 13. Region 9 has been misusing an MOA between the Corps 
and the EPA regarding Aquatic Resources of National Importance (ARNI). 
This abuse has been stopped but, in the future, how can you prevent a 
Region from misusing their authorities? Further, how can you ensue that 
similarly situated businesses are treated similarly across the nation?
    Response. In order to address potential concerns with 
implementation of the Memorandum of Agreement (MOA), EPA issued a 
memorandum in October 2006 requiring improved coordination between 
Regions and Headquarters on actions taken under the MOA. Pursuant to 
the memorandum, EPA Regional offices must provide Headquarter staff 
with a copy of all 404(q) letters prior to issuance pursuant to the 
provisions of Part IV of the Section 404(q) MOA. Headquarters review is 
intended to ensure that the MOA is being used in a predictable, 
transparent, and consistent manner nationwide. We believe this process 
has improved the use of the MOA in providing greater certainty and 
predictability for the regulated community. We expect to extend this 
coordination between Headquarters and the Regions for as long as is 
necessary to ensure these improvements continue.
                     regional enforcement-region 9
    Question 14. As you know, by design, the EPA is divided into ten 
different regions to implement and enforce our environmental laws. 
Regions often abuse this design to advance their own agendas. Region 9, 
for example, is notorious for trying to manage the Region as if they 
only answer to the San Francisco liberals where it is located.
    What will you do to ensure that States like Arizona and New Mexico, 
which are in Region 9 and have much different environmental concerns 
and solutions than San Francisco, are not penalized because they are 
overseen by an office with little understanding of their needs?
    Response. EPA is committed to ensuring compliance with the nation's 
environmental laws and to improving public health and the environment. 
The Agency's goal is fair and consistent enforcement of Federal 
environmental laws as balanced with the flexibility to respond to 
region and State-specific environmental problems.
    To ensure EPA Regional Offices conduct consistent oversight of 
States, and that States are consistently implementing environmental 
enforcement programs, OECA has implemented the State Review Framework 
(SRF).
    The SRF is a tool developed in collaboration with the Environmental 
Council of the States (ECOS) to promote consistency and a level playing 
field for the regulated community. The Framework was developed in 2003 
and piloted in 10 States. A FY 2004 evaluation validated the basic 
foundation and protocols of the Framework. Based on the results of the 
evaluation, the Framework was revised and, since June 2005, is being 
implemented in all States.
    The process of evaluating all States for the first time under the 
Framework will be complete by the end of FY 2007. Upon completion, 
another evaluation will be performed to identify whether the Framework 
was successful in improving the level of consistency in enforcement 
programs across States and in the regional oversight of State programs. 
This evaluation is expected to lead to additional improvements in the 
SRF before initiating the next round of reviews.
      lead renovation, repair, and painting program proposed rule
    Question 15. Early last year EPA proposed the Lead Renovation, 
Repair, and Painting Program rule with the goal of reducing exposure to 
lead hazards created by renovation, repair, and painting activities 
that disturb lead-based paint. EPA has demonstrated that disturbing 
lead-based paint can generate large amounts of lead dust. However, the 
clearance test requirement in the proposed rule would seemingly impose 
liability for any lead paint regardless of its origin solely on the 
professional conducting the home remodeling work. How will EPA consider 
this imposition of liability in the proposed rule and still ensure that 
trained professionals conduct remodeling work and avoid the health 
hazards contemplated in the proposed rule?
    Response. EPA conducted extensive outreach with the renovation 
community prior to the publication of the Renovation, Repair, and 
Painting Program proposed regulation. During public meetings in 1998 
and 1999, as well as during the SBREFA panel process, contractors 
pointed out that, if post-renovation dust clearance sampling were 
required, the contractors would have to protect themselves by 
collecting pre-renovation dust samples, to ensure that they would not 
be held liable for pre-existing hazards. To address this concern, EPA's 
proposal includes an innovative cleaning verification process rather 
than dust clearance sampling. The proposed cleaning verification 
process involves wiping surfaces with disposable cleaning cloths and 
comparing them to a cleaning verification card.
    On the one hand, while not quantitative, EPA studies indicate that 
in the great majority of cases when following this protocol, a 
contractor would achieve the level required to pass dust clearance 
sampling. On the other hand, the cleaning verification protocol puts 
reasonable limits on the amount of cleaning required of the renovator. 
On balance, EPA believes that this cleaning protocol is a safe, 
reliable and effective system of ensuring that renovation activities do 
not result in an increased risk of exposure to lead-based paint hazards 
created by renovation activities while at the same time not increasing 
renovators' liability for the removal of all lead-based paint hazards.
    Again, EPA believes that adherence to this post-renovation cleaning 
verification protocol, in combination with the proposed training, 
containment, and cleaning requirements, is a safe, reliable and 
effective system of ensuring that renovation activities do not result 
in an increased risk of exposure to lead-based paint hazards. Further, 
the Agency believes that contractors will embrace these practices 
because they should be easy to implement, and because consumers will 
appreciate the results and come to expect a clean work area following 
all renovation activities.
                               __________
         Responses by Stephen Johnson to Additional Questions 
                          from Senator Vitter
                        landfills--old gentilly
    Question 1. In regard to hurricane debris at the Old Gentilly 
Landfill, at what point will standard requirements for disposing of 
asbestos containing material be required as outlined by RCRA?
    Response. There are no specific requirements for disposal of 
asbestos containing material in the Resource Conservation and Recovery 
Act. Rather, disposal is regulated under the Clean Air Act National 
Emissions Standard for Hazardous Air Pollutants (NESHAP) regulations. 
Following the devastation from Hurricanes Katrina and Rita, the 
Louisiana Department of Environmental Quality (LDEQ) allowed the option 
for landfills receiving clean-up debris to apply for a permit to 
``enhance'' specific cells within the landfills to receive Regulated 
Asbestos Containing Waste material from residential clean-up only. 
These LDEQ permitted ``enhanced'' cells must meet all the requirements 
in the Louisiana Emissions Standards for Hazardous Air Pollutants 
(LESHAP) asbestos landfill section, as well as the EPA's NESHAP 
asbestos landfill requirements section at 40 CFR 61.150.
         landfills--mississippi river gulf outlet (mrgo) levee
    Question 2. Who has the liability if Old Gentilly Landfill does 
undermine the MRGO levee as suggested by the FEMA study and all the 
national experts who have reviewed the situation?
    Response. The United States Army Corps of Engineers (USACE) is the 
lead Federal agency on the safety of the MRGO levee. On November 15, 
2006, EPA's Region 6 Office facilitated a meeting that included the 
Louisiana Department of Environmental Quality (LDEQ), the Federal 
Emergency Management Agency, USACE, the Louisiana Environmental Action 
Network, and several consultants. The purpose of this meeting was to 
discuss levee stability issues. It was agreed that USACE would work 
with LDEQ on the issue. The USACE has stated that it will conduct an 
analysis to assure stability of the MRGO levee.
    landfills--national environmental policy act (nepa) alternative 
                              arrangements
    Question 3. NEPA alternative arrangements are being developed for 
activities related to levees. Why are there no NEPA alternative 
arrangements for debris disposal?
    Response. Debris disposal is being undertaken under the Stafford 
Act, which waives the applicability of National Environmental Policy 
Act (NEPA). In contrast, levee construction will take place under the 
authorities of the US Corps of Engineers. The NEPA alternative measures 
for activities related to levees are designed and intended to allow 
early and expedited consideration of segregable portions of levee 
improvements so that construction work can commence on such portions 
without awaiting completion of NEPA review on entire levee systems. 
Those alternative arrangements have been approved by the President's 
Council on Environmental Quality.

    Question 4. At what point will the agencies evaluate the 
consequences of debris disposal with a rigorous alternative analysis 
such as a NEPA or an IT analysis for activities in Louisiana?
    Response. The Louisiana public trust doctrine, a.k.a., IT Doctrine, 
arises under the Louisiana Constitution. Its application to emergency 
debris disposal actions undertaken or authorized by State agencies is a 
matter of State law on which EPA has no particular expertise.
    EPA's Region 6 office is aware of no Federal agency planning to 
evaluate the consequences of debris disposal with a rigorous 
alternative analysis such as a NEPA analysis.
                      landfills--hurricane debris
    Question 5. For hurricane debris should agencies use emergency 
powers to dispose of waste in environmentally-less preferable 
alternatives when other alternatives exist?
    Response. EPA has the authority under 42 USC Section 6973, in 
general, to respond to solid waste releases that may present an 
imminent and substantial endangerment to human health or the 
environment. In an appropriate case, when all of the elements of 
liability and the existence of an endangerment can be demonstrated, EPA 
may exercise this or other Federal authorities to abate an 
endangerment. Such action would have to be protective of human health 
and the environment. As a general matter, States regulate non-hazardous 
solid wastes under their own standards. Federal regulations set minimum 
performance standards for municipal solid waste (including household 
wastes), but these are implemented by approved State programs. States 
generally regulate non-hazardous construction and demolition debris 
under their State standards. EPA is coordinating with the Louisiana 
Department of Environmental Quality, the US Corps of Engineers and the 
Federal Emergency Management Authority to ensure that the environmental 
safeguards are set in place to enable the proper disposal of hurricane 
debris.
                       landfills--debris removal
    Question 6. Compare the use and bounds of emergency powers as 
applies to the waiver of State and Federal environmental laws for 
debris removal in the following situations: Katrina and Rita in 
Louisiana, Mississippi, Alabama and September 11th in New York. Which 
laws governing debris removal were waived, to what extent, and for how 
long?
    Response. EPA did not offer any waivers of Federal or State law for 
debris removal in response to the collapse of the World Trade Center, 
or Hurricanes Katrina and Rita. However, on October 21, 2005, February 
3, 2006, February 24, 2006, and April 28, 2006, EPA issued No Action 
Assurance letters to provide flexibility under the Federal asbestos 
National Emission Standards for Hazardous Air Pollutants program to 
address the widespread devastation from Hurricanes Katrina and Rita. 
The No Action Assurances dealing with demolition practices were 
extended on February 2, 2007, February 23, 2007, and March 9, 2007 to 
be effective through September 30, 2007. These actions allow Louisiana 
and Mississippi to move forward more expeditiously with certain 
residential demolition and disposal activities, while still protecting 
public health and the environment.
    The No Action Assurances provide flexibility to:

     allow limited residential demolition to proceed without 
inspections and asbestos removal prior to demolition, as long as 
emission control practices remain in place,
     allow the State or local Government to issue demolition orders 
for groups of residences, and
     evaluate possible regulatory flexibility for burning or grinding 
of residential demolition debris prior to disposal.
                         landfills--new orleans
    Question 7. How much debris, and of what types, is estimated to 
remain in Louisiana?
    Response. The United States Army Corps of Engineers and the 
Louisiana Department of Environmental Quality (LDEQ) maintains this 
data and would have the best estimates of the quantity and type of 
waste remaining.

    Question 8. What is the current capacity of area landfills for 
debris disposal in New Orleans?
    Response. Information of the current capacity of New Orleans area 
landfills may be available from LDEQ.
                     landfills--type iii landfills
    Question 9. List the standard requirements and procedures for 
permitting a Type III landfill and compare to the requirements and 
procedures followed for the Gentilly Type III landfill.
    Response. While Federal law addresses solid waste management 
generally, and EPA approves State municipal solid waste programs, the 
permitting and direct regulation of solid waste landfills are primarily 
State responsibilities to be conducted pursuant to State law. 
Consequently, the requirements and procedures for permitting landfills 
vary from State to State.
     The Gentilly landfill is a Type III solid waste landfill pursuant 
to Louisiana's solid waste regulations and laws. As a result, EPA's 
Region 6 office did not participate in the Gentilly permit application 
process.

    Question 10. Address all aspects of the permitting and operating 
process including: public involvement; permit requirements including 
design requirements, landfill operations and financial assurances; and 
all other potentially applicable permits such as water discharge.
    Response. In terms of National Pollutant Discharge Elimination 
System (NPDES) discharge permitting requirements, Louisiana Department 
of Environmental Quality (LDEQ) has a general permit to authorize 
discharges from Construction and Debris landfills. This permit expired 
in August 2006, but has been administratively continued; landfills that 
were covered under this permit prior to its expiration remain covered. 
In the meantime, a new permit has undergone public notice and should be 
reissued soon.
     New landfills that started operations after the hurricane have 
been operating under LDEQ's emergency order, which requires that they 
meet the general permit requirements. Some of these facilities have 
already terminated operations and no further NPDES coverage is needed. 
Facilities that remain in operation are required to seek coverage under 
the soon-to-be-reissued landfill general permit.
     We are advised that LDEQ will be issuing individual permits to 
some facilities, like the Gentilly Landfill. For facilities that have 
ceased operations but have not been officially closed by LDEQ's Solid 
Waste Permitting Section, Multi-Sector General Permit coverage is 
required until the time that official closure is approved.
    In terms of CWA Section 404 permitting requirements, the U. S. Army 
Corps of Engineers is the permitting authority. However, it is our 
understanding that the Gentilly Landfill did not require a Section 404 
permit.

    Question 11. For the Gentilly Type III landfill, list the original 
date the process or permit requirement was proposed, any changes that 
were made to the process or requirement, and the date the process or 
requirement was completed.
    Response. In 2002, the City of New Orleans submitted an application 
to the LDEQ for a Type III landfill. After an opportunity for review 
and public comment, LDEQ issued the permit in December 2004. 
Groundwater monitoring and geotechnical monitoring is being performed 
at the Gentilly site; the State does not usually require this 
monitoring at Type III landfills. The old landfill predated the current 
State rules that established Type I, II and III landfills.

    Question 12. Also provide the same comparison for the closure 
process and monitoring requirements for a standard Type I landfill and 
for the process as originally proposed, any changes that were made, and 
the actual arrangements and completion date of the activity for the 
Gentilly Type I landfill.
    Response. In Louisiana, a Type I landfill is used for disposing of 
industrial solid wastes. A Type III landfill is used for disposing or 
processing of construction/demolition debris or woodwaste, composting 
organic waste to produce a usable material, or separating recyclable 
wastes (a separation facility). The LDEQ reported that the old Gentilly 
landfill was not a Type I landfill. For more details regarding the 
permit conditions for the Gentilly landfill, please contact the LDEQ.
                    landfills--chef menteur landfill
    Question 13. How will closure on the Chef Menteur landfill proceed?
    Response. The closure plan for the Chef Menteur site is currently 
being reviewed by the Louisiana Department of Environmental Quality 
(LDEQ). Once a closure plan is approved, LDEQ will be responsible for 
monitoring the closure. EPA will provide technical assistance upon 
request by LDEQ.
      landfills--national environmental policy act (nepa) analysis
    Question 14. Do you believe that a NEPA analysis should be required 
for debris disposal when Federal funds are paying for all work after 
Hurricanes Katrina and Rita? If so, why has this not applied to certain 
landfills in the New Orleans area?
    Response. Debris removal actions funded or undertaken under Section 
407 of the Stafford Act are excluded by Section 316 of the National 
Environmental Policy Act (NEPA) from review. Presumably, this 
represents a Congressional determination that such actions should be 
performed without the delays inherent in NEPA review.
                landfills--chef menteur landfill closure
    Question 15. The closure of the Chef Menteur landfill is a first 
step; however, dangerous waste is potentially being stored there and a 
threat to the community and environment. What steps will EPA take to 
ensure the testing, protection and clean closure of this waste field?
    Response. States have the primary responsibility to implement the 
regulations for the disposal of solid waste. Thus, the closure plan for 
the Chef Menteur site is currently being reviewed by the Louisiana 
Department of Environmental Quality (LDEQ). Once a closure plan is 
approved, LDEQ will be responsible for monitoring the closure. EPA has 
no direct responsibility to ensure the testing, protection and clean 
closure of this waste field.

    Question 16. Can you explain what other steps and enforcement 
actions the EPA has taken to address these problems?
    Response. Upon request by LDEQ, EPA will provide technical 
assistance.
                 post katrina npdes section 402 permits
    Question 17. What is the status of Section 402 (point source 
pollution) permits on the various landfills being used for hurricane 
debris?
    Response. The Louisiana Department of Environmental Quality (LDEQ) 
has issued a general permit to authorize discharges from construction 
and debris landfills. The permit expired on August 2006, and was 
administratively continued. Landfills that were covered under this 
permit prior to the expiration remain covered. New landfills that 
started operation after the general permit expired have been operating 
under an emergency order issued by the LDEQ. This order requires 
facilities to meet the same requirements that are in the expired 
landfill general permit. LDEQ will be issuing individual permits to 
some facilities.
    Facilities that have terminated operations, installed a final 
cover, and have been officially closed by LDEQ no longer need coverage 
under the permit. Facilities that have ceased operations (including a 
final cover), but have not been officially closed by the LDEQ are 
required to be covered by a general permit for industrial storm water 
discharges until official closure is approved. A new draft permit has 
undergone public notice and should be reissued soon.
    In Mississippi, emergency landfills used for disposal of debris 
from Hurricane Katrina are not allowed to discharge contaminated storm 
water, and hence, and NPDES permit is not required. The Mississippi 
Department of Environmental Quality (MDEQ) worked with local 
Governments in the coastal counties and approved 13 temporary emergency 
disposal sites in addition to 6 permitted landfill sites that existed 
prior to the hurricane. All but one debris disposal site have been 
closed.
    MDEQ implemented a number of policies to manage the debris to 
protect groundwater quality, wetlands and nearby surface water quality. 
In addition, the State worked to segregate improper wastes from debris. 
MDEQ worked with FEMA to install a groundwater monitoring system at 
each of the 13 emergency disposal sites.
                          rural water funding
    Question 18. With over 1,800 rural water systems in Louisiana, 
funding for rural water assistance is very important to me. After 
Hurricanes Katrina and Rita, Louisiana Rural Water Association assisted 
700+ water systems in ensuring that safe drinking water was provided to 
the affected communities in a short period of time. These communities 
would not have been able recover if it would not have been for rural 
water.
    Small communities in Louisiana rely on rural water assistance to 
comply with the EPA rules and regulations, and for maintaining the 
required training (which rural water provides for free.) For complying 
with the complex regulations at the local level, rural water provides 
assistance to help small communities comply. There is no one else in 
the State offering this assistance, and as far as the small communities 
are concerned, this is very helpful and a beneficial use of EPA 
spending at the local level. Rural water represents less than one 
percent of the EPA's environmental programs management spending that 
was provided to EPA in the Continuing Resolution. It is $11.0 million 
for rural water's 3 environmental initiatives (source water protection, 
ground water protection, and training and technical assistance).
     Would you comment on what the EPA thinks about the importance of 
rural water funding and the value in what the National Rural Water 
Association does for providing assistance at the local level?
    Response. EPA agrees that small drinking water systems require 
training and technical assistance to ensure that they are able to 
comply with standards under the Safe Drinking Water Act. We are aware 
that, in many States, technical assistance providers (including State 
Rural Water affiliates) play an important role in supporting small 
public water systems. States can use 2 percent of their Drinking Water 
State Revolving (DWSRF) fund allotment within the State and Tribal 
Assistance Grants (STAG) appropriation to provide technical assistance 
to small systems. Since the program began, the State of Louisiana has 
reserved 1.2 percent for small system technical assistance. In FY 2006, 
more than $156,000 was expended in technical assistance to small 
systems. The State also expended more than $360,000 for other DWSRF 
set-aside activities that benefit small systems.
    In addition, the Agency's FY 2007 Enacted Operating Plan includes 
$8.0 million for competitive grants to support technical assistance for 
rural water systems.
                               __________
         Responces by Stephen Johnson to Additional Questions 
                         from Senator Voinovich
                  great lakes--interagency task force
    Question 1. Under the President's 2004 Great Lakes Executive Order, 
the EPA was designated as the lead agency of the Great Lakes Federal 
Interagency Task Force. The Interagency Task Force includes 9 cabinet 
departments as well as the Council on Environmental Quality. However, 
there have been 2 Federal actions in the last few months that have 
undermined the purposes of this Interagency Task Force. The first 
action was the proposal by the U.S. Coast Guard to establish live-fire 
testing areas throughout the Lakes, and the second action was the order 
from the USDA's Animal and Plant Health Inspection Service (APHIS) 
which suspended the interstate movement of certain species of Great 
Lakes fish. It is my understanding that neither the Coast Guard nor 
APHIS consulted with the Interagency Task Force before acting. How does 
the EPA intend to address this problem in the future?
    Response. The Interagency Task Force (IATF), through the efforts of 
the Regional Working Group (RWG), is actively coordinating and 
discussing issues such as these. Whenever possible and appropriate, the 
IATF/RWG discusses such issues in advance. As the chair of the 
Interagency Task Force, EPA will continue to work as part of the IATF/
RWG to improve Federal coordination, and to implement all requirements 
of Executive Order 13340 on the Great Lakes.
                          water infrastructure
    Question 2. How do you expect cities like Akron, Cleveland, 
Columbus, Cincinnati-who are under enforcement actions from the EPA--to 
spend millions of dollars for water infrastructure upgrades when the 
Administration proposes to cut funding for the Clean Water SRF program?
    Response. In 2004, the President's budget presented a long-term 
plan to address national water infrastructure needs which included an 
extension of Federal funding of the Clean Water State Revolving Fund 
(SRF) through 2011. The Administration continues to reinforce this 
Federal commitment to provide $6.8 billion over 2004-2011 so that the 
Clean Water SRFs will provide an average $3.4 billion a year in 
financial assistance over the long term.
    For nearly 20 years the Clean Water SRF has played a significant 
role in helping to finance wastewater infrastructure. Over this time 
period, EPA has provided more than $24 billion to help capitalize the 
State-operated programs. By combining the Federal funds with State 
monies and recycled loan repayments, Clean Water SRFs have been able to 
fund $61 billion in crucial water quality projects. As intended by 
Congress, the revolving nature of the programs has established the 
Clean Water SRFs as self-sustaining entities that will continue to be 
an important source of funding long into the future.
    While the Clean Water SRF is now and will continue to be a critical 
tool, it was never intended to be the only source of funds for 
addressing the nation's wastewater infrastructure needs. The nation's 
success in addressing our wastewater infrastructure needs will also 
depend on contributions of other financing vehicles, rates that reflect 
the full cost of services, and sustainable practices that reduce the 
costs and lessen the burden on the utility sector. EPA's Sustainable 
Infrastructure Strategy, developed in collaboration with communities, 
utilities, and other stakeholders, represents a suite of approaches 
that are an important part of the solution to the infrastructure needs 
of communities like Akron, Cleveland, Columbus, and Cincinnati. These 
program areas focus on the means by which we can reduce: 1) the demands 
placed on infrastructure, 2) the need for new infrastructure, and 3) 
the total cost of maintaining infrastructure over the long term.
    To provide additional opportunities to communities for financing 
needed wastewater infrastructure, Congress should enact the 
Administration's FY 2008 Water Enterprise Bond proposal, which would 
provide an exception to the unified annual State volume cap on tax-
exempt qualified private activity bonds for wastewater and drinking 
water projects. To ensure the long-term financial health and solvency 
of these drinking water and wastewater systems, communities using these 
bonds must have demonstrated a process that will move toward full-cost 
pricing for services within five years of issuing the Private Activity 
Bonds. Consequently, this proposal will attract more private capital to 
meet the infrastructure needs of these sectors, help water and 
wastewater systems become self-financing, and minimize the need for 
future subsidies.
                  water infrastructure--affordability
    Question 3. Two years ago, the EPA announced that affordability is 
an issue for communities facing the costs of significant capital 
improvements, why has EPA enforcement failed to consider affordability 
issues in their approach to achieving compliance?
    Response. EPA has always included affordability issues in the 
consideration of timing of expenditures for municipalities needing to 
make significant capital improvements in order to comply with 
environmental laws. Both CSO (Combined Sewer Overflow) and SSO 
(Sanitary Sewer Overflow) enforcement cases frequently require remedies 
with significant capital improvements. The Agency's approach for 
evaluating such affordability issues in the context of municipal 
wastewater compliance costs is specifically addressed in the 1997 
``Combined Sewer Overflows-Guidance for Financial Capability Assessment 
and Schedule Development.'' This Guidance addresses how to determine 
the financial capability of a municipality and how to adjust the 
implementation schedule in situations where the CSO control measures 
will result in a high financial burden.
    In addition, the Enforcement Management System guidance for Clean 
Water Act violations directs that schedules of compliance which require 
addressing significant capital investments should take into account the 
financial capabilities of the specific municipality. (The Enforcement 
Management System, National Pollutant Discharge Elimination System 
(Clean Water Act), ``Chapter X: Setting Priorities for Addressing 
Discharges from Separate Sanitary Sewers,'' page 2). EPA has and will 
continue to apply these concepts to adjust the length of implementation 
schedules in the CSO and SSO judicial and administrative enforcement 
actions taken by the Agency.
                 water infrastructure--sso enforcement
    Question 4. Why has the EPA allowed the Regional EPA offices to 
initiate SSO enforcement when there are no national SSO regulations, 
policy or standard?
    Response. There are a number of Agency policy statements that 
articulate the Agency's longstanding position that Sanitary Sewer 
Overflows (SSOs) are illegal and that enforcement to address SSOs is 
appropriate. In 1989, EPA published the ``National Combined Sewer 
Overflow Control Strategy,'' in which the Agency unequivocally stated 
that ``[d]ischarges from separate sanitary sewer systems with less than 
secondary treatment are prohibited.'' 54 Fed Reg. 37.370 (EPA Sept. 8, 
1989).
    In a March 7, 1995 policy statement issued by Steven A. Herman, 
Assistant Administrator, Office of Enforcement and Compliance 
Assurance, and Robert Perciasepe, Assistant Administrator, Office of 
Water, entitled ``Enforcement Efforts Addressing Sanitary Sewer 
Overflows,'' the Agency reiterated this position and the need to 
continue SSO enforcement. This policy statement provides that: ``SSO 
discharges to waters of the United States are prohibited by the Clean 
Water Act.'' In addition, the policy statement addressed the question 
of what EPA should do regarding enforcement of SSO violations in light 
of a then ongoing SSO Federal Advisory Committee that was assisting in 
the developing of a proposed SSO rule. The policy statement declared: 
``The EPA believes that a delay in enforcement is unwarranted because 
of the seriousness of many of these discharges to public health and 
water quality.'' In 1996, EPA revised ``The Enforcement Management 
System, National Pollutant Discharge Elimination System (Clean Water 
Act)'' by adding ``Chapter X: Setting Priorities for Addressing 
Discharges from Separate Sanitary Sewers.'' This policy provides 
guidance on when and how to use enforcement actions to address SSO 
violations.
    More recently, in an April 10, 2005 document entitled ``Guidelines 
for Federal Enforcement in CSO/SSO Cases'' developed jointly with the 
Environmental Council of States, the Agency reiterated that 
``[c]ombined sewer overflows (CSOs) and sanitary sewer overflows (SSOs) 
are national environmental problems with significant environmental 
impacts.'' This document enumerated circumstances in which Federal 
enforcement would be appropriate to address CSO and SSO violations, and 
it encouraged EPA regions to work with States with approved NPDES 
programs whenever possible to leverage limited Federal and State 
resources.
    EPA has continued to bring enforcement actions for SSOs to the 
extent that they constitute unauthorized discharges to waters of the 
United States or violations of permit conditions for proper operation 
and maintenance, in violation of Section 301 of the Act, or to the 
extent that they are presenting an imminent and substantial 
endangerment under Section 504 of the Act. The vast majority of 
judicial actions for SSOs have been brought jointly with approved 
States.
                               __________
         Responses by Stephen Johnson to Additional Questions 
                          from Senator Cardin
                             chesapeake bay
    Question 1. In October 2005, the Government Accountability Office 
(GAO) issued a report entitled: Chesapeake Bay Program: Improved 
Strategies Are Needed to Better Assess, Report and Manage Restoration 
Progress. The GAO report found, among other things, that the Chesapeake 
Bay Program did not have a comprehensive, coordinated implementation 
strategy to meet the goals of the Chesapeake 2000 Agreement. Does EPA 
now have a comprehensive, coordinated implementation strategy?
    Response. The Chesapeake Bay Program Strategic Implementation Plan 
is in the final stages of development, with completion expected by the 
end of 2007. The Chesapeake Bay Program partnership completed outlining 
the overall framework, unifying five strategic focus areas--restoring 
healthy waters, restoring healthy habitats, ecosystem-based fisheries 
management, Bay friendly watershed management, and fostering Chesapeake 
Stewardship. At the same time, the leads for each strategic focus areas 
are working together to ensure coordination throughout the strategic 
focus areas. Fine-tuning of the strategy is underway, including 
identification of specific geographic focus areas in which 
complementary restoration efforts will be leveraged. The first draft of 
the strategies for each of the focus areas is expected in July, 2007. 
Descriptions of these focus areas and connections between them can be 
found at www.chesapeakebay.net/strategicimplementation.htm.
    The Strategic Implementation Plan (SIP) is integrating all of the 
Bay Program's activities into a realistic plan that targets resources 
to ensure that the most effective and realistic work plans are 
developed and implemented. Annual targets, outputs, and outcomes will 
be included in the SIP, which is organized into the five strategic 
areas, or pillars, based on the Chesapeake 2000 Agreement. With the 
SIP, the Program is changing the existing extensive tracking of 
restoration actions into a planning/tracking/and feedback system. Each 
year, as part of the SIP process, the program will provide annual 
reports that show yearly goals and progress made. Annual review and 
assessment of the effectiveness of the restoration partners' activities 
will help the program modify its priorities and activities based on the 
feedback loop between targets and results.
                       chesapeake bay--pollution
    Question 2. Pollution associated with the rapid population growth 
in the watershed, now more than 170,000 new residents annually, is 
actually increasing. What tools can EPA use to address this pollution 
sector?
    Response. Human population growth long will continue to be a major 
driving force behind a wide range of challenging air, land, and water 
pollution problems in the Chesapeake Bay watershed. For example, while 
human population in the watershed increased by 8 percent between 1990 
and 2000, the area of the watershed covered by impervious surface 
increased by 41 percent. As the population increases, urban stormwater 
is the only sector from which pollutant loads to the Bay are 
increasing. These loads constitute less than 30 percent of the total 
nutrient and sediment loads to the Bay; however, their continual 
increase puts at risk the overall effort to reduce and cap total loads.
    To address these problems, EPA makes use of the full range of 
pollution control tools through the Clean Air, Clean Water and Safe 
Drinking Water Acts. In addition, the Chesapeake Bay Program partner 
States have designed management practices to achieve the reductions 
needed, relying on both regulatory and voluntary efforts.
    The States' primary Federal regulatory program for achieving load 
reductions in the urban sector is the Municipal Separate Storm Sewer 
Systems (MS4) and construction sites stormwater component of EPA's 
National Pollutant Discharge Elimination System (NPDES). In addition, 
States' efforts to meet regulatory total maximum daily load (TMDL) 
allocations can also be applied to help achieve urban sector goals for 
restoring the Bay. To date, however, neither MS4 permitting nor local 
TMDL programs have yet evolved sufficiently to fully support achieving 
Bay restoration goals. A key missing piece, the ability to allocate Bay 
nutrient and sediment load reduction requirements to the local level--
at a geographic scale appropriate for use in MS4 permitting and TMDLs, 
will be available in 2008.
    To complement the NPDES regulatory tools, collaborative Chesapeake 
Bay Program partner efforts recently led to establishing Stormwater and 
New Development Task Group. Chesapeake Executive Council Directive 04-2 
tasked the partners with developing a prevention and preservation-
oriented approach to stormwater from new development. The Task Group is 
in the process of developing a set of guiding principles for effective 
local stormwater management, likely to include a policy of first 
attempting to maintain pre-development site hydrology, or second, 
employing offsets elsewhere to achieve no net increase' in nutrient and 
sediment loads from new development. Through the collaborative efforts 
EPA will continue to build upon the best available technical 
information and regulatory approaches to design and implement 
collective solutions to the Bay watershed's stormwater pollution 
problems.
       chesapeake bay--chesapeake small watershed grants program
    Question 3. The Chesapeake Small Watersheds grants program is 
authorized in Section 117 of the Clean Water Act. Since 1999, money has 
been appropriated annually, totaling more than $17 million, to fund 
more than 500 grants. Grantees have leveraged more than $45 million in 
additional funds to restore 4,500 acres of wetlands, 300 miles of 
forested stream buffers, and similar projects. In FY06 we appropriated 
$2 million for this program. In the FY 2007 Operating Plan, what is the 
funding level that you are proposing?
    Response. The FY 2007 Operating Plan does not provide funding for 
the Chesapeake Bay Small Watershed grants program. The total FY 07 
enacted budget for the Chesapeake Bay Program is $26.8 Million. This 
includes $6 million for competitive grants for innovative, cost 
effective non-point source watershed projects, which reduce nutrient 
and/or sediment discharges to the Bay. The Federal cost share will not 
exceed 50 percent.
                chesapeake bay--nonpoint source projects
    Question 4. Page 951 of the Appendix to the President's budget 
submission states `` . . . the President's Budget provides $6 million 
for the Chesapeake Bay Small Watersheds Grant Program to implement 
innovative and cost-effective nonpoint source projects, which reduce 
nutrient discharges to the Bay.'' However, the Congressional 
Justification notes that the budget provides $8 million for ``. . . 
competitive grants for innovative, cost-effective non-point source 
watershed projects which reduce nutrient and/or sediment discharges to 
the Bay. The Federal cost share will not exceed 50 percent.'' Please 
explain why these descriptions and amounts differ and clarify the 
Administration's intent.
    Response. The EPA's Congressional Justification contains the final 
version of the Administration's budget submission for the Chesapeake 
Bay Program. The FY 2008 budget provides for $8.0 million for 
competitive grants for innovative, cost-effective non-point source 
watershed projects which reduce nutrient and/or sediment discharges to 
the Bay. The Federal cost share will not exceed 50 percent.
                          rural water programs
    Question 5. The National Rural Water Association is operating under 
a contract with EPA that expires next year. EPA was provided funding 
for this type of activity in the FY 2007 funding bill approved last 
month by the Congress. Is there any consideration by EPA not to 
continue the rural water contract through the rest of fiscal year 2007?
    Response. In the past, appropriations committee report language has 
earmarked and EPA has awarded noncompetitive grants to the National 
Rural Water Association (NRWA). In adhering with the FY 2007 Continuing 
Resolution (P.L. 110-5, Sec. 112), EPA has not funded this earmark in 
FY 2007. In addition to funds already available under the Drinking 
Water State Revolving Fund (DWSRF) set-aside, the Agency's FY 2007 
Enacted Operating Plan includes $8.0 million for competitive grants to 
support technical assistance for rural water systems.
    EPA is aware that in many States, technical assistance providers 
(including State Rural Water affiliates) play an important role in 
supporting small public water systems. As mentioned above, States can 
also use 2 percent of their Drinking Water State Revolving (DWSRF) fund 
allotment within the State and Tribal Assistance Grants (STAG) 
appropriation to provide technical assistance to small systems. Since 
the program began, Maryland has reserved 1.8 percent for small system 
technical assistance. In FY 2006, the State of Maryland expended more 
than $183,000 for technical assistance to small systems. In addition, 
the State also expended more than $479,000 for other DWSRF set-aside 
activities that benefit small systems.
                        environmental education
    Question 6. It is my understanding that the Fiscal 2008 budget 
request terminates funding for EPA's environmental education program. I 
am a strong proponent of environmental education. In EPA's report 
Everyday Choices: Opportunities for Environmental Stewardship, the 
agency refers to environmental education as ``an integral partnership'' 
with environmental stewardship. Given this recognition of the benefits 
of environmental education to your Agency's mission, what is the 
rationale for not requesting funds for this program in Fiscal 2008?
    Response. The Agency believes that environmental education is an 
integral part of its programs and mission and thus does not require a 
separate EPA program. Additionally, many States, local Governments and 
private organizations have developed their own environmental education 
programs.
                   leaking underground storage tanks
    Question 7. Last month, the GAO released a report that noted it is 
going to take $12 billion to cleanup just half of the remaining Leaking 
Underground Storage Tank sites in the U.S. Despite the fact that there 
is currently a $3 billion trust fund specifically dedicated to these 
cleanups, the EPA FY08 budget only calls for $72 million. In Maryland 
there have been more than 10,000 confirmed releases, and more than 900 
of them require at least some public funding. In light of the new 
information about the need, do you think that EPA should reevaluate 
this request and ask Congress to consider adding more money?
    Response. EPA commends GAO for a thorough analysis and sound 
recommendations. Most of the $12 billion cleanup cost referred to in 
the GAO report will be borne by State financial assurance funds that 
were established by some States to help tank owners meet the financial 
assurance obligations of Subtitle I of the Resource Conservation and 
Recovery Act (RCRA). These funds are capitalized by State gas taxes and 
fees paid by tank owners and, in 2005, received approximately $1.4 
billion in revenue while paying out $1.032 billion.
    In States, such as Maryland, which rely on private insurance 
instead of a State fund, most cleanup costs will be borne by private 
insurance and tank owners. EPA generally agrees with most of GAO's 
recommendations and will work to carry them out as appropriate. The $72 
million requested from the Leaking Underground Storage Tank (LUST) 
Trust Fund in the FY 2008 President's Budget, which includes 
cooperative agreements with States, will enable EPA, States, and tribes 
to complete approximately 13,000 cleanups in FY 2008.
    Between September 30, 1988, and March 31, 2007, there were more 
than 10,000 cumulative confirmed releases in Maryland. Each year 
Maryland has, on average, received more than $1 million from EPA to 
achieve LUST cleanups. As a result, cleanups have been initiated at 
more than 98 percent of the sites with confirmed releases and completed 
at 92 percent, leaving a backlog of approximately 800 releases 
remaining to be cleaned up. Under the FY 2008 President's Budget, 
continued progress will be made to clean up LUST releases in Maryland. 
We are committed to evaluating program progress and program needs.
                               __________
         Responses by Stephen Johnson to Additional Questions 
                          from Senator Carper
                          smart growth program
    Question 1. The EPA's Office of Smart is providing technical 
assistance to Sussex County, Delaware, about ways to pursue growth 
options that will lower the environmental impact of this growth and 
reduce the infrastructure costs of this development. This is a fast 
growing county--growing by 12.7 percent between 2000 and 2005--that is 
looking for ways to accommodate that growth and still maintain its 
character. The Office of Smart Growth is able to offer this assistance 
in spite of a small budget and a staff of only 16 people. How many 
positions do you plant to cut? And which projects and technical 
assistance will be jeopardized as a result?
    Response. The FY 2008 President's budget calls for a reduction of 
10 FTE in regulatory innovation programs within the National Center of 
Environmental Innovation. The Smart Growth program would be reduced by 
4.0 FTE, however extramural funding will increase slightly. In 
addition, Brownfields extramural resources used to support the Smart 
Growth program will be scaled back from $554.8K to $0. In the absence 
of the extramural funds, the Brownfields FTE will be working on policy 
analysis and outreach activities to improve the economic and regulatory 
environment for brownfield redevelopment.
    With the reduced budget, the Agency will scale back its Smart 
Growth technical assistance programs, its Smart Growth awards, and its 
funding for Safe Routes to School and School Siting projects. In 
addition, the Agency will continue to support, at a reduced level, the 
Smart Growth program's information and education efforts.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              rural water
    Question 2. The rural water associations have received a small 
earmark in the spending bill that funds EPA for years to help small 
communities protect their drinking water and comply with Federal 
mandates. For example, the Delaware Rural Water Association recently 
provided technical assistance to the City of Seaford when serious 
flooding resulted in problems with the wastewater treatment facility. 
This is another example of a program that takes a little bit of funding 
a long way. Please describe how you plan to address this issue in your 
FY07 funding?
    Response. In the past, appropriations committee report language has 
earmarked and EPA has awarded noncompetitive grants to the National 
Rural Water Association (NRWA). In adhering with the FY 2007 Continuing 
Resolution (P.L. 110-5, Sec. 112) EPA has not funded this earmark in FY 
2007. In addition to funds already available under the Drinking Water 
State Revolving Fund (DWSRF) set-aside, the Agency's FY 2007 Enacted 
Operating Plan includes $8.0 million for competitive grants to support 
technical assistance for rural water systems.
    EPA is aware that in many States, technical assistance providers 
(including State Rural Water affiliates) play an important role in 
supporting small public water systems. As mentioned above, States can 
also use 2 percent of their Drinking Water State Revolving (DWSRF) fund 
allotment within the State and Tribal Assistance Grants (STAG) 
appropriation to provide technical assistance to small systems. Since 
the program began, Delaware has reserved 2.0 percent for small system 
technical assistance. In FY 2006, the State of Delaware expended more 
than $124,000 for technical assistance to small systems. In addition, 
the State also expended more than $450,000 for other DWSRF set-aside 
activities that benefit small systems.
                        dera fy07 appropriations
    Question 3. The Diesel Emissions Reductions Act (``DERA'') was 
enacted 18 months ago as part of the Energy Policy Act of 2005. When 
will the regulations giving effect to DERA be issued? Do you intend to 
fund DERA at $49.5 million as proposed by the President in his FY07 
budget?
    Response. Because, the provisions of the Energy Policy Act provide 
the necessary basis for implementing the Diesel Emission Reduction 
Program, EPA does not believe that it is necessary to issue any new 
regulations.
    The FY 2007 reduction to the Diesel Emission Reduction Program, 
funding levels for almost all of our key programs within the STAG 
account were set by the bill language and cannot be altered. In the 
case of DERA, the 2006 Appropriations Law provides funding for diesel 
in STAG as follows: ``$7,000,000 for making cost-shared grants for 
school bus retrofit and replacement projects that reduce diesel 
emissions.''
    The President's FY 2007 budget proposed to change the legislative 
language so that there was an increase that corresponded with the 
Energy Policy Act of 2005. (``$49,500,000 for grants under sections 
791-797 of the Energy Policy Act of 2005.'') However, because the Clean 
School Bus Initiative language was written into the law in 2006 and 
picked up without change in the continuing resolution, we are unable to 
provide funding out of STAG under the broader Title VII authority.
                        dera fy08 appropriations
    Question 4. The President has proposed $35 million in his FY08 
budget proposal for DERA. Why did the President reduce his request from 
the $49.5 million proposed last year?
    Response. The FY 2008 President's Budget Request reduction to the 
Diesel Emissions Reductions Program will continue to achieve 
significant reductions in PM emission levels and continue support for 
the Clean Diesel grants program. EPA estimates that the $35 million for 
National Clean Diesel Campaign grants will leverage at least an 
additional $72 million in funding assistance and reduce PM by 
approximately 5,040 tons.
    Programs similar to the Diesel Grants have been adopted in 
California and Texas and are expected to achieve similar results.
                               __________
         Responses by Stephen Johnson to Additional Questions 
                          from Senator Sanders
                             lake champlain
    Question 1. As you know, the Environmental Protection Agency has 
been directly involved in working to clean up and protect Lake 
Champlain in New York and Vermont for more than 15 years, as authorized 
by the Lake Champlain Special Designations Act of 1991, which was 
reauthorized in 2002. For many years there has been a Lake Champlain 
line item in the EPA budget, typically proposed at about $950,000 and 
funded by Congress at $2.5 to $3 million, well under the authorized 
level of $5 million. Will the EPA provide between $2.5 and $3 million 
again in FY 2007, as clearly authorized and intended by Congress, so 
that we do not lose ground as we work towards a cleaner, healthier Lake 
Champlain?
    Response. EPA submitted an Operating Plan for FY 2007 to Congress 
on March 15, based on the Continuing Resolution passed by Congress in 
February. The Agency used the FY 2007 President's Budget as the basis 
to build the Operating Plan for the Environmental Programs and 
Management (EPM) appropriation because this base reflects more recent 
policy choices. This includes funding for Lake Champlain. The Agency 
provided increases above this base for several areas where Congress 
increased EPA's base funding in FY 2006. Activities supporting Lake 
Champlain received such an increase; the Operating Plan includes an 
additional $500 thousand above the FY 2007 President's Budget, 
providing a total of $1.4 million for Lake Champlain. The Agency will 
award the Lake Champlain grants in consultation with the Lake Champlain 
Basin Program in accordance with the relevant statutes (section 120 of 
the Clean Water Act), appropriate Agency policy, and Congressional 
directives.
                          rural water programs
    Question 2. Rural water programs are operating under a contract 
with EPA that expires next year. Our Vermont systems, as well as 
thousands of other systems across the country, need the rural water 
programs to continue. Will EPA fulfill its obligation to continue 
funding of these programs through the rest of fiscal year 2007?
    Response. In the past, appropriations committee report language has 
earmarked and EPA has awarded noncompetitive grants to the National 
Rural Water Association (NRWA). In adhering with the FY 2007 Continuing 
Resolution (P.L. 110-5, Sec 112), EPA has not funded this earmark in FY 
2007. In addition to funds already available under the Drinking Water 
State Revolving
    Fund (DWSRF) set-aside, the Agency's FY 2007 Enacted Operating Plan 
includes $8.0 million for competitive grants to support technical 
assistance for rural water systems.
    EPA is aware that in many States, technical assistance providers 
(including State Rural Water affiliates) play an important role in 
supporting small public water systems. As mentioned above, States can 
also use 2 percent of their Drinking Water State Revolving (DWSRF) fund 
allotment within the State and Tribal Assistance Grants (STAG) 
appropriation to provide technical assistance to small systems. Since 
the program began, Vermont has reserved 2.0 percent for small system 
technical assistance. In FY 2006, the State of Vermont spent more than 
$138,000 for technical assistance to small systems. In addition, the 
State also expended more than $150,000 for other DWSRF set-aside 
activities that benefit small systems.

    Mr. Johnson, so often I get frustrated with your 
presentations because they are very eloquent, and then you get 
behind it and the reality doesn't match the words. Nothing 
could be more true for me than today. Your words were great. 
Your budget hurts the environment.
    Let me be specific. You are cutting this budget by 4 
percent. You are reducing clean water funding for the clean 
water State revolving loan fund by 37 percent. You are cutting 
the Superfund by $7 million. You are cutting $35 million that 
helps fund the State and local air quality management programs, 
and my people are up in arms about it. You have decided to do 
away with the Children's Health Office. Your brownfields 
budget, and brownfields was the most bipartisan thing we ever 
did up here because, guess what, it has payback. You can use 
land that has been polluted. We authorized $250 million a year, 
but you asked for $112 million, leaving $87 million 
unrequested.
    You cut environmental justice efforts by $1.7 million. For 
toxic chemical regulation, it looks like you are making cuts 
there. Global warming and all the talk about how great the 
President is doing, he is cutting $1.7 million from that 
effort. Environmental protection on the U.S.-Mexico border, 
which is very important to the western States, a cut of more 
than $40 million.
    So talk is cheap. You can say whatever you want. I have the 
numbers, and the American people are going to have to know that 
when we bring this to the floor of the Senate.
    Now, I am going to show my colleagues something that, if 
this doesn't shock you, I don't know what will. I got visited 
yesterday by the South Coast Air Quality Management Board. They 
told me about what is happening with air quality and how things 
have stalled out; and how they need help; and why they are so 
shocked you are cutting a program that helps them. I think 
Senator Voinovich alluded to that with water districts. This is 
air districts.
    This is a filter, a pure white filter from an air quality 
monitor. This is how they monitor the air. They place these at 
various sites. This is how it starts, pure white. The monitor I 
am going to show you is a filter from an air quality monitor in 
a school. The monitor is located at a local elementary school 
near a high school. The school is also nearby the Port of Los 
Angeles and Long Beach and near a major highway.
    The filter, pure white, was inserted into the monitor and 
was in the monitor for 24 hours, my friends. The monitor 
processed as much air as a human could breathe in three-and-a-
half-months, so whatever you see here isn't breathed in a 24-
hour period, it is breathed in a three-and-a-half-month period. 
I am going to show you this. This is from the Hudson School.
    The black collar represents the toxic air that the students 
in the local schools and the local residents breathe. It is 
primarily caused by diesel exhaust, a known carcinogen, as well 
as particulate matter PM<INF>-10</INF>. This isn't even the 
worst sample ever found at the school.
    So what this filter shows, and this came to me yesterday, 
young schoolchildren and others that breathe this air are 
exposed to toxic pollution consistently. The EPA does not 
provide sufficient regulation to control the emissions that 
contributed to this pollution, mainly from trains, ships and 
trucks burning diesel fuel, and that the help that you were 
giving to the local districts has now been cut.
    So I think, again, actions speak louder than words. The 
numbers speak louder than your words. And so I just need to ask 
you how you could make this rosy scenario presentation to us, 
knowing all the facts that I just said, coming to us with these 
cuts. You are not saying, you know, I had a little fight with 
OMB, but they said I had to take these cuts. You know, then I 
would say fine, you stood up for the environment.
    Instead, you come up here as the Administrator of the 
Environmental Protection Agency. You have told me how much you 
are excited and want to help clean up the environment, and you 
just make this rosy scenario speech and don't even address the 
fact that maybe you lost out on some of these fights. And if 
you didn't, that you just rolled over and let them do it.
    So if you could explain to me, in light of the cuts, how 
did you give this wonderful rosy story about this great EPA and 
what you are doing.
    Mr. Johnson. Madam Chairman, thank you.
    This budget does continue to deliver environmental results, 
while meeting a balanced budget for our Nation.
    You mentioned diesel and the regulations that we have put 
in place to regulate diesel emissions from around the country. 
I just proposed one regulation last week and when you combine 
them with our clean air interstate rule, they are among the 
most health-protective rules in the agency's history, probably 
only second to getting lead out of gasoline. Speaking of 
diesel, the President has included $35 million to help with 
retrofits of legacy diesel engines ranging from school buses to 
port equipment and things like that.
    Senator Boxer. Let me say this, Mr. Johnson.
    Mr. Johnson. Yes?
    Senator Boxer. I can't make any headway. There is no point 
in it, because I say one thing and you answer how ever you want 
to answer. It doesn't help us.
    So I am not going to ask any more questions. What I am 
going to tell you is, I am going to fight with members of this 
committee on both sides of the aisle to look at these cuts. If 
members of this committee feel it is good to cut Superfund by 
70 percent, so be it. But we are going to fight hard. Some of 
us are going to work together.
    We may not agree across the aisle on everything, but I 
think we are going to take these battles to the people. I hope 
we will have a bipartisan battle on this, because I believe 
that you, just to be honest, and I said this to the head of 
NHTSA yesterday, and even Olympia Snowe chimed in and Senator 
Stevens chimed in, you are champions of the status quo, period, 
and worst than the status quo.
    If you had an employee who you really wanted to keep and 
you thought was doing a great job, and you called him and said, 
you are doing a great job and I am cutting your salary by 4 
percent. And he said, well, I thought I was doing a great job; 
I had an offer and another place to go. You know, you would be 
foolish, wouldn't you, to let that person go, but yet you sit 
here and defend this kind of a budget.
    To me, I don't want to say shocking because this isn't the 
first time you have disappointed me, and I am sure this isn't 
the first time I have disappointed you, but I am going to take 
this budget. We are going to fight for these programs because 
we are fighting for the people, for the children, for their 
lungs, for their water quality, and for economic growth, 
because to be honest with you, when you cut brownfields, you 
are just cutting economic growth.
    That is penny-wise and pound-foolish, as Senator Voinovich 
said, totally. Because if you take one of these brownfields 
sites, and again Senator Chafee and I worked very hard with 
Senator Jeffords, and Senator Inhofe was extremely involved in 
this. We are now bringing back to life these sites. Congress in 
a bipartisan say, in a Republican Congress, funded this, and 
you have cut it dramatically.
    What is stunning to me is not that we are fighting this 
battle, but that you will not concede that this budget is cut, 
and those cuts are going to have real bad impacts on the 
people.
    And now, for another perspective, we turn to Senator 
Inhofe.
    [Laughter.]
    Senator Inhofe. No, I don't think so.
    It is stunning to me is, we have heard a lot of criticism 
of you, Mr. Administrator, and of the EPA, but at the same time 
this new majority has denied the Administrator, you, and many 
of the leadership team, including Roger Martella, Alex Beehler, 
and Bill Wehrum. We had the hearings before, and in the case of 
the General Counsel nominee Roger Martella, he is a career 
employee who was favorably reported by this committee in the 
last Congress; renominated on January 9. It is very unusual to 
leave somebody out there who has been renominated for that 
length or period of time for this committee. It doesn't happen. 
So I would hope that we could give him some of his team so he 
can get things done that he can't get done now.
    First of all, on the fuels, the President referred in his 
State of the Union message to very ambitious alternative fuel 
standards. I recognize you don't have all the answers. I am 
concerned, as I said in my opening statement, is it your 
understanding that motor fuels policies will still be regulated 
by the EPA and within the jurisdiction and the oversight of 
this committee? And then I would ask also, when do you 
anticipate that the Administration will share their proposal 
with us on these standards?
    Mr. Johnson. Senator Inhofe, with regard to the timing, I 
expect that we will be sending legislation up in the coming 
weeks, not months, weeks. That is the time frame I expect. With 
regard to the jurisdiction issue, we will leave to you, the 
Congress, to decide. Clearly, we are looking forward to working 
with you.
    Senator Inhofe. Okay. But the way I worded the question 
was, is it your understanding that the motor fuels policies 
will still be regulated by the EPA? I know you don't have 
control over that.
    Mr. Johnson. As I said, the jurisdictional issue will be 
left for you, the Congress. Our focus, and certainly my focus, 
is steady progress toward cleaner air by having this 
alternative fuel standard.
    Senator Inhofe. That is right. You heard in my opening 
statement my comments about Tar Creek.
    Mr. Johnson. Yes.
    Senator Inhofe. That thing has been lingering for 25 years, 
and about $25 million, I might add, nothing being done, and now 
everything is working. It is working not just because of the 
EPA, but partly. It is the team, the EPA, the DOI. It is the 
Indian tribes, the State of Oklahoma, our Democratic Governor. 
I give him a lot of credit. We worked this thing out together, 
the University of Oklahoma.
    But in so far as you are a part of that, you are a piece of 
that, do we have your commitment that you will continue the 
fine work that you have been doing up to this point to see this 
to its conclusion? As you know, right now we are going through 
kind of a quasi-buyout period, but there are some things we 
don't know yet, so we don't know to what extent that will take 
place.
    Mr. Johnson. Senator, we are committed to working with all 
the parties to restore this land, and you have my commitment.
    Senator Inhofe. Okay, good. I appreciate that.
    Now, there is some confusion, some contradictory thing that 
have been brought to our attention from the State of Oklahoma 
concerning what they are getting out of the two organizations, 
the Office of Water and the Office of Enforcement and 
Compliance.
    The Office of Water appears to be trying to work with the 
States to promote a general permitting process and lessen some 
of the administrative costs. At the same time, OEC is coming 
from the other end, and I think quite frankly they don't know 
who to listen to. But there are two conflicting instructions. 
Can you help clarify that and help us out with those two?
    Mr. Johnson. Senator, our interest is helping the community 
to achieve their clean water goals. Our interest is also making 
information available to the State and to those who are 
regulating. I look forward to working with your State to help 
make sure that this is not a burdensome requirement and, that 
in fact if there is any conflict, that it is resolved. We want 
to help. Our goal is to help the State achieve their clean 
water goals.
    Senator Inhofe. With as much of the administrative 
streamlining as possible? I am sure that Senator Voinovich and 
maybe even some others might want to address this small water 
system, but you heard some of the comments that we made and the 
situation that we faced with in Oklahoma. In the 2006 
appropriations bill, Congress provided $280 million in 
earmarks. In the CR, Congress has directed that $197 million of 
that be given to the clean water State revolving fund. The 
remainder was given to EPA to do with however EPA chooses.
    I understand that some of the funds will be used for fixed 
costs like payroll and building costs. Many members, I believe 
as many as 200 over in the House, have asked that the EPA also 
use some of these funds to provide technical assistance to 
small systems, the small systems that we have been talking 
about through the National Rural Water Association, the rural 
waters operators with the daily operations for their 
facilities, as well as regulatory compliance.
    Now, we talked about this extensively last year, and it is 
one that has been a great concern of mine. I think it is 
probably more of a unique problem for my State of Oklahoma than 
many other States, although I am sure others have the same 
problems, too. What do you think about that, and that type of 
help?
    Mr. Johnson. Senator, we want to help the small community 
water systems, and you have my commitment we are going to 
continue to help through technical assistance, providing 
training, and providing assistance. We, as part of the drinking 
water State revolving loan fund, up to 2 percent of that can be 
used for small community water systems. In fact, in 2006 a 
number of communities took advantage of that and used $14 
million to help.
    We are in the process of putting together an operating plan 
for 2007. We are looking at all of the issues that are before 
us. So as we make our final decisions on our operating plan, 
you will be among the first to know.
    Senator Inhofe. Thank you. I appreciate that. There are 
three of us on this panel that have either been Mayors or 
Governors, and unfunded mandates is something that we are very, 
very sensitive to. Thank you.
    Senator Boxer. Thank you, Senator.
    Senator Lautenberg.
    Senator Lautenberg. Thank you very much, Madam Chairman.
    I understand your ire, because I have the same thing. Mr. 
Johnson, it totally perplexes me, and not to insult your 
wordsmithing, but to try to understand what the message is 
here. You say over 36 years, EPA has a strong foundation to 
shift America into a green country. Today, instead of having 
just 17,000 EPA employees to protect the environment, we now 
have 300 million Americans as environmental partners.
    Now, does that mean that the 17,000 before were doing the 
work of 300 million? How do you square it? These answers, I am 
sorry, have to be relatively short. What assignment did we give 
to the 300 million Americans? Do they drive less? Do they emit 
less pollution? What has happened in this miracle of yours that 
permits this to be judged with any degree of credibility, Mr. 
Johnson?
    Mr. Johnson. We have a premier world agency in the U.S. 
Environmental Protection Agency, continuing to accelerate 
environmental success.
    Senator Lautenberg. Without enough money. We have heard 
that.
    Mr. Johnson. With sufficient funds to deliver results. 
Think about Energy Star. By Americans buying Energy Star 
product----
    Senator Lautenberg. Will they start that tomorrow? When do 
they start? When does the signal go that says that 300 million 
are now wearing the EPA uniform and they are going to go out 
and do the job?
    Mr. Johnson. Senator, Americans all around the Nation are 
paying attention to the environment.
    Senator Lautenberg. Yes, I think they are really angry if 
they know what the truth is, that there is going to be less 
attention to things. I read your statement. I see that our 
Nation is committed to balancing the budget. Is DOD committed 
to balancing the budget?
    Mr. Johnson. Yes, they are.
    Senator Lautenberg. They are? Here ye, here ye, I want the 
Chairman's attention. DOD is committed to balancing the budget. 
Mr. Johnson, I don't whether EPA, in your view, is now a branch 
of OMB, but that is what I am looking at. That is the first 
thing. Instead of talking about the results of these cuts, you 
are trying to persuade everybody and it just isn't working, 
that balancing the budget by taking away health protections, 
whether it is Superfund or water or clean air or what have you, 
is good for America. If you have to tell that story to 300 
million Americans on a direct basis, I am sure you wouldn't 
like the response.
    I looked at what is happening here, decreasing funding of 
the clean water revolving fund. I looked at the States that are 
represented here. Georgia, for instance, will take a $6 million 
cut in the revolving fund, from 2007 to 2008. Ohio will go down 
$22 million. New Jersey will go down $16 million. Oklahoma will 
go down $3 million.
    I want everybody to know that this is good for you. You 
just don't understand it, but it is really good for you. The 
fact of the matter is that EPA had for years improved its 
performance, and now what we are being told is that cutting 
budgets is really good for America. I don't believe it, and I 
don't know how you can believe it, Mr. Johnson. Honestly, to 
come here and say everything looks better now than it did 
before as we cut programs and as we hire 300 million Americans, 
my 10 grandchildren I assume will be included. Do you consider 
it environmental progress to finalize the toxic right-to-know 
rule? It is a law that I authored. According to GAO, it will 
allow 33,500 chemical facilities to cease reporting to the 
public all of the details of their chemical releases and waste 
management.
    Is that helping clean our environment?
    Mr. Johnson. Senator, the TRI rule that I signed actually 
makes a good program better. It encourages reductions in 
emissions. It encourages recycling. Facilities still have to 
report. Chemicals still have to be reported. There are no 
chemicals being----
    Senator Lautenberg. But 3,500 said that they don't have to 
report the details to the public.
    Mr. Johnson. Well, they still have to report. Those 
chemicals still have to be reported. And in fact, our TRI----
    Senator Lautenberg. Who are the 3,500 that don't have to 
report?
    Mr. Johnson. They all have to report. They all have to 
report under TRI. The President's budget request this year of 
$15.7 million is actually the largest in 5 years.
    Senator Lautenberg. Yes, we know that we are short on 
details. I close with this, Madam Chairman. I am sorry.
    Senator Boxer. Senator, others have gone over 2 minutes. I 
can give you another minute.
    Senator Lautenberg. Well, they are cutting the Energy Star 
program by $1.7 million. That is supposed to be good for us. It 
is a program that was devised by EPA. The statements are 
painful. I see it in terms of lack of progress. Our pace for 
cleaning up Superfund sites has slowed substantially. And for 
you to say things are better really, I think, challenges what 
is being proposed by you and your department. And you are part 
of it. And I don't know how hard you fought to say no, don't do 
that, don't make me part of OMB; my mission is not primarily to 
save the dollars; it is to save the people. And that is where 
you ought to be going.
    Thanks very much.
    Senator Boxer. I think that was well said, Senator. Thank 
you.
    Senator Voinovich.
    Senator Voinovich. I would like to repeat that the EPA's 
budget is woefully inadequate to take care of the Nation's 
pressing water and wastewater infrastructure needs. We have a 
ticking time bomb ready to blow up if we continue to ignore 
these nationwide needs.
    Billions of dollars have already been spent and billions 
more are needed to upgrade the Nation's aging wastewater 
infrastructure. I firmly believe the Federal Government is 
responsible for paying its fair share. As I mentioned, the city 
of Akron, for example, has proposed to spend $426 million over 
30 years to fix the city's combined sewer overflow problems. 
The city of Cleveland must spend $4 billion over the next 30 
years to meet Clean Water Act requirements.
    These city and State officials are concerned that the 
Federal Government is pressuring them to do the work in half 
the time, and suggesting enforcement action. We have an 
epidemic, and I am sure it is not just in Ohio, of small sewage 
systems that are up in arms over the demands of the 
Environmental Protection Agency and their threatened 
enforcement actions.
    I want you to know it is my intention, I am going to invite 
all those small cities to Washington and we are going to have a 
rally to underscore the fact of the unreasonableness of what 
your folks are asking them to do. Two years ago, the EPA 
announced that affordability is an issue for communities facing 
the cost of significant capital improvements. I want to know 
why has EPA enforcement failed to consider affordability issues 
in their approach to achieving compliance? And second, why does 
the EPA allow the regional EPA offices to initiative sanitary 
sewer overflow enforcement when there are no national sanitary 
sewer overflow regulations, policy or standard?
    Mr. Johnson. Senator, with regard to the SSO enforcement, 
discharges of untreated sewage are in fact violations of the 
Clean Water Act. Going back to the State revolving loan fund, 
what is included in the President's budget meets the present 
commitment to help achieve a sustainable infrastructure. The 
infrastructure challenge is everyone's challenge. Of course, as 
part of the budget----
    Senator Voinovich. I want to know why you are not 
considering affordability. You said two years ago you were. Why 
aren't you?
    Mr. Johnson. We are beginning to. Our affordability 
guidance is in place. We are working with communities to help 
deal with affordability. Our goal is to provide a sustainable 
infrastructure protecting public health and the environment. 
Right now the revolving level is over $3 billion. That is the 
highest it has ever been.
    In addition, we have some innovative pieces that we believe 
will help dealing with the sustainability issue. One of them is 
private activity bonds. One is a program we have launched for 
water efficiency called Water Sense. We think these will also 
help.
    We are committed to helping communities meet their clean 
water objectives. Obviously, it is important for their health 
and it is important for the environment.
    Senator Voinovich. Why has the EPA allowed the regional 
offices to initiate sanitary sewer overflow enforcement when 
there are no national sanitary sewer overflow regulations, 
policy or standard?
    Mr. Johnson. Again, it is a violation of the Clean Water 
Act. We understand that discharges of untreated sewage, result 
in beach closings. Contaminants can also get into intake valves 
for drinking water.
    Senator Voinovich. I am asking you, are there national 
sanitary sewer overflow regulations, policy or standard? I 
understand that they have not been adopted.
    Mr. Johnson. May I ask Ben Grumbles, the head of our water 
program?
    Mr. Grumbles. Thank you.
    Senator, a couple of points on the sanitary sewer overflow 
issue. While we did not follow through and finalize 
comprehensive proposed sanitary sewer overflow regulations from 
the previous Administration, we have adopted several things. 
One thing is we have embraced across the country a ``CMOM'' 
approach which emphasizes the sustainable targeting of 
capacity, management, operation and maintenance. The first step 
is to recognize the way the Clean Water Act is currently 
written, sanitary sewer overflows are illegal.
    You ask how do you make progress on reducing those 
overflows, acknowledging the practicalities and the costs of 
reducing that to a zero discharge. Our policy and that of the 
Enforcement Office is to focus on the ``CMOM.''
    We are also Senator, on the affordability issue and these 
long-term control plans for sewer overflows, we recognize very 
much that there is a need to update the financial capability 
analysis, which is a key part of establishing a standard and a 
schedule. We are committed to working on that. The 
Administrator has said focus on affordability on drinking 
water, and also the financial capability analysis on clean 
water. So we are in the midst of working on that additional 
updated guidance on the economics and the practicalities of 
meeting the Clean Water Act requirements for no discharge.
    Senator Voinovich. I can tell you one thing, it is not 
being communicated out into the areas of my State. I literally 
mean we are having an epidemic. We have people coming in every 
day in the office and they are just up in arms about this, and 
saying you are asking us to do these things where it is 
absolutely impossible for us to afford it.
    I know what OMB is basically saying is let them eat it. 
They can raise the rates and they will take care of it, and we 
are not going to give you that much money to help with that 
State revolving loan fund. Every year, we have increased $20 
billion. Last year, we provided $20 billion each year for it. 
They have never funded it. They are just going to have to 
understand that we are going to have a walk on Washington. They 
just cannot completely ignore the fact of what is going on out 
there, or you better come back with some different ideas about 
how to do this.
    I know several years ago, we amended the Clean Water Act. 
There was a requirement then that small systems had every three 
years to add 25 new pollutants. The legislation was changed. It 
also said that you had to use the highest and best technology, 
and the law was passed that said that you didn't have to use 
that best technology. You could just use technology that works.
    I am saying that you have a major problem and it is going 
to be really tough. It is not only Ohio. It is going to come 
across the country. Somebody better in your shop figure out how 
you are going to deal with this.
    Senator Boxer. Senator, thank you very much.
    Senator Carper.
    Senator Carper. Thank you, Madam Chair.
    Mr. Johnson, welcome. It is good to see you. Thank you for 
joining us today.
    I understand that Senator Voinovich earlier asked a 
question about the budget likely funding for fiscal year 2008 
for the Diesel Emission Reductions Act, something that he 
worked very hard on, and others of us were pleased to work with 
him. I don't know that anybody has asked you about the 
appropriations monies that are available for 2007.
    I would just like to hear from you. As I recall, the Act 
was enacted about a year-and-a-half ago as part of the energy 
bill in 2005. In fact, it was one of the fastest I have ever 
seen a bill go from introduction to adoption in the Senate, to 
enactment in law. It was a record time. EPA was certainly very 
supportive, and a lot of States were very supportive of it as 
well.
    I don't know that the regulations have been issued for the 
program, but I don't think they have. Do you have any idea? It 
has been about 18 months.
    Mr. Johnson. We have been actively working on the 
regulations. Again, we want to see the renewable fuel standard 
put in place as quickly as possible because we see it as a 
great next step in that steady march toward cleaner air by the 
renewables.
    I expect that literally within the coming weeks, you will 
see that final regulation entered.
    Senator Carper. Good. Okay, great.
    A follow-up question is, do you intend to fund the Diesel 
Emission Reduction Act at about $49 million or $50 million, 
which I think is what the President had proposed in his fiscal 
year 2007 budget?
    Mr. Johnson. For fiscal year 2007, we are in the process of 
putting together our operating plan, and sorting through the 
discussions and the direction of Congress as to what we should 
or should not do as part of our 2007 operating plan. I look 
forward to having that submitted to you all on time. That is 
certainly one of the issues that we are working our way 
through.
    Senator Carper. Good. Well, we hope you do and I would 
encourage you to do that.
    There has been some discussion of the Energy Star program. 
I would just say as an aside to my colleagues that I was in 
Seaford, Delaware a couple of weeks ago, visiting the Seaford 
School District. It is a school district with only six schools. 
Seaford is the town where the first nylon plant in the world 
was built some 60 years ago. It is a very high- performing 
school district.
    They went to work on the Energy Star program, and with the 
help of the Energy Star program have come up with energy 
savings that amount to about $1 million a year. On an annual 
basis, that is $1 million that they can spend on smaller class 
size, early childhood education, and after-school educational 
programs that otherwise they would be spending for electricity 
and for fuels to heat the schools in the winter.
    I think they are one of three school districts in the 
country that are receiving the kind of recognition that they 
are. I have urged the other school districts in our State to 
take a page out of the chapter of the Seaford School District. 
I just want you to know it is terrific. I hope that, and you 
probably don't hear a lot from programs that are working well, 
but I have seen it with my own eyes.
    Here is a school district where they have now put air 
conditioning in all 6 of their schools. They have year-round 
school in a couple of the schools. The weather gets pretty warm 
there in the spring and even in the fall. They put air 
conditioning in all the schools, and I think their use of 
electricity has actually diminished, even after air 
conditioning all of their schools.
    So it is a program that certainly has my attention and my 
support. I hope it has yours.
    Mr. Johnson. That is great. It is a great example of a 
partnership program delivering real environmental results.
    Senator Carper. I want to talk about, in the time that 
remains, and ask you two questions. One is on Smart Growth, the 
funding for Smart Growth. Seaford, DE is in a little county, 
actually a big county called Sussex County. We are a little 
State, but we have big counties. EPA's Office of Smart Growth 
is providing technical assistance to Sussex County, DE about 
ways to pursue both options that are expected to lower 
environmental impact of the growth that is occurring in our 
county and reduce some of the infrastructure costs of that 
development.
    As I said, this is a fast-growing county. A lot of people 
are flocking there to retire. We have Rehoboth Beach and 
Bethany and Dewey Beach, and people just like to be close to 
the ocean. The county is growing by close to 15 percent over 
the last 15 years in terms of population. They are looking for 
ways to accommodate the growth and still try to maintain the 
rural character of our county.
    The Office of Smart Growth is able to offer this assistance 
in spite of a small budget and staff I guess of about 16 
people. Yet I think your budget proposal seems to cut this 
program. You may not know this, but if you don't, then for the 
record I would ask you to let me know how many positions do you 
plan to cut in your Office of Smart Growth, and which projects 
and technical assistance will be jeopardized as a result. If 
you could do that for the record, I would be grateful.
    Mr. Johnson. I would be happy to. I would just like to add 
that Smart Growth and our activities, both from our 
coordinating office as well as throughout our program, really 
are smart for the environment. It is smart economically and it 
is also quality of life.
    So we have found the program to be very successful, both 
from our coordinating role in my office, the Administrator's 
office, as well as throughout our program. Because one of the 
things we found as we deal with water infrastructure, for 
example, is that Smart Growth becomes a component of how we 
deal with water, both quantity as well as quality, and how do 
we deal with infrastructure sustainability.
    So we are now seeing the Smart Growth concept really 
infiltrate across all our programs.
    Senator Carper. All right.
    Madam Chairman, I have one more question for the record, 
and I will submit that if I may.
    Thank you, Mr. Johnson.
    Senator Boxer. Thank you very much.
    Senator, we have done some research on how many cuts there 
are at EPA. We are trying to track down the answer for you now. 
We do know that if you look at the previously authorized full-
time equivalents, there are 300 cuts of previously authorized 
full-time equivalents. In other words, we don't know how many 
of those were filled or not, but that is the reduction in 
staff. We don't know in your particular office your staff 
level, but we will find that out.
    So we are continuing to go back and forth in order of 
arrival. So Senator Isakson, you are next.
    Senator Isakson. Thank you, Madam Chairman.
    As the head of an agency, you have to play the hand that is 
dealt you and you have been dealt a pretty tough hand. I 
appreciate the job that you are doing.
    I want to amplify a couple of things that really have 
already been mentioned. Number one, Senator Inhofe mentioned 
the Rural Water Program funding for a second. I called a week 
or so ago and talked to your office because it has been brought 
to my attention that there is a contract to provide rural water 
assistance through June of 2008, but that it is anticipated 
that is going to be terminated. As I understand it, the budget 
request for 2008 does not include any money for the Rural Water 
Funding Program. Can you elaborate on that?
    Mr. Johnson. The National Rural Water Association has been 
an earmark through the years. As you are well aware, earmarks 
are not carried forward by any Administration. We are now 
looking at additional ways that we can help the small community 
water systems. That is what we are looking at right now, both 
in terms of training, technical assistance, as well as whether 
or not additional resources may be available as part of our 
2007 operating plan.
    Senator Isakson. I appreciate that answer, and I would like 
the Chairman, if Chairman Boxer would listen to this comment I 
am going to make, I appreciate that answer because you brought 
up earmarks. Now, the Rural Water Assistance Program is not for 
one specific rural water community. It is a rural water program 
for the United States. Is that not correct?
    Mr. Johnson. The National Rural Water Association was a 
specific earmark. That Association did serve the entire Nation, 
but specific grant was earmarked by Congress.
    Senator Isakson. One of the things that I am having a real 
difficult time with is this term ``earmark'' has taken on a 
life of its own in terms of its application. I think the intent 
of all of us is to not have earmarks that specifically benefit 
an individual location, or even worse an individual. But to 
designate appropriations, which is the preferred term in my 
vocabulary, for a program that is available to the entire 
United States of America is not an evil earmark. Most things 
that we do begin that way.
    So for the record, Georgia, because we have a great 
metropolitan city in Atlanta, but our State is a rural State. 
Agriculture is a huge business, with land management and the 
management of our water, etc. So that is a very valuable 
program to the communities of our State, in particular our 
smaller rural communities. I would hope that it was not cut 
because it was perceived to be an earmark that was bad. 
Instead, I think it was a designated appropriation for a 
legitimate need in terms of clean water in the country.
    Secondly, you and I had a conversation about MSMA.
    Mr. Johnson. Yes.
    Senator Isakson. Just for the record, I have a lot of 
cotton farmers in Georgia. I realize there was a registration 
on that product because of alleged levels of arsenic in the 
drinking water, but other studies have shown that was just not 
any more than the naturally occurring arsenic. This particular 
herbicide is absolutely critical to cotton in the southern 
United States of America. You are doing an IRIS study. I would 
like to know how that is going and if you are going to suspend 
any registration until that report is fully in.
    Mr. Johnson. Our goal is to make all of our licensing 
decisions, to make sure that they meet the standard of 
protecting public health and the environment. We are finishing 
up the public comment process for the cancellation of that 
pesticide. I have asked our Assistant Administrator Jim 
Gulliford to actually visit your State, to see first-hand and 
to talk to growers who are using that product, to help better 
inform our deliberations with regard to the benefit side of the 
equation.
    Our IRIS process is looking at the risk side, as is Mr. 
Gulliford. They are very closely cooperating on the potential 
health effects, trying to determine does it or does it not 
cause a particular health effect.
    We are working very closely among our programs, and very 
much trying to find the science, the best available science, so 
that where the science is clear, we can make a clear decision.
    Senator Isakson. For the record, thank you very much for 
sending him to Georgia. It is a critical issue in the State. I 
completely respect the protection of the environment and would 
never want us to license or impose upon people things that are 
bad for them, but there is a risk-benefit analysis which the 
IRIS study I think is, and it should be completed before that 
registration takes place.
    Thank you.
    Senator Boxer. Thank you, Senator. Senator Isakson, you 
raise an important issue, which Senator Inhofe and I would like 
you to stay for just a minute. He is going to take a minute and 
I am going to take a minute to address the issue of these 
earmarks.
    Senator.
    Senator Inhofe. Thank you, Madam Chairman.
    I am glad you brought this up. I think perhaps you have a 
little better answer than we got, Mr. Administrator. When he 
talked about earmarking, we are talking about a block of money 
that is going to go for certain designated purposes. Now, that 
money is going to go for those purposes whether we on this 
committee and people who are elected make the designation as to 
where it is going to go. If that doesn't happen, it is going to 
be done by someone who is unelected.
    I think we need to redefine ``earmark'' because it is 
something that has taken on a connotation that doesn't serve 
the electorate as well as it should. I just think that we need 
to talk about that a little bit more. Those of us on this side 
need to do that, because I have always felt that we can do a 
better job of understanding the needs of our constituency than 
some of your management can do who has never been to my State 
of Oklahoma.
    Senator Boxer. I just want to associate myself with those 
remarks because it is really amazing. We do about 3 percent of 
the earmarks of the Administration, this one and others, 
Democratic or Republic, it does about 97 percent or 98 percent. 
So somehow when you do it, you call it good Government, and 
when we do it somehow it is bad.
    The fact is, we are closer to the people because we come 
from them. They elect us to represent them and their needs. We 
know their needs. When Senator Vitter talks about a toxic waste 
dump, he sees it. He is there. He walks it. When Senator 
Isakson talks about his rural needs, he is there. He sees it. 
He knows it. And it goes for me, when I see what happens in a 
community when the air turns this way in a 24-hour period, I 
know it because my people come and show me this, and they tell 
me this. So it is just something that I think we have to work 
on.
    Now, we have to be clear, you have to be clear. I say you, 
Administrations, this one and next ones, need to be clear that 
there is no conflict of interest when they make their decisions 
and we have to be very clear about that, and we are moving with 
ethics reform to go there, where we will have to certify.
    But the fact is I frankly, and this is my own opinion, 
would trust my colleagues, who come to me and say, Barbara, you 
can't believe what happened; I just went down to the local 
farm, and this is what is going on; this is what is happening 
when the city Mayor comes in to see me, and he can't meet the 
needs because there is an unfunded mandate.
    I would trust that more, just simply because I know when 
you are close to the people, you get the message. So I am glad 
you raised the issue. I know you didn't intend to spark a 
debate on it, but since Senator Inhofe and I both are on the 
same side of this, we wanted to be heard.
    Senator Whitehouse.
    Senator Whitehouse. You brought about harmony.
    [Laughter.]
    Senator Boxer. See, there is the possibility to have 
harmony.
    [Laughter.]
    Senator Boxer. Mark it down.
    Senator Whitehouse. Thank you, Chairman Boxer.
    I am going to get to my benzine question in one second, but 
this is the first time we have had the chance to have an 
exchange. I am new here and I wanted to ask you something. You 
are obviously a good manager, perhaps even a great manager. You 
have received the highest management awards the Federal civil 
service has to offer. You are a scientist.
    But coming from a relatively experienced background as a 
U.S. Attorney and as an Attorney General, and as somebody 
relatively active in the environmental community, the 
reputation that I come to that this new EPA has is of a place 
where industry operatives have been allowed to infiltrate into 
positions of influence within the administration of EPA; where 
science is too often given a back seat to politics; where 
enforcement is allowed to dwindle; and where the environmental 
community feels very left out, and indeed very often has its 
engagement with you litigating to make your agency follow 
rules, including the benzine example.
    What I see is there is sort of a struggle going on for the 
soul of EPA right now. In that, I would like to get a personal 
sense of where you stand. Setting aside the fact that you are a 
great manager, setting aside the fact that you are a scientist, 
what can you tell me that will give me a sense that you have 
some passion for the purpose of this agency?
    Mr. Johnson. Thank you very much for asking that question. 
As a career veteran, I am celebrating my 26th year in the 
Environmental Protection Agency. I have devoted my adult life 
to helping protect the environment. When becoming Administrator 
of EPA, I took that oath with a great deal of fore-knowledge, 
with a lot of years of experience, and with a passion and a 
commitment to improving the environment.
    Since becoming Administrator, I have signed the Clean Air 
Interstate Rule, affording hundreds of billions of dollars of 
health benefits to the American people. I have signed diesel 
rules, again affording hundreds of billions of dollars of 
health benefit to the American people. I signed the regulation 
putting in place changes to the window sticker for fuel 
economy, something that had been woefully lacking for over 20 
years. Consumers could not make an informed decision as to what 
automobiles to buy because the previous fuel economy standard 
window sticker information was based upon a 20-year-old 
standard. Nobody wanted to take that on before.
    So am I passionate? Absolutely, Senator. Am I committed to 
delivering environmental results? Absolutely. My track record 
over the past 2 years is evidence that we have made tremendous 
progress. I am sprinting to the finish line as Administrator, 
wanting to do more to continue to accelerate environmental 
progress.
    So thank you so much for asking me the question.
    Senator Whitehouse. Let me follow up, because these beliefs 
that I have elucidated are not ones that I have just made up. 
They are not new. They are widely held. They have been widely 
reported. Many people shake their shoulders and give up when 
you talk about EPA these days. How does it make you feel when 
that is the reputation that the office has in so many 
communities, and what can you do about it? What do you want to 
do about it?
    Mr. Johnson. My focus is delivering results, Senator. You 
mentioned enforcement. From your own experiences, our 
enforcement program over the past 3 years we have had the most 
success in delivering environmental results. Nearly 3 billion 
pounds of pollution have been avoided because of our 
enforcement actions. Because of our investments over the past 
three years, we have now in place at least $20 billion of 
pollution control equipment in place.
    So when you look at the investment of about a half- billion 
dollars each year over the last few years in our enforcement 
program, the result is nearly $20 billion in pollution control. 
Through our partnership programs, Energy Star for example, 
Americans saved $12 billion in energy costs in 2005. If you 
want to put that in greenhouse gas terms, that is saving 
America 23 million cars-worth of greenhouse gas equivalants. 
Those are significant results. My focus is continuing to 
deliver results to the American people.
    Senator Whitehouse. My time has expired. I will wait for 
another round and ask about benzine.
    Senator Boxer. Absolutely.
    Senator Klobuchar, welcome. We are so happy you could join 
us.
    Senator Klobuchar. Thank you, Chairwoman Boxer.
    Welcome again, Administrator Johnson.
    I wanted to follow up on, you were just talking about 
Energy Star. I know that Senator Lautenberg had mentioned it, 
but didn't have quite enough time to finish up some questions. 
You just talked about how effective this program has been in 
reducing greenhouse gas emissions and improving energy and 
efficiency.
    I am still trying to figure out, given that, the last time 
Congress appropriated money I think it was $49.5 million in 
fiscal year 2006, but this year the budget only seeks $43.9 
million. Could you explain why you are seeking less money for 
the program?
    Mr. Johnson. We believe that this budget will continue to 
deliver results, while meeting a balanced budget, and that it 
is a mature program that we have a lot of great stakeholders 
who are continuing to invest in. Most important is it is going 
to continue to deliver environmental results.
    Senator Klobuchar. When something is working, and you just 
talked about getting results, usually you don't cut back on it. 
I think in your own annual performance plan, which was 
submitted to Congress, you stated that you plan to expand the 
Energy Star Program as outlined in the Administration's 
national energy policy. The national energy policy talked about 
how Energy Star should, first of all, include a broad range of 
products, appliances and services, and then secondly expand 
beyond office buildings to include schools, retail buildings, 
health care facilities, and homes. Has that been done? Are 
there ways to expand this? And should we consider this as we 
look at the budget?
    Mr. Johnson. In fact, we are expanding in our Green 
Buildings Program. I just got back from Denver, where we opened 
up our new Denver Region VIII headquarters facility, which is a 
green building. We are in the process go going through the LEED 
certification. We expect that it will likely be a gold 
certification.
    So we are not only talking the talk, we are walking the 
walk of promoting energy efficiency. We are the first Federal 
agency to now go to 100 percent, or certainly 100 percent-
equivalent of green energy. We are the first Federal agency in 
the Federal Government to do that.
    We are continuing to push on to help not only promote green 
buildings.
    Senator Klobuchar. I congratulate you for that. But 
understand why I am grappling with this, is when the President 
has made energy a major part of what he wants to do, and we 
have a program that is working, and we know that there is more 
that we can do with reducing greenhouse gas emissions and 
conservation, why we wouldn't be looking to at least keep this 
program with its funding, or perhaps expand it. There must be 
other ways that we can extend this program beyond where we are 
now.
    Mr. Johnson. Senator, we believe we have sufficient funds 
to be able to meet our fiscal year 2008 goals and objectives in 
Energy Star and in all of our other program areas as well.
    Senator Klobuchar. Okay. I just wanted to follow up as well 
Senator Isakson's questions, and then the follow up by our 
Chair on the rural water issues. We talked about how there 
wasn't any specific funding for this program. I know that in 
Minnesota our Rural Water Association provides vital technical 
assistance and protection to small rural communities in 
Minnesota, as across the country. They have helped communities 
with their environmental protection efforts for drinking water, 
wastewater, ground water and source water.
    I can tell you, we have gotten a lot of calls about this. 
They want to make sure that they can keep providing assistance. 
I would just echo the discussion that we have had here that 
this is a nationwide program. It doesn't seem to fall into the 
category of what we are talking about with earmarks here. Even 
when we have earmarks, not every earmark is bad. I think we 
need to reduce the amount of discretionary spending in the 
Government. I have said that, but I also said stand by your 
pork. People are willing to say this is a good program, as I 
think you are hearing across the aisle here from both 
Republican and Democratic Senators that this is a good program.
    I guess my question of you is whether that is going to make 
a difference to you as you, in your words, look for money for 
this program.
    Mr. Johnson. As I said, we are in the process of sorting 
through our operating plan and sorting through what you, 
Congress, has directed us to do or not to do with regard to 
this year-long continuing resolution. As we sort through this 
and a number of other programs, we continue to provide support 
to small water systems through education and outreach and 
training.
    As I mentioned as part of the State revolving loan fund, 
there is up to a 2 percent set-aside in 2006. In fact, 
communities took advantage of that, and $14 million was devoted 
out of that fund to help small water systems. We will continue 
to provide support. In the meantime, we are sorting through 
your directions with regard to the continuing resolution and 
with regard to earmarks. We will have an operating plan to you 
on time.
    Senator Klobuchar. When that will be, being a new person 
here?
    Mr. Johnson. I will have to ask our CFO. March 15.
    Senator Klobuchar.  Excellent. Thank you very much.
    Mr. Johnson. Thank you.
    Senator Boxer. Thanks, Senator.
    Senator, go ahead. I will do the closing round. Why don't 
you ask about your benzine?
    Senator Whitehouse. Thank you.
    This is the beginning of a discussion that we are going to 
continue to have, but while I have you here, I wanted to raise 
it and you can respond either now or at greater length later.
    My understanding is that lead was an early addition to 
gasoline in order to improve octane and engine performance. It 
quickly became apparent that the lead that was being spread 
into the environment as a result of that was dangerous, and we 
took lead out and cleaned that up. As somebody who has had a 
lot of work dedicated to the lead issue, that was a very 
significant achievement.
    The lead was then replaced by benzine, toluene, and xylene 
for the same purpose. And now it is very apparent that those 
are three very dangerous chemicals. You have just begun a 
process to limit the benzine. Toluene and xylene remain, as far 
as I can tell, without regulatory activity.
    What I further understand is that ethanol, which we are 
hearing about as a good fuel alternative or fuel supplement 
additive in a lot of different respects, could displace those 
aromatics. If so, it seems to me that that is one of these kind 
of wonderful win-win-wins in which we increase our use of 
ethanol, we lower our use of three very dangerous chemicals. I 
think benzine has been banned in paint. Toluene went to a great 
effort to get out of the dry cleaning industry. This is serious 
stuff.
    There is this alternative waiting right there, which for 
other reasons relating to the greenhouse effect, have their own 
added independent value. (A), am I wrong, and if I am not, why 
aren't we going at this just full blast?
    Mr. Johnson. Senator, you correctly characterize the 
wonderful advantages of renewable fuels, ethanol in particular. 
That is precisely why the President is aggressively pursuing, 
and certainly wants Congress to aggressively pursue, the 
alternative fuel standard of 35 billion gallons, because not 
only is it good for energy security, it is also good for the 
environment.
    Greenhouse gases is one. Another is, as you point out, 
replacement for a number of these other aromatic compounds, 
benzine being certainly, from what we know, the most hazardous. 
That is why we put in place the regulation that we did.
    We, the President and EPA; are very aggressively urging 
Congress to move as quickly as we can to implement this very 
aggressive----
    Senator Whitehouse. Has there been legislation proposed 
that would do that?
    Mr. Johnson. We will be sending up legislation in the 
coming weeks.
    Senator Whitehouse. Could you notify me about it?
    Mr. Johnson. Excuse me?
    Senator Whitehouse. Keep in touch with me on it.
    Mr. Johnson. I will be happy to. Absolutely, yes, sir.
    Senator Whitehouse. Good.
    Thank you.
    Senator Boxer. Thank you very much, Senator.
    I would point out that there is a whole new world out there 
with cellulosics, some of which even offer more advantages than 
corn ethanol, because you don't have to grow the crop and then 
toss the crop out. We are already getting people saying the 
price of corn is going up. So there are a lot of opportunities 
we have out there with cellulosics.
    I think the most important thing for us to remember is that 
all alternative fuels are clean, but renewables are. So that is 
important.
    I just have two more questions, and then I will make my 
closing comments.
    Administrator Johnson, perchlorate is a toxin found in tens 
of millions of Americans' drinking water. Most of our States 
have traces of perchlorate. Your agency said in 2001, ``EPA 
will make a regulatory determination about whether to set a 
standard for perchlorate when data become available, not wait 
until 2006.'' It said the agency would decide whether to set a 
perchlorate standard by 2003.
    So now it is 6 years since EPA made that promise. Have you 
decided whether perchlorate should be regulated in drinking 
water?
    Mr. Johnson. Well, Senator, as you are probably well aware, 
our focus is to make sure that people are protected from 
perchlorate, whether it is a vapor intrusion, water or other 
sources. In fact, that is why we went to the National Academy 
of Sciences and sought their advice, which they came back.
    Senator Boxer. I have to ask you a very simple question.
    Mr. Johnson. Sure.
    Senator Boxer. Have you decided whether perchlorate should 
be regulated in drinking water? That is my question.
    Mr. Johnson. We have not decided, and not decided because 
we are in the process of evaluating the science, both the 
science associated with the RFD, as well as the science of what 
is the relative source contribution of perchlorate. Is it water 
which is the issue? Is it food which is the issue?
    Senator Boxer. I am talking about water.
    Mr. Johnson. Yes.
    Senator Boxer. I am talking about perchlorate in drinking 
water. I am telling you that California is already moving on 
this, and the States are going to go right ahead of you. It is 
just like greenhouse gases. The lack of interest by this 
Administration in doing your job is leading to a patchwork 
quilt of regulations that is just going to be ridiculous.
    When are you going to give us an answer?
    Mr. Johnson. With due respect, we are aggressively looking 
at the science. There have been some recent studies done by the 
Centers for Disease Control. We are evaluating those.
    Senator Boxer. With due respect, Administrator Johnson, in 
2001 the agency said EPA will make a regulatory determination 
about whether to set a standard and we won't wait until 2006. 
And you decide in 2003. So this sense of frustration you hear 
is, this great EPA that you have been lauding since you walked 
in here has failed the people. And this perchlorate is all over 
the place. It is all over the place. And other States are 
moving ahead.
    And then you say you are very concerned. Why did you stop 
testing drinking water for perchlorate?
    Mr. Johnson. We stopped testing because we have sufficient 
monitoring information on which to base a decision, and I did 
not want to impose a monitoring requirement and have data not 
coming until 2010.
    Senator Boxer. So you have enough information to stop the 
testing, but you don't have enough information to set the 
standard.
    Mr. Johnson. I want to be in a position to make a decision 
before 2010.
    Senator Boxer. Oh, that is the new date.
    Mr. Johnson. That is precisely why I did not want to 
continue the monitoring.
    Senator Boxer. Well, you are not going to be there in 2010. 
Maybe you will, but it is doubtful. So you are pushing this off 
on somebody else, and you are saying you have enough data, so 
you don't have to test, but you don't have enough data to set a 
standard. You fail my test of credulity.
    I want to ask you something else, exemption for factory 
farm pollution from Superfund. It has been widely reported that 
EPA plans to exempt pollution from huge factory farms called 
concentrated animal feeding operations from Superfund's 
reporting requirements. In 2005, EPA said these facilities, 
``can have a negative impact on nearby residents, particularly 
with respect to odors and other nuisance problems that concerns 
have been raised recently regarding the possible health impacts 
from these facilities' emissions.''
    EPA entered into a settlement agreement with 2,500-plus 
facilities that agreed to help determine how much air pollution 
they emit, to certify that they are complying with Superfund 
and other public health laws. Does EPA plan to reverse course 
and now exempt those facilities?
    Mr. Johnson. Senator, we do not intend to exempt those 
facilities under the Clean Air Act, and we do not plan to 
exempt them from the CERCLA-EPCRA liability or releases to 
water or their response authority. We are planning to propose a 
rule to exempt the air releases from CERCLA reporting as an 
emergency. Twenty-six State emergency planning commissions 
wrote into the agency. Of the 26 that wrote in to us on this 
issue, all 26 recommended that we exempt this reporting. 
Further, Congress in 2004, 2005 and 2006 asked us to take a 
look at this and sort this out. They did not want, as the 
members of the State emergency planning commissions, wasting 
time from our emergency response people in dealing with air 
releases from farms.
    Senator Boxer. Okay. So the community will no longer have 
the right to know about this pollution is what you are telling 
me.
    Mr. Johnson. The community still has the right to know 
because there are still potential releases to water. There are 
still potential authorities regarding liability, and this is 
not a termination of the Clean Air Act. So again, this is 
trying to have an efficient and effective response program that 
doesn't burden our emergency response personnel with this 
information. Oh, by the way, this also does not affect the GRI 
program either.
    Senator Boxer. Okay. I am going to put in the record a 
letter that opposes what you are doing. I will tell you who 
signed the letter: the U.S. Conference of Mayors, National 
Association of Counties, National Association of City and 
County Health Officials, American Waterworks Association, 
American Metropolitan Water Agencies, Attorneys General from 
eight States, the Iowa Department of Natural Resources, the 
City of Waco, the City of Tulsa, which I think my Ranking 
Member would be interested in, and more than 20 national and 
State public health and environmental organizations.
    Now, I haven't seen in writing what you are suggesting, but 
the community right to know is an American value. So I hope you 
reconsider this course. I am going to put in some questions 
into the record so you can get going and moving, and I am going 
to leave the record open for a week to get these questions in. 
Do you think you can get them answered in about 30 days? Would 
that be possible?
    Mr. Johnson. We will do everything we can to achieve that, 
yes. Not knowing what the list of questions are or how many, 
but we will do everything we can.
    Senator Boxer. I don't think they will be an over-
burdensome number, but we will hope that you can get them in in 
30 days.
    So let me just sum up here. We always have these 
contentious debates. I think it is healthy for the counrty to 
see this debate. I think it is an important divide in our 
country now over what the community has a right to expect from 
its Government when it comes to the health of their families. 
To have the EPA Administrator talk about how he hasn't really 
fought these cuts is very disturbing to me. I think Senator 
Lautenberg was right on point when he said your job is to fight 
for the environment now.
    In your rhetoric, it is beautiful. Your rhetoric is 
beautiful. But what you are doing is not beautiful. And let me 
tell you, you have said in answer to Senator Whitehouse, you 
have a passion to improve the environment, but your budget 
endorses cuts to the environment of $421 million: cuts in 
personnel, cuts in the Clean Air Program; the Safe Drinking 
Water Program; aid to the cities and counties; the Brownfields 
Program.
    I have gone through this. The list goes on and on. And all 
of these things have made our counrty a leader. So when we have 
the Administrator sit here and say, well, I didn't even sit and 
really make a fight for it. You take away a targeted Office of 
Children's Health that was set up for a purpose, so that the 
only issue there was children's health.
    Now, knowing what EPA tried to do under your leadership 
with testing kids for pesticides, getting paid off, and their 
families called the CHEERS Program in Florida, where the kids 
would be crawling around as pesticides were being sprayed, but 
the families got paid off with a videocam, I understand why you 
might not want an Office of Children's Health.
    Mr. Johnson. Senator, we still have an Office of Children's 
Health. I have to correct the record.
    Senator Boxer. Well, it is going to be combined with other 
functions, and we have it right out of your own budget. It is 
going to be combined with other functions.
    Mr. Johnson. We have an Office of Children's Health. And, 
in fact, it is not just the Office of Children's Health, but it 
is our entire agency that is continuing to work to make sure 
that we are protecting our Nation's most vulnerable 
populations.
    Senator Boxer. Well, I mean, the fact is we wanted an 
Office of Children's Health where the only thing done in that 
office is worrying about children's health.
    Mr. Johnson. There still is an Office of Children's Health.
    Senator Boxer. You have combined it, period, end of quote. 
That is a fact.
    Mr. Johnson. It is still an Office of Children Health. That 
is a fact, Senator.
    Senator Boxer. The fact is, and I don't need you to talk 
now because I will give you your chance in many other hearings.
    Mr. Johnson. Okay.
    Senator Boxer. But I have listened to you very carefully, 
and this is my turn to wrap up as far as what I know and what I 
believe and what I heard and what I read and what I have been 
briefed about.
    You have cut funds for environmental justice, toxic 
chemical regulations, global warming, environmental protection 
at the U.S.-Mexico border, environmental education. I mean, the 
last time we sat here, we had arguments and you said the 
libraries were not shutting down, and I showed you the website 
that said they were closed. Oh, you didn't know. I trust you 
know what you are cutting, because if you listen to your words 
it sounds like you are not doing any damage.
    So here is the deal, this is a great counrty. I hold the 
gavel now. You hold an office now. We will work together when 
we can. But we have a fundamental difference. I don't think an 
Environmental Protection Agency Administrator should sit back 
and take the kind of cuts in programs that you are taking, and 
you are in essence endorsing.
    At the same time, when you testify, you don't even admit to 
that. This is the second time you have done this in a hearing. 
It is disingenuous. We had a hearing on rollbacks. You didn't 
talk about the rollbacks. You talked about how great everything 
is. We have a hearing on budget. The budget has been cut, huge 
numbers, everything. My colleagues on the Republican side are 
very unhappy with this, too.
    And yet you don't even reference this, and it is a very 
disturbing trend here. It is almost like we are talking past 
each other. And so that is why I don't think it is useful for 
you to respond, then I will respond, then you will respond. We 
have done it enough today. We have done it enough. You are 
tired. I am tired.
    But as long as I have this gavel and no one knows how long 
it will be, believe me. We don't know. I am going to press you 
on how you can sit there and say that what you are doing at the 
EPA, everything you are doing is so wonderful for the American 
people, when the facts belie it.
    Now, I want to say something to the employees of the EPA, 
who may be in this room or who may hear the sound of my voice, 
or who may read an article. Thank you for helping me do my job. 
You send me letters. You call me up. You let me know what is 
going on. Keep doing it. Keep letting me know the truth of what 
is going on, because the truth shall set you free. We are 
learning that when you lie, it catches up with you. We are 
going to have truth-telling here. We are going to look at these 
cuts. We are going to look when you say how great we are doing 
on air, we are going to look at this, that I got from my local 
people who are apoplectic at the cuts that you are making to 
the Clean Air Program, just as Senator Voinovich was so upset 
about the cuts to the Safe Drinking Water Program.
    This is not acceptable. Do you think I could go home with a 
straight face and look at these people and say, oh yes, this is 
what you are exposed to; in three and a half months, this is 
what your lungs are going to have to take. But we are doing 
everything we can do. And it is fine to cut the environmental 
budget; no problem.
    It doesn't wash. So you and I go at it. It has sort of 
become now an expected duel. And all I can do is try to win you 
over to the side of what I think the EPA ought to be: a 
champion of the environment. And if you would sit there and 
say, Senator, I really want to tell you this, but the OMB told 
me this is what I have to take, and I am not happy, but I did 
it the best way I could do.
    No, we don't hear that and it makes me very unhappy. But it 
is just the difference between the parties, I guess, or it is 
the difference between the way you see the world and the way I 
see the world. But here is the thing, I think the people are on 
my side. They want clean air. They want it.
    And by the way, I don't agree with you that 300 million 
Americans are all environmentalists. Oh, no. I know a few right 
here who wouldn't call themselves environmentalists, let alone 
out there. A lot of them are too busy to even get into it. It 
is our job to keep them healthy, breathing clean air. It is our 
job to make sure their kids don't live next to a Superfund. It 
is our job to fulfill the requirements of the law. It is our 
job to let the community know if filth and dirt and pollution 
is coming over them.
    This is serious stuff, serious stuff. And perchlorate, oh, 
we don't know now; well, we were supposed to know in 2001 if 
there was going to be a standard set. In 2001, they said you 
will know by 2003 whether we need to set a standard. And we 
will certainly do it before 2006. Oh, now we can't do it. Well, 
other States can do it, but we can't, but we know enough so 
that we can have a new rule from you saying no testing of 
perchlorate.
    How outrageous is that? At least let's test it before we 
set a standard so people know.
    So that is where we stand on different sides of this. Thank 
you for coming, and we will continue these debates as we move 
the budget to the floor.
    Thank you.
    Mr. Johnson. Thank you.
    [Whereupon, at 4:56 p.m. the committee was adjourned, to 
reconvene at the call of the Chair.]
      

                                    

</pre></body></html>
